INDEX TO AHtmCES
AHFNDIX A-U.S. COURT OF AFPEAIS FOR THE 3rd Cir.: CASE # 20-2250:
3/29/21 DENIAL OF PEHUCN FDR PANEL OR ENC BANC REHEARING

1

APPENDIX B- U.S OOLfRT OF AFPEAIS FDR THE 3rd OR.: CASE # 20-2250:
1/8/21 DENIAL OF REQUEST FOR ISSUANCE OF C.O.A______

3

AFHNDEX C- U.S. DISTRICT COURT FDR EASTERN DISIRICT, CASE # 18-237:
3/19/21 DENIAL CF RULE 59(e) MOTION___ :_____________

5

APPENDIX D- U.S. DISTRICT COURT FDR EASTERN DISTRICT, CASE # 18-237:
7/15/21 ADOPTION OF R&R _______________________

11

APPENDIX E- U.S. DISTRICT COURT FDR EASTERN DISTRICT, CASE # 18-237:
MAGISTRATE REPORT AND RE0CMMENDAI1£NN(I&R)____

18

APPENDIX F- PENNSYLVANIA SUPERIOR COURT, CASE 3555 EDA 2018:
DENIAL OF APPEAL OF DISMISSAL CF CONSECUTIVE PCRA HEARING WTIHOUr HEARING.

53

APEOTttX G- NORTHAMPTON COUNTY COURT OF COT PLEAS, CASE # 3344-cr-2009:
ORDER DISMISSING THIRD PCRA_____________________________

63

APPENDIX B- NORIHAMPICN COUNTY COURT OF OCMCN FLEAS* CASE # 3344-CR-2009;
ORDER DISMISSING SECOND PCRA____________________________

87

AFMHX I- PENNSYLVANIA SUPERIOR COURT, CASE # 337 EDA 2017:
DENIAL OF APPEAL CF DENIALOOE FIRST PCRA_______

107

APPENDIX j- NORIHAMPICN COUNTY COURT OF OMN PLEAS, CASE # 3344-cr-2009:
12/30/16 ORDER DENYING FIRST PCRA________________________

129

APPENDIX K- PA SUPREME CT, CASE # 8 MAP 2014:
DENIAL OF APPLICATION FDR REARGUMENT CF ENC BANC REARGUMENT

133

APPENDIX L- PA SUPREME CT, CASE # 8 MAP 2014:
AFFIRMANCE CF LOWER COURT DECISION DENYING NEW TRIAL

155

APEFNDIX M- SUPERIOR COURT CF PENNSYLVANIA, CASE # 1893 EDA 2011:
ORDER AFFIRMING TRIAL COURT ORDER CN INC BANC REARGUMENT

176

APPENDIX N- SUFERICR COlMiOEiEHtJSYLVANIA^GASE # 1893 EDA 2011:
ORDER VACATING TRIAL COURT ORDER AND GRANTING NEW TRIAL

212

APPENDIX 0- NORIHAMPICN COUNTY COURT CF COMMON PLEA, CASE # 33444GR-2009:
ORDER DENYING POST SENEENCE MOTION FOR NEW TRIAL __________

226

AFPENDIX P- 18 Pa. C.S. § 505 (Complete) (2009 Ed.)__________

241

APPENDIX Q- 42Pa. C.S. § 5552 (Complete)__________________

244

APPENDIX R- Pa. Standard Suggested Jury Inst. 9.501 (Ccmplete)

251

APPENDIX S- PA R. Evid. 405 (Complete)

258

APPENDIX T- PA R. Evid. 609 (Ccmplete)

260

APPENDIX U- PA R. Evid. 804 (Ccmplete)

262

v

APPENDIX A
U.S. Ct. of Appeals for the 3rd Or. Case # 20-2250
3/29/21 Denial of Petition for Panel or Enc Banc Rehearing

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 20-2250
JACOB CHRISTINE,
Appellant
v.
SUPERINTENDENT ALBION SCI;
THE DISTRICT ATTORNEY OF NORTHHAMPTON COUNTY;
THE ATTORNEY GENERAL OF THE STATE OF PENNSYLVANIA
(E.D.Pa. No. 5-18-CV-00237)

SUR PETITION FOR REHEARING

Present- SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges
The petition for rehearing filed by appellant in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is DENIED.
BY THE COURT
s/ Kent A. Jordan
Circuit Judge
DATED: March 29,2021
CLW/cc: Mr. Jacob Christine
Joseph E. Hudak, Esq.
Rebecca J. Kulik, Esq.

APPENDIX B
U.S. Ct. Of Appeals for the 3rd Cir. Case # 20-2250
1/8/21 Denial of Request for Issuance of C.O.A.

Case: 20-2250

Document: 26-1

Page: 1

Date Filed: 01/08/2021

December 17, 2020
DLD-051
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2250
JACOB CHRISTINE, Appellant
VS.
SUPERINTENDENT ALBION SCI, ET AL.
(E.D. Pa. Civ. No. 5-18-CV-00237)
Present:

JORDAN, KRAUSE and PHIPPS, Circuit Judges
Submitted is Appellant's amended application for a certificate of
appealability under 28 IJ.S.C. § 2253(c)(1) (ECF No. 22)
in the above-captioned case.
Respectfully,
Clerk

________________________________ ORDER__________________________________
Appellant’s request for a certificate of appealability is denied because he has not
“made a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). For substantially the reasons given by the District Court, jurists of reason
would agree, without debate, that the claims raised in Appellant’s application are without
merit or are procedurally defaulted, and that Appellant has not shown cause and prejudice
or a fundamental miscarriage of justice for consideration of his defaulted claims. See
Slack v. McDaniel. 529 U.S. 473, 484 (2000).
By the Court,
s/ Kent A. Jordan
Circuit Judge
Dated: January 8, 2021
CLW/cc: Joseph E. Hudak, Esq.
Rebecca J. Kulik, Esq.

1§lN

me/}

A True Copy: 0

•V

Patricia S. Dodszuweti, Clerk
Certified Order Issued in Lieu of Mandate

Ref: 2452244 pg ■7 of 9 for JACOB CHRISTINE.-

APPENDIX C
U.S. Dist. Ct. for Eastern Dist., Case # 18-cv-237
Denial of Rule 59(e) Motion

Case 5:13-cv-0G237-PBT Document 51 Filed 0b/19/20 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
JACOB CHRISTINE,
Petitioner,

CIVIL ACTION

v.

NO. 18-0237

MICHAEL CLARK, et al.
Respondents.
ORDER
AND NOW, this 19th_ day of May, 2020, upon consideration of Petitioner s Rule 59(e)
Motion (Doc. Nos. 28, 30, 31,32, 33, 35), Rule 60(b) Motion (Doc. Nos. 34, 35), the Response
in Opposition (Doc. 43), and the additional letters submitted by Petitioner (Doc . Nos. 40,41,42,
44.47,48, 49, 50), IT IS HEREBY ORDERED AND DECREED that each of Petitioner s
foregoing motions are DENIED.5

BY THE COURT:
/s/ Petrese B. Tucker
Hon. Petrese B. Tucker, U.S.D.J.

I. BACKGROUND
In 2010, a jury in Northampton County Court of Common Pleas convicted Petitioner
Jacob Christine (“Petitioner”) on charges of aggravated assault and reckless endangerment.
Petitioner was sentenced to 9-20 years on the aggravated assault conviction, with a concurrent
sentence of one to two years on the reckless endangerment charge. Petitioner filed an appeal to
l

Ref: 1792300 pg 4 of 27 for JACOB CHRISTINE

Case 5:18-cv-00237-PBT Document 51 Filed 05/19/20 Page 2 of 5

the Superior Court challenging the pre-trial evidentiary rulings after the Court of Common Pleas
denied his post-sentencing motion. An evenly divided court, sitting en banc, affirmed
Petitioner’s sentence. Commonwealth v. Christine, 78 A.jd 1 (Pa. Super. Ct. 2013). The
Pennsylvania Supreme Court granted allowance of appeal, but ultimately affirmed the conviction
on October 27, 2015. Commonwealth v. Christine, 125 A.3d 394 (Pa. 2015).
At the conclusion of the direct appeal process, Petitioner filed a pro se petition and
memorandum pursuant to the Pennsylvania Post Conviction Relief Act (“PCRA”). The PCRA
Court denied the petition, and Petitioner appealed the denial. The Superior Court affirmed the
denial of the PCRA relief on January 3, 2018. Commonwealth v. Christine, No. 337 EDA 2017,
2018 WL 268519 (Pa. Super. Ct. Jan. 3, 2018).
Petitioner filed a federal habeas petition on January 18, 2018. Pet. Habeas Corpus, Doc.
1. This Court denied the petition on July 15, 2019. Order Den. Pet. Habeas Corpus, Doc. 27.
Before the Court are Petitioner’s Rule 59(e) and 60(b) Motions seeking relief from this Court’s
denial of his habeas petition.
A.

Standard for Relief Under Federal Rule of Civil Procedure 60(b)

Federal Rule of Civil Procedure 60(b) provides that a party may request relief from a
final judgment under a limited set of circumstances, including fraud, mistake, and newly
discovered evidence. Fed. R. Civ. P. 60(b). Additionally, a party may request relief under the
catchall provision of Rule 60(b)(6), which permits relief when a movant shows “any other reason
that justifies relief.” Fed. R. Civ. P. 60(b)(6). A court may only grant relief under Ru!e60(b) in
“extraordinary circumstances, where without such relief, an extreme and unexpected hardship
would occur.” Satterfield v. District Attorney Phila., 872 F.3d 152,158 (3d. Cir. 2017). IfaRule
60(b) motion raises habeas claims that have previously been denied on the merits or raises

2

Ref: 1792300 pq 5 Of 27 for JACOB CHRISTINE

?

£

i

t

:

r

Case 5:18-cv-00237-PBT Documents! Filed 05/19/20 Page 3 of 5

additional grounds for relief, the motion is deemed a second or successive habeas petition. See
Gonzalez v. Crosby, 545 U.S. 524, 532 (2005) (finding Rule 60(b) motion a successive habeas
petition if it “attacks the federal court’s previous resolution of a claim on the merits.”).
B.

Standard of Relief Under Federal Rule of Civil Procedure 59(e)

A motion to reconsider under Rule 59(e) should be granted to correct a clear error of law
or of fact, and to prevent a manifest injustice. Fed. R. Civ. P. 59(e); Allah v. Ricci, 532 F.App'x
48, 51 (3d Cir. 2013) (citing Lazaridis v. Wehmer, 591 F.3d 666. 669 (3d Cir. 2010)). In
Blystone, the Third Circuit Court of Appeals held that “a timely Rule 59(e) motion to amend or
alter a judgment is not a second or successive [habeas] petition, whether or not it advances a
claim, and therefore such a motion lies outside the reach of the jurisdictional limitations that
AEDPA imposes upon multiple collateral attacks.” Blystone v. Horn, 664 F,3d 397, 415 (3d Cir.
2011). The court reasoned, “the differences between Rules 60(b) and 59(e) are [not] merely
technical. To the contrary,... it is clear that, unlike a Rule 60(b) motion, a Rule 59(e) motion is
part of the one full opportunity for collateral review that AEDPA ensures to each petitioner/’ Id.
Although not defined as a second or successive petition, “[t]he scope of a motion for
reconsideration ... is extremely limited.” Id. As the Bylstone court articulated. "[s]uch motions
are not to be used as an opportunity to relitigate the case; rather, they may be used only to correct
manifest errors of law or fact or to present newly discovered evidence.” Id. (citing Howard Hess
Dental Labs., Inc. v. Dentsply Int’l Inc., 602 F.3d 237, 251 (3d Cir. 2010)). A court may alter or
amend a judgment
only if the party seeking reconsideration shows at least one of the
following grounds: (1) an intervening change in the controlling law;
(2) the availability of new evidence that was not available when the
court granted the motion [at issue]; or (3) the need to correct a clear
error of law or fact or to prevent manifest injustice.

S
Ref: 1792300 pg 6 of 27 for JACOB CHRISTINE

Case 5:18-cv-00237-PBT Document 51 Filed 05/19/20 Page 4 of 5

Id. New evidence must be evidence that a party could not submit to the court earlier because it
was unavailable, and evidence not newly discovered in such a manner "cannot provide the basis
for a successful motion for reconsideration.” Id. at 415-416.
II. ANALYSIS
A. Petitioner’s Ineffective Assistance of Counsel Claims Cannot be Relitigated
Because They Were Decided on The Merits.
In the instant 60(b) Motion, Petitioner alleges that the “[Report and Recommendation] []
made a ruling based on a fraudulent representation by the s[tate] c[ourt]” with respect to his third
and fourth grounds for relief because he did not have a duty to retreat from his “dwelling.” 60(b)
Mot. 2, Doc. 34. in Petitioner’s third and fourth claims, he argued that counsel performed
deficiently by not requesting that the court give a castle doctrine jury instruction and for failing
to correct an error in the jury instruction concerning self-defense and aggravated assault. Pet.
Habeas Corpus 47-56, Doc. 1 .,His argument does not have merit.
The Court concluded that the lower courts’ adjudication of Petitioner’s third claim was
not “an unreasonable application of Strickland's deficient performance prong” and, therefore,
found that “habeas relief is ... not available ..R. & R. 21—22, Doc. 19. The Court also
declined to extend habeas relief on Petitioner’s fourth claim, finding that “[b]ecuse the
underlying issue, if raised by counsel, would have been deemed meritless under both state and
federal law, counsel cannot be deemed to have been ineffective for having failed to raise it, R.
& R. 26.
Petitioner’s 60(b) Motion fails because he presents no new evidence to support his claims
that counsel performed deficiently and also does not attack the procedures followed by the Court.
See Gonzalez v. Crosby, 545 U.S. 524, 532 (2005). Petitioner’s Motion, instead, seeks to
relitigate issues that were dismissed by the Court. See id. (finding Rule 60(b) motion a
4

Ref: 17S2300 pg 7 of 27 for JACOB CHRISTINE

Case 5:18-cv-00237-PBT Document 51 Filed 05/19/20 Page 5 of 5

successive habeas petition if it “attacks the federal court’s previous resolution of a claim on the
merits.”). Accordingly, Petitioner has not demonstrated any reason for this Court to grant Rule
60(b) relief. Therefore, Petitioner’s 60(b) motion is DENIED.
B. Petitioner Has Not Pointed to Any Manifest Legal Error in the Court’s Adoption
of the Report and Recommendation.
Petitioner seeks to amend the Court’s judgment to, “correct manifest errors of law and
fact.” 59(e) Mot. 1, Doc. 28. However, Petitioner’s 59(e) Motion fails because he does not point
to any manifest legal error or injustice in this court’s dismissal of his habeas petition. Instead
petitioner advances the same arguments put forth in his habeas petition. Petitioner also asks the
court to consider three affidavits in support of his claim that there was prosecutorial misconduct
in the form of a Brady violation as evidence that has not been addressed. 59(e) Mot. 2, Doc. 33.
One of the affidavits was previously submitted in support of Petitioner’s motion to amend his
original habeas petition. See Am. Pet. Habeas Corpus, Doc. 18. The Court reviewed the affidavit
in disposing of the habeas petition, finding that because the state courts adjudicated the claim on
the merits, it was bound to, “conductO an AEDPA review of the state court determination based
upon the factual record established by [Petitioner] in state court. R. & R. 15. Additionally,
Petitioner does not allege that evidence from the affidavits was previously unknown or
unavailable to him. See Blystone v. Horn, 664 F.3d 397,415—16 (3d Cir. 2011)
("[N]ew evidence in this context means evidence that a party could not earlier submit to the court
because that evidence was not previously available.”). Accordingly, Petitioner s 59(e) motion is
DENIED.

5

Ref: 1792300 pg 8 of 27 for JACOB CHRISTINE

10

APPENDIX D
U.S. Dist. Ct. for Eastern Dist. Case # 18-cv-237
Adoption of ’ W
3/19/21

\\

Case 5:18'CV-00237-PBT Document 27 Filed 07/15/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
JACOB CHRISTINE,
Petitioner,
CIVIL ACTION
v.

NO. 18-0237

MICHAEL CLARK, et al.
Respondents.
ORDER
AND NOW, this _15th

day of July, 2019, upon careful and independent

consideration of the petition for Writ of Habeas Corpus (Doc. 1), the Report and
Recommendation of United States Magistrate Judge David R. Strawbridge (‘’Report and
Recommendation”) (Doc. 19), and Petitioner’s Objections to the Report and Recommendation
(Docs. 23, 25), IT IS HEREBY ORDERED AND DECREED that:
1. The Report and Recommendation is APPROVED and ADOPTED;
2. The petition for Writ of Habeas Corpus is DENIED with prejudice;
3. There is no probable cause to issue a certificate of appealability;

/

4. Petitioner’s Motion to Compel the Lower Court to Provide Discovery (Doc. 21) is
DENIED; and
5. The Clerk of the Court shall mark this case CLOSED for statistical purposes.

BY THE COURT:
Is/ Petrese B. Tucker
Hon. Petrese B. Tucker, U.S.D.J.

XL

Case 5:18-cv-00237-PBT Document 51 Filed 05/19/20 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
JACOB CHRISTINE,
Petitioner,

CIVIL ACTION

v.

NO. 18-0237

MICHAEL CLARK, et al.
Respondents.
ORDER
AND NOW, this _19th_ day of May, 2020, upon consideration of Petitioner’s Rule 59(e)
Motion (Doc. Nos. 28, 30, 31, 32, 33, 35), Rule 60(b) Motion (Doc. Nos. 34, 35), the Response
in Opposition (Doc. 43), and the additional letters submitted by Petitioner (Doc . Nos. 40, 41, 42,
44, 47,48,49, 50), IT IS HEREBY ORDERED AND DECREED that each of Petitioner’s
foregoing motions are DENIED.'

BY THE COURT:
/s/ Petrese B. Tucker
Hon. Petrese B. Tucker, U.S.D.J.

i

I. BACKGROUND
In 2010, a jury in Northampton County Court of Common Pleas convicted Petitioner
Jacob Christine (“Petitioner”) on charges of aggravated assault and reckless endangerment.
Petitioner was sentenced to 9-20 years on the aggravated assault conviction, with a concurrent
sentence of one to two years on the reckless endangerment charge. Petitioner filed an appeal to
1

na??CO nn.

r,f SCI for JACOB CHRISTINE

13

Case 5:18-cv-00237-PBT Document 51 Filed 05/19/20 Page 2 of 5

the Superior Court challenging the pre-trial evidentiary rulings after the Court of Common Pleas
denied his post-sentencing motion. An evenly divided court, sitting en banc, affirmed
Petitioner’s sentence . Commonwealth v. Christine, 78 A.3d 1 (Pa. Super. Ct. 201 j). The
Pennsylvania Supreme Court granted allowance of appeal, but ultimately affirmed the conviction
on October 27, 2015. Commonwealth v. Christine, 125 A.3d 394 (Pa. 2015).
At the conclusion of the direct appeal process, Petitioner filed a pro se petition and
memorandum pursuant to the Pennsylvania Post Conviction Relief Act ("PCRA’). The PCRA
Court denied the petition, and Petitioner appealed the denial. The Superior Court affirmed the
denial of the PCRA relief on January 3,2018. Commonwealth v. Christine, No. 337 EDA 2017,
2018 WL 268519 (Pa. Super. Ct. Jan. 3, 2018).

,

Petitioner filed a federal habeas petition on January 18,2018. Pet. Habeas Corpus, Doc.
1. This Court denied the petition on July 15, 2019. Order Den. Pet. Habeas Corpus, Doc. 27.
Before the Court are Petitioner’s Rule 59(e) and 60(b) Motions seeking relief from this Court’s
denial of his habeas petition.
A.

Standard for Relief Under Federal Rule of Civil Procedure 60(b)

Federal Rule of Civil Procedure 60(b) provides that a party may request relief from a
final judgment under a limited set of circumstances, including fraud, mistake, and newly
discovered evidence. Fed. R. Civ. P. 60(b). Additionally, a party may request relief under the
catchall provision of Rule 60(b)(6), which permits relief when a movant shows “any other reason
that justifies relief.” Fed. R. Civ. P. 60(b)(6). A court may only grant relief under Rule60(b) in
“extraordinary circumstances, where without such relief, an extreme and unexpected hardship
would occur.” Satterfield v. District Attorney Phila872 F.3d 152,158 (3d. Cir. 2017). If a Rule
60(b) motion raises habeas claims that have previously been denied on the merits or raises

2

Ref: 1792260 PO 33 of 50 for JACOB CHRISTINE

14

Case 5:13-cv-00237-PBT Document 51 Fitec! 05/19/20 Page 3 of 5

additional grounds for relief, the motion is deemed a second or successive habeas petition. See
Gonzalez v.

Crosby, 545 U.S. 524, 532 (2005) (finding Rule 60(b) motion a successive habeas

petition if it “attacks the federal court’s previous resolution of a claim on the merits. ).
B.

Standard of Relief Under Federal Rule of Civil Procedure 59(e)

A motion to reconsider under Rule 59(e) should be granted to correct a clear error of law
or of fact, and to prevent a manifest injustice. Fed. R. Civ. P. 59(e); Allah v. Ricci, 532 F.App x
48, 51 (3d Cir. 2013) (citing Lazaridis v. Wehmer, 591 F.3d 666, 669 (3d Cir. 2010)). In
Blystone, the Third Circuit Court of Appeals held that “a timely Rule 59(e) motion to amend or
alter a judgment is not a second or successive [habeas] petition, whether or not it advances a
claim, and therefore such a motion lies outside the reach of the jurisdictional limitations that
AEDPA imposes upon multiple collateral attacks.” Blystone v. Horn, 664 F.3d 397,415 (3d Cir.
2011). The court reasoned, “the differences between Rules 60(b) and 59(e) are [not] merely
technical. To the contrary,... it is clear that, unlike a Rule 60(b) motion, a Rule 59(e) motion is
part of the one full opportunity for collateral review that AEDPA ensures to each petitioner.” Id.
Although not defined as a second or successive petition, “[t]he scope of a motion for
reconsideration ... is extremely limited.” Id. As the Bylstone court articulated, “[s]uch motions
are not to be used as an opportunity to relitigate the case; rather, they may be used only to correct
manifest errors of law or fact or to present newly discovered evidence.” Id. (citing Howard Hess
Dental Labs.. Inc. v. Dentsply Inti Inc, 602 F.3d 237,251 (3d Cir. 2010)). A court may alter or
amend a judgment
only if the party seeking reconsideration show's at least one of the
following grounds: (1) an intervening change in the controlling law;
(2) the availability of new evidence that was not available when the
court granted the motion [at issue]; or (3) the need to correct a clear
error of law or fact or to prevent manifest injustice.

\5
Paf ■

1 792260 Ell

34 o£ 50 for JACOB CHRISTINE

Case 5:18-cv-00237-PBT Document 51 Filed 05/19/20 Page 4 of 5

Id. New evidence must be evidence that a party could not submit to the court earlier because it
was unavailable, and evidence not newly discovered in such a manner “cannot provide the basis
for a successful motion for reconsideration.” Id. at 415-416.
II. ANALYSIS
A. Petitioner’s Ineffective Assistance of Counsel Claims Cannot be Relitigated
Because They Were Decided on The Merits.
In the instant 60(b) Motion, Petitioner alleges that the “[Report and Recommendation] []
made a ruling based on a fraudulent representation by the s[tate] c[ourt] '’ with respect to his third
and fourth grounds for relief because he did not have a duty to retreat from his “dwelling .” 60(b)
Mot. 2, Doc. 34. In Petitioner’s third and fourth claims, he argued that counsel performed
deficiently by not requesting that the court give a castle doctrine jury instruction and for failing
to correct an error in the jury instruction concerning self-defense and aggravated assault. Pet.
Habeas Corpus 47-56, Doc. 1. His argument does not have merit.
The Court concluded that the lower courts’ adjudication of Petitioner’s third claim was
not “an unreasonable application of Strickland's deficient performance prong” and, therefore,
found that “habeas relief is .. . not available . . ” R. & R- 21-22, Doc. 19. The Court also
declined to extend habeas relief on Petitioner’s fourth claim, finding that [bjecuse the
underlying issue, if raised by counsel, would have been deemed meritless under both state and
federal law, counsel cannot be deemed to have been ineffective for having failed to raise it. R.
& R. 26.
Petitioner’s 60(b) Motion fails because he presents no new evidence to support his claims
that counsel performed deficiently and also does not attack the procedures followed by the Court.
See Gonzalez v. Crosby, 545 U.S. 524, 532 (2005). Petitioner’s Motion, instead, seeks to
relitigate issues that were dismissed by the Court. See id. (finding Rule 60(b) motion a

4

Ref: 1792260 pg 35 of SO for JACOB CHRISTINE

It

Case 5:18-cv-00237-PBT Document 51 Filed 05/19/20 Page 5 of 5

successive habeas petition if it “attacks the federal court’s previous resolution of a claim on the
merits.”). Accordingly, Petitioner has not demonstrated any reason for this Court to grant Rule
60(b) relief. Therefore, Petitioner’s 60(b) motion is DENIED.
B. Petitioner Has Not Pointed to Any Manifest Legal Error in the Court’s Adoption
of the Report and Recommendation.
Petitioner seeks to amend the Court’s judgment to, “correct manifest errors of law and
fact.” 59(e) Mot. 1, Doc. 28. However, Petitioner’s 59(e) Motion fails because he does not point
to any manifest legal error or injustice in this court’s dismissal of his habeas petition. Instead
petitioner advances the same arguments put forth in his habeas petition. Petitioner also asks the
court to consider three affidavits in support of his claim that there was prosecutorial misconduct
in the form of a Brady violation as evidence that has not been addressed. 59(e) Mot. 2, Doc. 33.
One of the affidavits was previously submitted in support of Petitioner’s motion to amend his
original habeas petition. See Am. Pet. Habeas Corpus, Doc. 18. The Court reviewed the affidavit
in disposing of the habeas petition, finding that because the state courts adjudicated the claim on
the merits, it was bound to, “conduct[j an AEDPA review of the state court determination based
upon the factual record established by [Petitioner] in state court.” R. & R. 15. Additionally,
Petitioner does not allege that evidence from the affidavits was previously unknown or
unavailable to him. See Blystone v. Horn, 664 F.3d 397,415-16 (3d Cir. 2011)
("[Njew evidence in this context means evidence that a party could not earlier submit to the court
because that evidence was not previously available.’). Accordingly, Petitioner s 59(e) motion is
DENIED.

5

Ref: 1792260 pg 36 of 50 for JACOB CHRISTINE

r?

APPENDIX E
U.S. Dist. Ct. for Eastern Dist. Case # 18-CV-237
Magistrate "R&R"

r
Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 1 of 33

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

JACOB CHRISTINE,
Petitioner,
v.

NO. 18-237

MICHAEL CLARK, et al,
Respondents

REPORT AND RECOMMENDATION
DAVID R. STRAWBRIDGE
UNITED STATES MAGISTRATE JUDGE

April 30,2019

Before the Court for a Report and Recommendation is thepro se petition of Jacob Christine
(“Christine” or “Petitioner”) for the issuance of a writ of habeas corpus pursuant to 28 U.S.C.
§ 2254. Christine is currently incarcerated at the State Correctional Institution - Albion serving
an aggregate ten.) of nine to twenty years incarceration following his conviction on October 7,
2010 by a jury in the Northampton County Court of Common Pleas for aggravated assault and
recklessly endangering another person.

l

For the reasons set out below, we conclude that none of

Petitioner’s six grounds for habeas relief are meritorious and that relief on some of them is further
precluded as they were not properly presented in state court. Accordingly, we recommend that his
petition be denied and dismissed.

1 The court directed that this sentence was to run consecutive to a prison term Petitioner was
already serving for unrelated convictions occurring in Lehigh County, Pennsylvania. Those
convictions are the subject of a separate federal habeas petition filed m this court, Civil Action No.
17-3635.
i

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 2 of 33

X.

FACTUAL AND PROCEDURAL BACKGROUND2
Christine’s conviction arose out of a stabbing incident that occurred on June 8, 2009 in the

Northampton County Prison (“NCP”), where both Christine and the victim, Thomas Missero, were
The

lodged.

Commonwealth adduced evidence at trial that after Missero was called into

Christine’s cell, which housed eight inmates in four rows of bunk beds, Christine slashed his neck
and ear with a razor blade. While a search of the cell did not uncover the razor blade, corrections
officers found hidden within Christine’s bed a shank, made from an 18”-20” rod from a metal
bookshelf. The Commonwealth agreed that the shank was not used in the attack on Missero.
Prior to trial, Christine filed a motion in limine to exclude the shank from evidence, arguing
it was irrelevant and would cause undue prejudice by confusing the jury. The trial court denied
the motion and held that under the “similar-weapon exception” the.evidence would be admissible,
as it showed that Christine had the ability to fashion a homemade weapon from objects in the
, prison.

Trial Court Opinion, 4/26/11, at 6-7. The court also found the shank’s probative value

outweighed its prejudicial effect, as it tended to show that Christine “had knowledge and
familiarity with prison-made weapons and could conceal them in his prison cell.” The court also
noted that the presence of the shank in his bedding would rebut Christine’s assertion that he was
unarmed and acted in self-defense. Id. at 8.
Christine also sought a pre-trial ruling to admit into evidence the fact that Missero was
convicted in June 2010 of simple assault and reckless endangerment of his girlfriend arising from
an

incident at a hotel in May 2010, eleven months after this incident at NCP. Christine argued that

Discovered Evidence” (Doc. 18), as well as the record of the state court proceedings provided by
the Court of Common Pleas.

xo
2

Case 5:18-cv-00237-PBT

Document 19 Filed 04/30/19 Page 3 of 33

was the initial
Missero’s conviction was relevant to his self-defense claim because Missero
aggressor in that attack and it demonstrated Missero’s violent propensities . Id. at 11-12. The trial
court denied the motion, however, on the grounds that the charges leading to Missero’ s simpleassault conviction would not demonstrate that Missero had a reputation for violence at the time of
the jailhouse

attack, as the jailhouse attack occurred first in time. Id. at 11-12.

At trial, Christine testified he was reading on
Missero inside the cell, where an argum

his cot when one of his cellmates invited

ent between the two ensued. Christine testified that he

tried to leave the cell but Missero was standing in the doorway,

He recounted that Missero threw

nsued between them, during which punches were
a cup of hot coffee at him and that a struggle e
. He testified that Missero then produced a razorblade. Christine reported that he disarmed
thrown
Missero, retrieved the razorblade, and “may" have cut Missero as he left the cell. Id. at 46, 49.
5* also Commonwealth v. Christine, 125 A.3d 394, 396-97 (Pa. 2015) (recounting history).
In light of Christine’s testimony, the court instructed the jury on self-defense. The court
elf-defense when the jury asked a question during deliberations. While the jury
re-instructed on s
found Christine not guilty of the charge of attempted homicide, it returned guilty
ultimately
both aggravated assault and reckless endangerment of Missero . The court sentenced
verdicts on
.ult conviction, with a concurrent sentence of 1-2
Christine to 9-20 years on the aggravated assa
years on the reckless endangerment charge.
denied Christine’s post-sentencing motion, he filed an appeal to the
After the court
s. A divided panel initially vacated the
Superior Court challenging the pre-trial evidentiary ruling
judgment of sentence and remanded the case for a

new trial on the grounds that the trial court had

abused its discretion when it precluded Christine from introducing evidence of Missero’s domestic
assault conviction.

The Commonwealth petitioned for reargument en banc and the panel

3

%\

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 4 of 33

memorandum was withdrawn. An evenly divided en banc court ultimately affirmed the judgment
of sentence. Commonwealth v. Christine, 78 A.3d 1 (Pa. Super. Ct. 2013). The Pennsylvania
Supreme Court granted allowance of appeal but on October 27, 2015 affirmed the conviction.
Commonwealth v. Christine, 125 A.3d 394 (Pa. 2015).
Following the conclusion of the direct appeal process, on February 22 ,2016, Christine filed
a pro se

petition and memorandum of law pursuant to the Pennsylvania Post Conviction Relief Act

(“PCRA”), 42 Pa. Cons

Stat. §§ 9541-46. He asserted a number of claims that trial and appellate

counsel were ineffective for: (1) failing to pursue a jury charge for “the castle defense;” (2) failing
to investigate and impeach Commonwealth witness testimony about the presence of a particular
individual on the

cellblock; (3) failing to pursue a claim for violation of Pa. R. Crim. P. 600; (4)

failing to challenge the admission of an unrelated weapon on die grounds of Pa. R. Evid .404;and
(5) failing to pursue

issues of prosecutorial misconduct. He also alleged a claim of newly

discovered evidence. State Ct. Doc. 65. Counsel was appointed and filed a supporting bnef that
refined some

of these claims. State Ct. Doc. 80. An evidentiary hearing was held on July 11,

2016. The PCRA Court denied the petition. (Doc. 13-9.) Christine filed an appeal and was
ultimately permitted to pursue it pro se.

The Superior Court affirmed the denial of PCRA relief

Christine, No. 337 EDA 2017, 2018 WL 268519 (Pa.
on January 3, 2018. Commonwealth v.
Super. Ct. Jan. 3,2018).
Christine filed this federal habeas petition on January 18, 2018 asserting six grounds: (1)
prose

cutorial misconduct in the form of a Brady violation; (2) ineffective assistance of counsel for

failing to move for dismissal on Rule 600 grounds, as well as a claim that the trial court violated
his Sixth Amendment right to a speedy trial when it did not dismiss the pending criminal charges;
(3) ineffective assistance of counsel for failing to request a ‘castle doctrine” instruction; (4)

4

ZL

Document 19 Filed 04/30/19 Page 5 of 33

Case 5:18-cv-00237-PBT

ineffective assistance

of counsel for failing to correct an error in the jury instructions concerning

self defense and aggravated assault; (5) a violation of the
14th Amendments; and (6) a violation by the
allegedly elicited false testimony,
response to the petition on

ex postfacto provision under the 5th and

Commonwealth of the Mooney doctrine, where it

The Northampton County District Attorney *s Office filed a

April 16,2018. (Doc.13.) Petitioner filed a “Traverse” as a reply on

May 7, 2018. (Doc. 17.) He also filed what he

characterized as an Amendment to his petition on

June 28, 2018, in which he asked the Court to consider an appended affidavit from Daniel Rice
concerning the factual background of the Brady claim asse
H.

rted at Ground One. (Doc. 18.)

LEGAL STANDARDS
Before we discuss Christine’s claims,

we describe the obligation of the habeas petitioner

resent to the state court any federal claims upon whichhe later seeks federal review . We
to fairly p
also discuss the constraints upon a federal court reviewhig claims adjudicated on the merits in the
-state court and the standard un
A.

der which ineffective assistance of counsel claims are evaluated.

Exhaustion and procedural default
h.te«

available in the courts of the State.

^^

^

” 28 U.S.C. § 2254(b)(1)(A). For a claim to be exhausted,

derpinning the federal claim must have been presented to the
“[b]oth the legal theory and facts un
method of legal analysis must be available to the state court as will be
state courts, and the same
Court of Common Pleas, Del. County, Pa., 959 F.2d
employed in the federal court. ” Evans v.
“fairly present” his federal claims to the state
1227, 1231 (3d Cir. 1992). A state prisoner must
complete round of the State’s
before seeking federal habeas relief by invoking “one
. courts
Boerckel, 526U.S. 838, 845 (1999); see also
established appellate review process ” O ’Sullivan v.
Holloway v. Horn, 355 F.3d 707

714 (3d Cir. 2004) (“‘Fair presentation’ of a claim means that

factual and legal substance to the state courts m a
the petitioner must present a federal claim’s
5

'Ll

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 6 of 33

manner

that puts them on notice that a federal claim is being asserted”)- The habeas petitioner

bears the burden of proving exhaustion of all state remedies. Boydv. Waymart, 579 F.3d 330 ,367
(3d Cir. 2009). If the

state courts have declined to review the merits of a petitioner’s claim based

on his failure to comply with a state rule of procedure, and the state rule of procedure rests upon
independent and adequate state law ground such as failure to comply with the state’s rules for
an
presentation of claims and arguments, the claim will similarly be deemed procedural^ defaulted.
Reed, 489 U.S. 255, 261-62
See Gray v. • Netherland, 518 U.S. 152, 161-62 (1996); Harris v.
(1989).
Whether through improper presentation or through omission of a claim during the state
limitations

period, a habeas petitioner who has defaulted his federal claims in state court meets the

technical requirements for exhaustion, as there are no longer any state remedies “available” to hum
See Coleman v. Thompson, 501 U.S: 722,732 (1991). Procedural^ defaulted unexhausted claims
will not be

reviewed by the federal court, however, unless “the [petitioner] can demonstrate cause

for the default and actual prejudice as a result of the alleged violation of federal law, or demonstrate
that failure to consider the claims will result in a

fundamental miscarriage of justice.” Id. at 750.

To demonstrate a fundamental miscarriage of justice as to overcome the procedural bar, a habeas
Schlup v. Delo, 513 U.S. 298, 324-26
petitioner must typically demonstrate actual iinnocence.
(1995). A claim of actual innocence must rely upon new

reliable evidence - whether it be

ulpatory scientific evidence, trustworthy eyewitness accounts, or critical physical evidence
exc
that was not presented at trial.” Bouse v. Bell, 547 U.S. 518, 537 (2006).
objective factor external to the
To demonstrate cause, the petitioner must show some
defense that impeded counsel’s efforts to comply with some state procedural rule. Slutzker v.
Johnson, 393 F.3d 373,381 (3d Cir. 2004) (quoting Murray v. Carrier, 477 U.S. 478,488 (1986)).

6

ZH

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 7 of 33

on collateral review also may
The Supreme Court has held that the ineffectiveness of counsel
default of a claim of trial counsel ineffectiveness. See
constitute “cause” to excuse a petitioner’s
exception” to the general rule
Martinez v. Ryan, 566 U.S. 1 (2012). Martinez reflects a “narrow
that attorney errors in collateral proceedings do not establish cause to excuse a p
and is limited to an underlying claim of trial couns

rocedural default

el ineffectiveness that is “substantial,” meaning

merit ” a petitioner “must
“the claim has some merit[.]” Id. at 14. For a claim to have “some
‘show that reasonable jurists could debate whether (or, for that matter, agree that) the petition
should have been resolved in

a different manner or that the issues presented were adequate to

deserve encouragement to proceed further.
928,

*” Workman v. Superintendent Albion SCI, 915 F.3d

937-38 (3d Cir. 2019) (quoting Miller-El v. Cockrell, 537 U.S. 322, 336 (2003)).
B.

Standards for state-adjudicated claims

Where the claim
the state courts,

presented in the federal habeas petition was adjudicated on the merits in

the federal court may not grant habeas relief unless the adjudication:
involved an
determined by the Supreme Court of the United States, or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.

28 U.S.C. § 2254(d).
A writ may issue under the
court applies a ru

“contrary to” clause of Section 2254(d)(1) only if the “state

le different from the governing rule set forth in [United States Supreme Court]

differently than [the United States Supreme Court has]
cases or if [the state court] decides a case
et of materially indistinguishable facts.” Bell v. Cone, 535 U.S. 685, 694 (2002). A
. done on a s
only where there has been a correct
writ may issue under the “unreasonable application” clause
Court but the state court “unreasonably applies
identification of a legal principle from the Supreme
7

15

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 8 of 33

it to the facts of the particular case.” Id. This requires the petitioner to demonstrate that the state
“objectively unreasonable.” Woodford v. Visciotti, 537 U.S. 19, 25 (2002).
court’s analysis was
ourt’s resolution of a claim required it to make a factual determination, the statute
Where the state c
state court’s factual determination “shall be presumed to be correct, ” and
further provides that the
rebut this presumption with a showing of “clear and
that the petitioner bears the burden to
convincing evidence.” 28 U.S.C. § 2254(e)(1).
C.

Ineffective assistance of counsel: the Strickland standard

A claim for ineffective assistance of counsel is grounded in the Sixth Amendment right to
a fair trial.’” Lockhart v.
counsel, which exists “‘in order to protect the fundamental right to
Fretwell, 506 U.S. 364,368 (1993) (quoting Strickland v. Washington, 466 U.S .668,684 (1984)).
To prevail on

a claim for ineffective assistance of counsel, a habeas petitioner must demonstrate

both that (1) his attorney’s performance was deficient, i.e.
.objective standard of reasonableness as

, that the representation “fell below an

measured against.prevailing professional norms, and (2)

that he was prejudiced by his attorney’s performance.

Strickland, 466 U.S. 668, 687-88, 690-92.

not functioning as the ‘counsel’
Counsel’s deficiencies must be “so serious” that he “was
guaranteed” to the petitioner by the Sixth Amendment

Id. at 687. This standard is “highly

ic choices made after thorough investigation of law and
deferential” to defense counsel, as “strategic
facts relevant to plausible options are virtually unchallengeable ” Id. at 689-90. It is presumed
that

“counsel’s conduct might have been part of a sound strategy,” and “if the Commonwealth can

show that counsel actually pursued an
investigation of the relevant law

informed strategy (one decided upon after a thorough

and facts), the.‘weak’ presumption becomes a ‘strong

presumption, which is ‘virtually unchallengeable.

Thomas v. Varner, 428F.3d491, 500 (3dCir.

2005) (quoting Strickland, 466 U.S. at 690). Prejudice is proven

if “there is a reasonable

probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
.8

Filed 04/30/19 Page 9 of 33
Case 5:18-cv-00237-PBT Document 19

. “A reasonable probability is a probability sufficient
been different.” Strickland, 466 U.S. at 694
” Id. Consequently, counsel cannot be found to be
to undermine confidence in the outcome,
a meritless claim. See United States v. Bui, 795 F.3d 363, 366-67
ineffective for failing to pursue
(3d Cir. 2015).
m.

DISCUSSION
Christine’s petition challenges his

conviction on six grounds. First, he asserts that it was

Brady violation in that the prosecutor secretly
obtained through prosecutorial misconduct and a
ice a benefit in a pending case he had in exchange for
offered to Commonwealth witness Daniel Rice
Second, Petitioner contends that his counsel was'
inculpatory testimony against Christine.
. In this ground he
ineffective prior to trial for failing to move for dismissal on Rule 600 grounds
also contends for the first time that the trial co
trial when

urt violated his Sixth Amendment right to a speedy

it did not dismiss the pending, criminal charge

s. In Ground Three, Christine asserts that

counsel performed deficiently in not requesting that the court give a

“castle doctrine” instruction*

. In Ground Four, Christine also chides trial counsel with
which related to his claim of self-defense,
el should have corrected an error m
respect to the jury instructions, in that he believes trial couns
and aggravated assault. Ground
the instruction the court gave the jury concerning self-defense
Five asserts that Christine was subjected to

a violation of the 5th and 14th Amendments’ ex post

facto provision when the Pennsylvania Supreme Court overturned one of its precedents when it
hi,

on

»-»•

>» —

due to what he believes was a violation by the Comm
allegedly elicited false

onwealth of the Mooney doctrine, where it

testimony &om witness Daniel Rice and Thomas Missero.

9

X7

r

Case 5:18-cv-00237-PBT Document 19

Filed 04/30/19 Page 10 of 33

the merits and that aspects of
Respondents contend that each of the claims fails on
Christine’s claims were not properly presented
below, we agree. We
A.

in state court and thus defaulted.3 As we set out

find no basis upon which we could recommend habeas relief.

Brady violation

Christine first claims that the

Commonwealth committed a violation of Brady v. Maryland,

373 U.S. 83 (1963) when it allegedly

failed to disclose evidence favorable to him in the form of a

a»„ » ft. «.i~« <«««

secret
C_.„,t witn.ss, Daniel

p*““

“d *

-i.h *****

h”

“was originally an Exculpatory Witness,” but that the ADA “met
testimony. He contends that Rice
to Christine’s trial and persuaded him to “change[] his testimony to
with him in secret” prior
a sentence, from 4-8 to 3-6 years, that Rice
inculpatory” in exchange for her agreeing to reduce
_.l-d b«ft ftbbnr, ...*««• M. 1
P
“
faced on an
received the sentence reduction, but the deal was hidden from the jury that
the offer, and later
heardRice testify in Christine’s case.4

not challenge the timeliness of the petition, and our

review confirms that the

3 Respondents do
petition satisfies 28 U.S.C. § 2244(d).

• to ,.„W « CM*.'. «i.l P—
weeks earlier and had been prosecute y
The ADA also reviewed various otiier crimes of which
access device fraud, and receipt: of stolen prope^

convicted, including theft,
at 9.10. Rice testified that he
^ of thexell in which

observed Missero get up from his dmne
that Missero “may” have had something in his
• Christine and others were housed. He testif.ed halMa**as his brother, a fellow
hand. Id. at 13-15. He explamed that he then went m &
was concerned for Missero’s
inmate wi
noticed after they separated that Missero was bleeding from the neck.
10

. He
.

22

Case 5:18-cv-00237-PBT

Document 19 Filed 04/30/19 Page 11 of 33

PCRA review, where it was
Christine presented this Brady issue to the state court on
deemed cognizable. The PCRA Court granted Christine an

evidentiary hearing, which it continued

Christine was unable, however, to
to allow Christine to try to arrange for Rice’s live testimony;
under which he received a
locate Rice. In lieu of Rice’s testimony about the circumstances
and whether it arose from any “secret deal” with the
sentence reduction in his bank robbery case
ion of Christine, the PCRA Court heard testimony from Attorney Michael
ADA during the prosecutio
Corcoran, who represented Rice on PCRA review, when he secured the sentence reduction. The
court also added to the record Rice’s pro se

and counseled PCRA petitions that contained

his sentence reduction request. Ultimately,
; allegations about the Commonwealth’s position on
, the PCRA Court determined that Christine “presented no evidence to support his
however
secret deal’” and denied the petition.5 See Christine, No. 337 EDA 2017, 2018
allegation of a ‘
*2 (Pa. Super. Ct. Jan. 3, 2018) (describing PCRA Court determination).
.WL 268519, at
The Superior Court devoted much attention to this issue in its opinion resolving Christine’s
appeal of the PCRA dismissal. Thee

ourt reviewed the record from the PCRA hearing, noting that

the presiding judge on PCRA review “acknowledged that Rice believed that there was a sentence
bargain when he filed his PCRA claim” asserting facts to this effect, but that Rice s belief was all
hearsay” and noting that he was not present to testify about it.

The Superior Court also described

EDA 2017,2018 WL 268519, at *3 (Pa. Super. Ct.Jan^ f018> ^ "n of a deal between

atf^^ssssssar.—• *6. We describe this lack of evidence below.

2PK
li

. Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 12 of 33

at length the testimony of Rice’s PCRA counsel, Attorney Corcoran, that was given at Christine’s
PCRA hearing. Attorney Corcoran explained that in September of 2011, which was after
Christine’s

trial for this prison assault on Missero, he appeared with ADA Mulqueen before the

PCRA judge assigned to Rice’s PCRA petition on his bank robbery case and explained “that the
relief sought at that point was to get him the benefit of what he perceived to be a bargain, and [that]
was a 3 to 6 year sentence,

” based on what he believed was due to him in light of the sentence of

his co-defendant, who had been more involved in the robbery event. Id. at *5. When asked what
sentence reduction for Rice on his
Ms. Mulqueen’s position had been on this effort to secure a
robbery case, Attorney Corcoran recalled:
A I remember approaching her about it after I was assigned the
matter, and basically outlined [for] her some of the representations
in his PCRA, and asked whether she would be amenable to the
sentence reduction. And she indicated that his testimony was helpful
in the matter of Commonwealth versus Christine, and that she would
work with me to achieve the sentence reduction.
Q: Did she admit or deny that there was a deal between her and Dan
Rice?
A: That I don’t recall.
Id. (quoting N.T. 7/11/16 at 77-78). The Superior Court then repeated the observations of the
PCRA Court at Christine’s PCRA hearing that “you would think” that if “at the time that Mr. Rice
had some ne

gotiated favorable sentence from Ms. Mulqueen,” it would be in the record of his

guilty plea hearing in his case.
with a

Id. (quoting N.T. 7/11/16 at 93-94). The Superior Court continued

recitation of the comments of the PCRA Court, which was not persuaded by Christine’s

theory:
So your theory is because Mr. Rice believed that he should get
sympathy also after he had been sentenced because he testified in a
different trial, and later Ms. Mulqueen relented and agreed that she
would have no opposition to a lesser sentence for him, that that is an
12

30

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 13 of 33

indication that the presentation Ms. Mulqueen made at trial with the
negotiated plea with regard to his sentence is somehow false.
Id. (quoting N.T. 7/11/16 at 93-94).

The Superior Court noted that Christine’s PCRA counsel only

responded that he believed it was an

indication that the jury “was not given the whole story.” Id

(quoting N.T. 7/11/16 at 94.) The Superior Court disagree

d with Christine’s argument, explaining:

a deal, Uef
and .
The fact that Rice alleged in his petition thatthe^
the fact that Rice ultimately received his requested PCRA reliet
dl not prove Christine’s allegation. The PCRA
Rice’s PCRA filings, Rice’s plea colloquy:md Face s P(1
counsel’s testimony. The PCRA court concludedthat aU &at was
established was that Rice alleged a prior deal and that Attorn y

5k -=
promises were made to Rice prior to Christine s trial.

Id. at *6 (emphasis in original). The Superior Court con
the PCRA Court’s finding that

eluded, therefore, that the record supported

Christine, who had the burden of proof, failed to present any

pport of the “bald theory that the ADA lied during the trial.”
competent or credible evidence in su
Id. (quoting PCRA Court Opinion, 12/30/16, at 8).
New evidence
problem that he failed to meet his burden of proof before the PCRA
Confronted by the
“Amendment to Habeas Petition Newly Discovered
Court, Christine has filed with this Court an
affidavit from Rice that was purportedly obtained
Evidence” (Doc. 18), to which he appended an
1.

by a privately retained investigator.

In the affidavit, Rice asserts that he met with the ADA prior

to Christine’s trial and she offered him time off
testimony against Christine

on his sentence in exchange for changing his

. Petitioner asks that we not stay his federal petition or

remand it to

but rather asks that we give him “Federal Review
state court for consideration of this new evidence
in the Federal Court, and order the lower court to grant [him] a
of [his] claims, resolve this case
13

3\

Filed 04/30/19 Page 14 of 33

Case 5:18-cv-00237-PBT Document 19

new trial with a new prelim, or dismiss the case..
Court conduct an

Id. at 2-3. Christine appears to request this

evidentiary hearing, or else accept Rice’s affidavit on its face as part of the

record. Preliminarily, therefore, we must consider whether this is an appropriate request.
evidentiary hearings [in habeas cases] were required in several
“Prior to AEDPA, new
Vaughn, 209 F.3d 280, 286 (3d Cir. 2000) (emphasis in original)
circumstances.” Campbell v.
. However, where AEDPA applies and where
(citing Townsend v. Sain, 372 U.S. 293,313 (1963))
a state court has determined a claim on

its merits, the United States Supreme Court has held that a

review of that ruling under section 2254(d)(1) is “limited to the
federal court’s reasonableness
record that was before the state

court that adjudicated'the claim on the merits.”

Cullen v.

Pinholster, 563 U.S. 170, 181 (2011). The Court explained that “evidence later introduced in
■ ■ 1
+
& 99WdYH review” Id. at 184. Several circuit courts have
federal court is irrelevant to § 2254(d)(1) revie
under Pinholster, district courts must evaluate a petitioner’s claims under the
concluded that,
record, alone, without reliance on evidence
.§ 2254(d)(1) standard on the basis of the state
federal evidentiary hearings. See, e.g., Brown v. Wenerowicz, 663 F.3d 619, 629 (3d
developed in
Thurmer, 637 F.3d 831, 837 (7th Cir. 2011); Jackson v. Kelly, 650 F.3d 477,
Cir. 2011); Price v.
’s admonition that our review is limited ‘to the record
485 (4th Cir. 2011) (“In light of [Pinholster]
that was

before the state court that adjudicated the claim on the merits,’ 131 S.Ct at 1398, we

avoid discussion of the evidence taken m the

federal evidentiary hearing.”); but see Brown, 663

F.3d at 629 n.4 (3d Cir. 2011) (noting that under Pinholster, where claims are not adjudicated on
their merits in state courts “our jurisprudence applying § 2254(e)(2) remains applicable”); Gamer

v. Lee,

908 F.3d 845, 860 (2d Cir. 2018) C'Pinholster does not bar a federal habeas court from
and considering evidence beyond the state court record wheh it

holding an evidentiary hearing
engages in this non-§ 2254(d), de novo review.”).

14

JL

Case 5:18-cv-00237-PBT Document 19

Filed 04/30/19 Page 15 of 33

is whether the state court reached an “on the merits”
Thus, the first question to address is
prosecutorial misconduct in the form of a Brady violation. If
determination of whether there was
it did, habeas review is governed by § 2254(d) and the only question to ask is whether the
adjudication was contrary to or an unreasonable application of federal law based on the record
established in the state courts. It is only if there was not an “on the merits” determination or if the
y consider reopening the record,
state court adjudication fails to pass AEDPA review that we ma
Pinholster, 563 U.S. at 185-86 (“Section 2254(e)(2) continues

to have force where § 2254(d)(1)

does not bar federal habeas relief.”).
on its merits. The Superior
We find that the state courts clearly adjudicated this claim
Court relied upon the factual record developed by Christine in the PCRA Court’s evidentiary
ted by counsel and applied Brady in light of the evidence presented.
hearing where he was represen
AEDPA review of the state court
accordingly, bound by Pinholsterto conducting an
We are,
determination based upon the factual record established by Christine in the state court.
2.

Section 2254(d) review
adjudication of this issue passes AEDPA review. First, the Superior Court
The state courts’
light of the record evidence presented in the PCRA
did not unreasonably determine the facts in
Christine did not provide sufficient evidentiary support for his assertion that Rice
hearing where
PCRA attorney did not corroborate Christine’s allegation that Rice
received a secret deal. Rice s
at Christine’s trial. See N.T.
secret deal in exchange for his inculpatory testimony
received a
deal between her and Dan Rice?
7/11/16 at 78 (“Q. Did [the ADA] admit or deny that there was a
A. That I don’t recall”). Rice’s counsel testified that there were
sentencing reduction.

legitimate reasons for the

Specifically, while hearsay statements in Rice’s pro se petition claimed he

was entitled to reconsideration of his sentence because

he had helped the Commonwealth, id. at

62, and while Rice’s counsel repeated that assertion in the co
15

unseled amended PCRA petition he

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 16 of 33

later filed for Rice, counsel testified that the primary bases for the later sentencing reduction were
that: (1) the
who was

co-defendant who carried out the bank robbery received a lower sentence than Rice,

only the getaway driver, and (2) Rice wanted additional consideration of the assistance

he later gave the Commonwealth, e.g., at Christine’s trial, which was weeks after he was sentenced
in the bank robbery case. Id. at 61-62. See also id. at 64 (the court’s comment at Christine’s
PCRA hearing clarifying that Rice “pled guilty, got a 4 to 6 year sentence,” at some point filed a
PCRA and “said he thought he should have gotten 3 to 6 as part of a sentence bargain” and also
“wanted a

dditional consideration for helping out in the Christine matter”). The record developed

at Christine’s PCRA hearing established that Rice’s counsel approached Attorney Mulqueen to
ask if she would be amenable to a sentencing reduction for Rice, and she responded that she would
be amenable because Rice’s testimony was helpful in Christine’s trial. Id. at 77-78. There was no
direct or circumstantial evidence, however, that the ADA “secretly agreed” to Rice’s sentencing
reduction before Rice provided his testimony in Christine’s trial.6
Given the factual record, the state courts reasonably applied Brady. A Brady claim has
three elements: (1) the prosecution must have suppressed or withheld evidence, (2) which is
favorable, and (3) material to the defense. Banks

Dretke, 540 U.S. 668, 691 (2004); Moore v.

lUinois, 408 U.S. 786 (1972); see also Cone v. Bell, 556 U.S. 449,469-70 (2009) (“[Evidence is
‘material’ within the meaning of Brady when there is a reasonable probability that, had the
between the ADA
6 To be sure, Christine’s insinuation that there were “secret” communications
_
and Rice just prior to Christine’s July 2010 trial in order to secure particular testimony is refuted
by the trial record. When Rice testified at Christine’s trial, it emerged that Rice was
“
April 2010 by both a defense investigator and Attorney Mulqueen, within a few days of each other.
■ This was no secret and it did not involve shaping testimony. The only person who suggested Rice
give any particular account of the incident was Christine himself. Rice testified dialChristine saw
him shortly before he was to meet with the defense investigator and asked him to tell the
investigator that he saw Missero with a cup of coffee in his hand when he went into the cell leadmg
up to the altercation. See N.T. 10/6/10 at 22-23.
16

3H

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 17 of 33

evidence been disclosed, the result of the proceeding would have been different”). The state court
found that Christine had not met his burden to show that any promises were made to Rice prior to
Christine’s trial. Therefore, the state court quite reasonably determined that the prosecution did
not suppress any evidence; Accordingly, the state court’s legal conclusion that there was no Brady
violation is a reasonable application of Supreme Court precedents in this area and Section
2254(d)(1) thus bars habeas relief. In this circumstance, the federal court is not permitted to reopen the evidentiary record and consider the constitutional claim de novo. See 28 U.S.C.
§ 2254(e)(2); Pinholster, 563 U.S. at 185-86.
B.

Failure to move for dismissal based on Rule 600

In Ground Two, Christine contends that he was entitled to have the charges against him
dismissed where 448 days elapsed between the date he was charged and the date his criminal trial
commenced. He asserts that trial counsel was constitutionally ineffective for failing to move to
dismiss his case based upon a violation of Pa. R. Crim. P. 600. Pet. 112, Ground 2. He also argues
that the state courts’ failure to dismiss his case violated his speedy trial rights under the Sixth
Amendment of the United States Constitution. (Pet. Mem. at 42.) Neither claim is viable.
1.

Rule 600 issue ineffectiveness claim

To the extent that Christine’s habeas claim could be said to repeat the claim that he actually
exhausted in the state courts, namely that counsel was ineffective for failing to raise the violation'
of the state procedural rule, the state court adjudication was not an unreasonable application of
Strickland.
Rule 600(A)(3) provides a 365-day period by which the Commonwealth must bring a
charged defendant to trial (“the mechanical run date”), calculated by adding 365 days to the date.
on which the criminal complaint is filed. Excluded from that the mechanical run date are periods
during which a defendant has expressly waived Rule 600, see Rule 600(C)(2), and any period of
17

3S

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 18 of 33

delay at any stage of the proceedings resulting from the unavailability of the defendant or his
counsel and any continuance granted at the request of the defendant or his counsel (“the adjusted
run date”)- See Rule 600(C)(3). Finally, Rule 600(G) provides:
If the court, upon hearing, shall determine that the Commonwealth exercised
due diligence and that the circumstances occasioning the postponement were
beyond the control of the Commonwealth, the motion to dismiss shall be denied
and the case shall be listed for trial on a date certain. ... If, at any time, it is
determined that the Commonwealth did not exercise due diligence, the court
shall dismiss the charges ....
Pa. R. Crim. P. 600(G).
Christine presented this issue in his PCRA petition. The PCRA Court calculated that themechanical run-date was July 14,2010 and recognized that Christine was not tried for another 82
days, until October 5,2010. The court, however, found 122 days of excludable or excusable delay
due to outstanding defense pretrial motions, agreed-upon continuances, and preliminary hearing
delays, none

of which the court considered to reflect a lack of due diligence on the part of the

Commonwealth. (PCRA Court Opin. at 11-15.) Christine pursued this issue on appeal but the
Superior Court “agree[d] with the [lower] court’s calculation and its finding that there was no Rule
600 violation.

” Christine, 2018 WL 268519 at *8. Accordingly, it found that trial counsel

“therefore was not ineffective for failing to raise this claim.’ Id.
The state court’s time determinations are deemed presumptively correct factual findings
which, as set forth at 28 U.S.C. § 2254(e)(1), cannot be set aside unless Christine rebuts them with
clear and convincing evidence.

Hakeem v. *r>*r, 990 F.2d 750,767 (3d Cir. 1993) (“Findings

entitled to a § 2254(d) presumption of correctness if
on the cause of the [speedy trial] delay are
petitioner had a fair opportunity to present his version of events and the state’s findings on the
no violation of Rule 600 is
issue are fairly supported by the record.”) The finding that there was
a ruling on a state law issue that may not be reexamined on habeas review . See Estelle v. McGuire,
18

34

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 19 of 33

502 U.S. 62, 67-68 (1991) (“P]t is not the province of a federal habeas court to re-examine statecourt determinations on state law questions. In conducting habeas review, a federal court is limited
to deciding whether a conviction violated the Constitution, laws, or treaties of the United States.”)
On these grounds, the conclusion that trial counsel was not ineffective for failing to raise a Rule
as any such
600 issue is not an unreasonable application of Strickland’s performance prong,
motion, if filed, would have been without merit.
2.

Federal speedy trial claim

To the extent Christine’s petition seeks to raise a direct federal constitutional claim based
upon his speedy trial rights, the claim is unexhausted and procedural^ defaulted With no showing
of cause and prejudice or a miscarriage ofjustice.
In his

PCRA petition, Christine asserted only that counsel was deficient for failing to seek

the basis of the state rule violation. See State Court Record Doc. 80 at 6-7. He did
dismissal on
not seek to raise a direct violation of his federal speedy trial rights and he did notcite any case law
suggesting he was arguing that his federal speedy trial rights had been violated. Rather , Christine
cited only Pennsylvania state law cases

concerning the application of the state procedural rule to

supports assertion that counsel acted deficiently in failing to raise a violation of Rule 600 . After
his PCRA petition was

dismissed, Christine also did not attempt to raise a federal speedy trial

rights violation in his Rule 1925(b) Concise Statement of Matters Complained of on Appeal, again
asserting only a violation of the

state rule and ineffective assistance of counsel due to the failure

to request a dismissal of his case on that basis. See State Court Record Doc. 99 at 2. As Christine
did not fair

ly present the factual and legal substance of a federal constitutional speedy trial rights

violation to the state courts so as to p

ut them on notice of the substance of that claim, he has failed

to meet his burden to show such a claim is exhausted. See Holloway, 355 F.3d at 714. (3d Cir.
2004).
19

37

Case 5:18-cv-00237-PBT

Further, the same

Document 19 Filed 04/30/19 Page 20 of 33

presumptively correct findings eliminate the possibility that Christine

of excusing the procedural default on the federal speedy
can demonstrate prejudice for purposes
since, had the motion been filed, its lack of merit could not have altered the
trial violation issue
outcome of Christine’s case.
C.

Failure to request a “castle doctrine” instruction

was constitutionally deficient
Christine next claims that trial counsel’s performance
instruction under 18 Pa. Cons. Stat. § 505 to
because he failed to request a “castle doctrine” jury
of law to retreat from his prison cell before using
advise the jury that he had no duty as a matter
ssary for the purpose of protecting himself against the use of unlawful force
force immediately nece
by an assailant who had come into his cell.
on PCRA review. As the PCRA Court explained in its
Christine presented this claim
d at his 2010 trial, the justification defense found at
decision, when the assault occurred in 2009 an
18 Pa.' Cons. Stat. § 505 was one
posse

enacted in 1972. It required that the actor was a non-aggressor,

ssed reasonable fear of imminent death, and did not violate a duty to retreat . It differed from

revisions to 18 Pa. Cons. Stat.

§ 505 that went into effect after Christine’s conviction.

Under the 1972 version, all circumstances of the crime were to be
evaluated to determine if the actor seeking;
“
had a reasonable fear of death or serious bodily injury. However
Pennsylvania also recognizes the “Castle Doctrine which excused
any duty to retreat when the actor was attacked within his dwelling
or residence.

28 U.S.C. § 2254(b)(2). In addition to the fact tha them was no^ by
factors to be considered for the federal1 Ui'n^thfriahttolpeedy trial by the defendant,

•“1 “ ofd“
diligence on the part of the Commonwealth.
20

3*

Case 5:18-CV-00237-P BT

Document 19 Filed 04/30/19 Page 21 of 33

The Law of Justification in effect at the time that this Defendant
committed his crime and at the time he was tned,
the new expanded Castle Doctrine that became aw when 18
Pa c S A § 505 was amended on August 27,2011, which expanded
the definition of “Castle” to include dwelling, residence, occupied
vehicle or place of work.
In our 2010 trial, we would not allow this Defendant, aU^®d
committed an aggravated assault in 2009, to expand the Cas
Doctrine to include his prison cell which he shared with six other
inmates and [over] which did not have the authority to secure
himself We firmly believed that the 1972 version did not possess
the legislative intent to grant inmates in a penal institution a claim
that t multi-bed cell was to be considered the inmate s‘Private,
personal dwelling which would immunize the inmate should anoth
Lnate enter his open cell door. Therefore, we made no attempt to
fashion a new, special jury instruction for inmate Christine which
adopted the common-law Castle Doctrine to encompass his assigned
prison cell.
12/30/16 PCRA Opin. at 16-17.

The PCRA Court held that trial counsel “appropriately requested

and received the charge for self-defense.

” and that he could not be found ineffective “for failing to

advance the request for a novel Castle Doctrine charge related to inmates
17. On appeal, the Superior Court

and prison cells.” Id. at .

reiterated that 18 Pa. Cons. Stat. § 505 was not amended until

August 27,2011 and that the expanded definition of “castle

” to include one’s dwelling, residence,

in effect at the time of Christine’s trial. The
occupied vehicle or place of work thus was not in
Superior Court also observed that

“there is no precedent for extending this doctrine to a prison

cell.” Christine, 2018 WL 268519, at *9

. It found that the PCRA Court properly disposed of this

issue in its opinion.
unreasonable application of
The state courts’ adjudication of this claim is not an
clearly, and quite reasonably,
Strickland’s deficient performance prong, The state courts
inmate to. claim that his multi-bed prison cell
determined that state law would not permit an
covered by either the 1972 statutory version of
qualified in 2009 as a private, personal dwelling
the castle doctrine or its common law antecedent. There was no basis under state law as a defense
21

31

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 22 of 33

}

one’s castle. Counsel’s failure to raise the
to an assault charge to assert that one’s prison cell is
castle doctrine could not constitute ineffectiveness since counsel is under no duty to raise meritless
legal issues

Strickland, 466 U.S. at 691 (failure of counsel to pursue fruitless claims “may not

later be challenged as unreasonable”); Smith v. Murray, 477 U.S. 527, 536 (1986) (holding that
counsel cannot be found ineffective for winnowing out meritless claims and focusing on those
most likely to prevail). The state court’s adjudication of this ineffectiveness claim was not in any
way an

unreasonable application of Strickland. Habeas relief is thus not available on this claim.
Failure to correct erroneous jury instruction
D.
Christine contends in Ground 4 of his petition that trial counsel was ineffective for failing

to object to an

allegedly erroneous supplemental jury instruction. Pet. 112, Ground 4, Pet. Mem.

at 52-53. We begin our analysis with the context in which this alleged trial court error arose.
On the morning that the jury was to be charged, the court convened a further charging
conference to discuss the implication of Christine’s testimony that he never intended to harm the
victim, which the prosecutor claimed precluded a claim of self-defense. The court recognized that
if the jury accepted that testimony, then Christine would not have committed a crime and no
defense ofjustification would be available. The court also recognized, however, that the jury could
accept that Missero was the aggressor and
“accept and reject part of his testimony,” and might
brought the weapon in but that Christine felt like he was under an attack and that’s when he used
the weapon.

” (N.T. Tr. Vol. IE, 10/7/10, at 5.) The court explained that it would give the

instruction on justification but would also “give the explanation about the only way it’s possibly
relevant is if they reject some

of this testimony, but not all of it.” Id. at 9-10. The court explained

to defense counsel:
I have to explain to them when it becomes relevant in their
deliberations, and if it becomes relevant, this is one way where it
doesn’t at all become relevant. If they accept your guy’s testimony
22

HO

Case 5:18-cv-00237'PBT Document 19 Filed 04/30/19 Page 23 of 33

eed to deal with it. The only time that
but not all of it, then he’s entitled to the justification charge. You re
going to tell me that I have to charge them based on the testimony
by your guy, [but] he didn’t put justification in his testimony.
Id at 10.
Following the closing arguments, the court charged the jury regarding the elements of die
crimes charged and then addressed the self-defense assertion:
, that he came

testimony and believe that Thomas Mis[s]ero came into die cell
armed with both hot coffee and a razor and that he engaged m the
assault by throwing coffee and then attempting to slash the
defendant, then you’re going to find also that no crime occurred.
Now, if you accept the defendant’s teslirjiony that the injury
received by Thomas Mis[s]ero was caused unintentionally, then the
defendant is not entitled to the defense known as justification or selfdefense. The law of Pennsylvania is very clear. You cannot avail
elf of the defense known as justification or self-defense if your
yours
testimony is that the injury was wholly unintentionally caused,
because if it is unintentionally caused, it can t be a crime.
aspects of the
Id. at 69-70. The court then explained to the jury that it might accept some
defendant’s testimony and reject other aspects
the justification defense if it is not sure
intentionally. Id. at 71

The court explained that the jury must consider

whether or not Christine inflicted the injury on Missero

The court then explained the elements of self-defense . Id at 71-75.

Petitioner has not challenged these instructions.
What Petitioner takes issue with is the court’s response to a pair ofjury questions that were
a review of the definitions for
submitted after deliberations had begun. The jury asked for
ed assault, as well as for self-defense. Mat 78. After re-reading
attempted homicide and aggravat

23

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 24 of 33

the definitions of the crimes, id. at 79-87, the court continued in the following passage in which
the word “the” was incorrectly substituted for the word “no”:
Also if you accept the defendant’s testimony that he was a person
who ’was innocent in this matter, that he was in his cell, and that die
victim came to his- cell with hot coffee and a razor and that the
victim, Mr. Mis[s]ero, was the person who provoked the assault,
and, in fact, attempted to slash the defendant with the razor.
Eventually the defendant disarmed Mr. Mis[s]ero, they disengaged,
the defendant walked over, picking up a razor, he was now armed
and the defendant then was under attack by Mr. Mis[s]ero a secon
time, and that in defending himself, accidentally the victun was
slashed then there is no justification either because the defendant
committed the crime. He has no intent to injury the victim so you
don’t have to consider justification if you believe the defendant s
story.
N.T. 10/07/10, at 88 (emphasis added). The defense made no objection at that time, and the jury
ultimately returned with its

verdict convicting Petitioner of aggravated assault, thus finding

and that he did not establish self-defense.
Christine’s actions were intentional
i
Petitioner presented this issue on

PCRA review in the context of counsel’s failure to object ...

to this instruction, which he contended warranted a new trial, while recognizing that “[i]t appears
that th[e] Honorable Court merely misspoke.”
Record Doc

PCRA Court Opinion, 12/30/16 (State Court

. 85) at 17 (quoting Br. in Supp. of Def.’s PCRA Pet. at 2). Looking to Pennsylvania

reviewed for error, the PCRA
precedents about the standard under which jury instructions are
whole and that error “will not be predicated on
Court noted that the charge must be read as a
isolated excerpts, as

“it is the general effect of the charge that controls.” PCRA Court Opinion,

12/30/16 (State Court Record Doc. 85) at 18. The PCRA Court explained that it believed it
“accurately recited the law and our jury charge with regard to justification,’ • and noted that after
this response to the jury’s question,

“the court brought counsel again to side bar and no objections

were raised with regard to our instructions.” Id. at 19. The PCRA Court continued:

24

Hx

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 25 of 33

We cannot deny that the transcription of our jury charge on Page 88,
Line 13-14, recites the phrase “the Defendant committed the crime.
However, we believe that we did not misspeak, but in fact said “the
Defendant committed no crime.” Otherwise, the entire sentence
appears to be “logical gibberish.” It makes no sense that the court
reporter’s transcription was accurate. We had previously, accurate y
made die statement to the jury that if the Defendant accidently
slashed the victim (as he reported in his testimony) then the
Defendant could not have committed the crime of aggravated assaul
and the defense of justification would not need to be considered by
the jury. We believe that we provided the same instruction in our
first charge as we did in our second charge referenced on Page 88 of
the Transcript. Other than the apparent error of “the” rather than
“no ” the section is consistent with the charge required as well as
our discussion with the parties [at the further charging conference]
in delineating between a justification defense and a lack of intent.
Id. at 19-20. The PCRA Court noted that it could not

account for the scrivener’s error but

concluded that such an isolated incident was not a basis to determine error and that “[tjaken as a
whole, the jury instruction adequately conveyed the law to the jury. ” Id at 29. Inasmuch as the
we measure the
PCRA Court was the last state court to address the merits of this claim,
reasonableness of the state court adjudication with reference

to the PCRA Court’s decision. See

Bond v. Beard, 539 F.3d 256, 289-90 (3d Cir. 2008).
The state law standard employed by the PCRA Court to adjudicate the instructional error
claim was not contrary to federal law. The United States Supreme Court has directed that, m
reviewing the adequacy of jury instructions, the instructions must be viewed as a whole and in
context. See, e.g., Victor v. Nebraska, 511 U.S. 1, 6 (1994) (assessing whether instruction “taken
as a

whole” correctly conveyed the concept of reasonable doubt). The Court has often repeated

8 The Superior Court opinion identified this issue among those presented See 2018WL 268519
*2 men Se court incorporated by reference the PCRA Court’s resolution ofthe retod cast e
doctrine alleged instructional error, however, it failed to otherwise discuss the issue of this alleged
error.
25

43

Filed 04/30/19 Page 26 of 33
Case 5:18-cv-00237-PBT Document 19

that the instruction “may not be judged in

artificial isolation,” but must be considered in the context

of the instructions as a whole and the trial record.” Cupp

Naugkten, 414 U.S. 141,147 (1973).

We find the standard employed by the PCRA Court to be legally indistinguishable from
standard, and that the PCRA Court’s application of the standard was not
the federal law
unreasonable. Importantly, the incorrect word by the court — occurred after the

whether a mis-transcription or actually spoken

court had indisputably instructed the jury correctly on all aspects

commenced. The error, arising in response to a
of the law it had to apply before the deliberations
determined by the PCRA Court to have been the
subsequent jury question, was quite reasonably
conviction that
an entire trial, resulting in a
that
does
not
by
itself
infect
type of isolated error
147. Because the underlying issue, if raised by
violates due process. See Cupp, 414 U.S. at
under both state and federal law, counsel cannot be
counsel, would have been deemed meritless
ine failed to raise.it. Accordingly, the PCRA Court’s
deemed to have been ineffective for having
adjudication of the
E.

instructional error claim provides no basis for habeas relief.

Ex post facto claim

under the Fifth and Fourteenth
Christine next asserts an ex post facto violation
in his direct appeal, the Pennsylvania
Amendments. His contentions relate to the fact that, in
Supreme Court’s adjudication of

a state law evidentiary issue overruled a prior Pennsylvania

precedent.9 He suggests that this subjected him to an ax

post facto violation, as he characterizes

a prior case, Commonwealth v. Beck, 402 A.
fficiently similar to demonstrate the victim’s
line evidentiary rule that “all assault convictions ^es ff
^ ^ m A2d * 1373). The
violent propensities.” Christine 1 _
•
Pennsylvania Supreme Court determined that the Pr°Pe^
whether the facts are sufficiently smular on a cas -by
b
case approach, the Supreme
discretion by excluding the cellblock stab

.
U

“trial courts may determine
u Applying this case-by“
g caPse did not abuse its

subseqUent assault conviction. While
j that a subsequent conviction can

g

*— - *■ - - “ *
26

•H

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 27 of 33

that state court as having "changed [an] evidentiary rulefj overruling precedential] case ” (Pet
at 15.) He contends that the overruling was in error and complains that the court “applied] [the]
change ex post facto” (Id.)
Christine never asserted an ex post facto claim in his PCRA petition following the
conclusion of the direct appeal. The claim is unexhausted and procedurally defaulted, as the
Commonwealth noted in its Response. While Christine’s “Traverse” again argued the legal
substance of this claim, he did not address the fact that the constitutional claim was never fairly
presented to the state courts.10 See Traverse at 17-19. He has failed to meet his burden to show
cause to excuse the default, and he has not established that this Court’s failure to review the merits
of this claim would constitute a miscarriage of justice.
Notwithstanding the failure to have presented the ex postfacto claim to the state court, it
is subject to denial on the merits as well. See 28 U.S.C. § 2254(b)(2). The Pennsylvania Supreme
Court’s resolution of Christine’s own direct appeal cannot support an ex postfacto claim and his
claim is therefore without merit. As the United States Supreme Court stated, it “has long been
settled by the constitutional text and our own decisions ... that the Ex Post Facto Clause does not
apply to judicial decisionmaking.” Rogers v. Tennessee, 532 U.S. 451,462 (2001). This is because

sufficient basis for excluding this evidence where: (1) 11 months elapsed between the ce|lbl°^
stabbing and the subsequent incident where the cellblock stabbing victim grabbed and pushed his
girlfriend, and (2) the subsequent assault involved a “strikingly disparate factual scenario. la. at
400-401.
10 Christine appears to have misapprehended the default analysis, as he seeks to explain why he
could not have raised this issue in the direct appeal, as it did not arise until the Pennsylvania
Supreme Court resolved his direct appeal. See Traverse at 19. He also responds that he didbnng
this alleged ex post facto violation to the attention of the Pennsylvania Supreme Court when he
filed an Application for Reconsideration or En Banc Reargument. That was not the time, however,
for the state court to entertain a new constitutional claim. Christine had the opportunity to present
this claim to the state court in the PCRA petition but he did not do so.
27

H5

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 28 of 33

of evolution that is incompatible with stringent
the common law “presupposes a measure
While a change in common law precedent can
application of ex postfacto principles.” Id. at 461
constitute a due process

violation, Christine did not raise and exhaust a due process claim either.

Further, a court decision constitutes a due process

violation only where the judicial alteration of

criminal law “violates the principle of fair warning,” and it does so “only where it is ‘unexpected
and indefensible by reference to the law

Id at 462 (quoting Bouie v. City ofColumbia, 378 U.S.

decision in Christine’s direct appeal
347, 354 (1964)). Here, the Pennsylvania Supreme Court’s
extend the presumption of
involved a rule of evidence, not substantive law. Its refusal to
of an assault to one that occurs subsequent to the victim’s assault by the
admissibility of evidence
dant cannot be considered indefensible “by reference to prior law” since the rules of evidence
defen
ive value of evidence must be balanced against unfair prejudice
had always provided that the probative
to determine its admissibility. See Pa. R. Evid. 403

Thus unexhausted claim of an ex postfacto

violation, which is without merit in any event, may be denied and dismissed.
F.

Mooney violation

Finally, Christine argues that he

is entitled to habeas relief where the Commonwealth

294 U.S. 103 (1935), which describes the prohibition on
allegedly violated Mooney v. Holohan,
the prosecution from obtaining a

conviction through deliberate deception). He asserts that:

During trial both Commonwealth witnesses [the victim Thomas
Missero and Daniel Rice] testified that a
Rice’s brother Jeff Rice] was present to the incident. But Housrng
records from the prison, and a private .investigater s
interview report from [that] individual indicate that he WAS NOT,
and that both Commonwealth witnesses lied.
Pet. K 12 Ground 6, Pet. Mem. at 62. Christine alleges that the falsity of this testimony is shown
by the fact that Jeff Rice was housed on a

different tier and inmates on different tiers were not

permitted out together. Pet. Mem. at 62-63.
28

Mb

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 29 of 33

Petitioner asserted in his pro se PCRA petition that the Commonwealth secured his
conviction through the use of perjured testimony regarding Jeff Rice’s presence at the scene of the
assault and that counsel was ineffective for failing to raise this issue. (St. Ct. Rec. Doc. 65 & 66,
Mem. atpp. 8-9.) This issue was

not raised, however, in the brief subsequently filed by counsel.

(St. Ct. Rec. Doc. 80, filed Aug. 10,2016.) Accordingly, when Christine attempted to raise m his
pro se PCRA appeal this issue of the ineffectiveness of trial counsel in failing to bring a Mooney
violation claim against the Commonwealth, the Superior Court found that the issue was waived.
Christine, 2018 WL 268519 at *9 (noting that issue was not raised in PCRA petition and that
argument in appellate brief was undeveloped and unintelligible) . Christine contends that his claim
should not be rejected as procedurally defaulted because the United States Supreme Court decision
in Martinez permits the default to be excused. Traverse at 20-23.
Martinez does not provide a basis for granting habeas review on the issue for several
First, the federal habeas petition clearly seeks to assert a direct claim of a Mooney

reasons

violation and not an ineffective assistance of counsel claim for failing to assert a Mooney violation.
Sec Pet. 1 12 Ground 6 (“‘MOONEY’ VIOLATION WHERE FALSE TESTIMONY WENT
UNCORRECTED THAT PROS. KNEW OR SHOULD HAVE KNOWN WAS FALSE”).
Nowhere

in the habeas petition or the accompanying memorandum does Christine assert anything

about a failure of counsel in this regard.
Martinez is relevant only to establish cause for a prisoner’s procedural default of a
meritorious claim of ineffective assistance at trial Coxv. Horn, 757F.3d 113,119 (3dCir.2014).
Christine’s, current co ntention that PCRA counsel was ineffective cannot provide cause because
the habeas claim he seeks to assert is not one alleging ineffective assistance of trial counsel, but
rather a

direct Mooney claim asserting improper actions by the Commonwealth. Accordingly,

29

M7

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 30 of 33

Martinez is facially inapplicable. See Hawes v. Marsh, Civ. A. No. 17-0017, 2018 WL 2294216,
at *9 (E.D. Pa. Apr. 26,2018), report and recommendation adopted sub nom. Hawes v. Ferguson,
2018 WL 2293940 (E.D. Pa. May 17,2018) (holding that PCRA counsel’s ineffectiveness cannot
provide cause for a defaulted Brady claim); Murray v. Diguglielmo, Civ. A. No. 09-4960, 2016
WL 3476255, at *4 (E.D

. Pa. June 27, 2016) (holding that Martinez does not apply to defaulted

claims of trial court error).
Even if Christine were entitled to review of this claim, or of the related ineffectiveness
claim that he raised at various points in the state cou rt proceedings, it is perfectly clear that he has
not raised even a colorable federal claim. Accepting as accurate for the purposes of this discussion
Christine’s factual assertions about the falsity of the two Commonwealth witnesses’ testimony
about Jeff Rice’s presence during the incident, nothing he has provided indicates that this evidence
was anything other than superfluous to the other evidence of guilt.

There is no allegation that Jeff

Rice was involved in the incident or that he even witnessed it occur. 11 While the contradictory
testimony on this discrete
rec

point may have been additional material for cross-examination, the

ord reflects that counsel attempted to impeach the two witnesses’ accounts on far more pertinent

cross-examined about his own friendship with the victim, Jeffs
grounds. Daniel Rice was
friendship with the victim, whether he had a motive to retaliate against Christine by testifying
against him, his contacts

with the ADA, and his prior criminal record. N.T. 10/6/10 at 26-31.

11 Thomas Missero testified that he ate dinner with Jeff Rice but that Jeffwas still at the table when
he was called over to Christine’s cell by another inmate. N.T. 10/5/10 at 56-58 He also teshfied
that both Daniel Rice and Jeff Rice stopped by after the stabbing for a minute and that
told him to go to the medical unit. Id. at 62, 66. On cross-examination, Missero again stated that
Jeff Rice was sitting at the table during the incident but came over to him after . Id. at 94-95_
Daniel Rice, who testified that Missero and Jeff were friends, testified that he ate dinner with J
but that Missero was at another table. N.T. 10/6/10 at 11-12. The Commonwealth asked him no
other questions about his brother.
30

Ht

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 31 of 33

Counsel attempted to impeach Missero by having him admit that he was suing the prison for civil
damages over the incident. N.T. 10/5/10 at 93-94. In addition, to the extent the “Mooney”
violation claim is couched in terms of trial counsel’s ineffectiveness, Christine does not assert that
counsel knew, should have known, or had any reasonable basis to even investigate where Jeff Rice
was located during the incident, as there is no indication the Commonwealth was ever going to
call him as a witness. Accordingly, any assertion that counsel’s performance was so deficient as
to satisfy Strickland is entirely speculative. There is no reason to believe that the outcome of the
proceeding would have been different had trial counsel pursued, questioning about the
Commonwealth witnesses’ testimony regarding the presence of Jeff Rice.
IV.

CONCLUSION
Christine has not met his burden to show that the adjudication by the state courts of his

exhausted claims resulted in a decision that was contrary to or involved an unreasonable
application of clearly established federal law, nor has he demonstrated any basis for the Court to
excuse the procedural default of the claims that he did not properly present to the state court.
As to Ground One, which asserted that the conviction was obtained through prosecutorial
misconduct and a Brady violation involving Commonwealth witness Daniel Rice, we found that
the state court reasonably rejected this claim when it was heard and adjudicated on PCRA review.
As to Ground Two, we determined that counsel could not be considered ineffective prior to trial
for failing to move for dismissal on Rule 600 grounds where the state court determined that the
Rule 600 time had not yet expired. We also rejected as procedurally defaulted his related
; contention that he was deprived of his Sixth Amendment; right to a speedy trial.

We concluded

that habeas relief was not available to Petitioner as to Ground Three, where he asserted that counsel
failed to seek a “castle doctrine” instruction relating to his claim of self-defense, as this claim was
reasonably adjudicated on PCRA review. As to Ground Four, where Christine further faulted trial
31

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 32 of 33

counsel’s reaction to jury instructions given by the court concerning self-defense and aggravated
assault, we again found that the state court reasonably rejected this claim on PCRA review . We
found Ground Five, in which Christine asserted that he was subjected to an ex postfacto violation
when the Pennsylvania Supreme Court overturned one of its precedents, to be procedurally
defaulted and without merit in any event. Finally, we found that Christine procedurally defaulted
his claim in Ground Six that the Commonwealth violated the Mooney doctrine by eliciting false
testimony from two witnesses.
Pursuant to Local Appellate Rule 22.2 of the United States Court of Appeals for the Third
Circuit, at the time a final order denying a habeas petition is issued, the district judge is required
to determine whether a Certificate of Appealability (COA) should be issued. Under 28 U.S.C.
§ 2253(c), a habeas court may not issue a COA unless “the applicant has made a substantial
showing of the denial of a constitutional right” See also Slack v. McDaniel, 529 U.S. 473, 484
(2000). We would not recommend that a COA issue unless we believed that jurists of reason
would find it to be debatable whether the petition stated a valid claim for the denial of a
constitutional right. As to claims that are dismissed on procedural grounds, the petitioner bears
the additional burden of showing that jurists of reason would also debate the correctness of the
procedural ruling. Id. Here, for the reasons set forth above, we do not believe a reasonable jurist
would find the Court erred in denying the present petition or that jurists would debate the
procedural rulings. Accordingly, we do not believe a COA should be issued. Our recommendation
follows.

32

5o

Case 5:18-cv-00237-PBT Document 19 Filed 04/30/19 Page 33 of 33

RECOMMENDATION
AND NOW, this 30th day of April, 2019, it is respectfully RECOMMENDED that the
petition for a writ of habeas corpus be DENIED AND DISMISSED.

It is FURTHER

RECOMMENDED that a Certificate of Appealability should NOT ISSUE, as we do not believe
that Petitioner has demonstrated that reasonable jurists would debate the correctness of the
procedural disposition or whether his petition states a valid claim.
Petitioner may file objections to this Report and Recommendation. See Local Civ. Rule
72.1. Failure to file timely objections may constitute a waiver of any appellate rights.
BY THE COURT:

/s/ David R. Strawbridge. USMJ________
DAVID R. STRAWBRIDGE
UNITED STATES MAGISTRATE JUDGE

33

Case 5:18-cv-00237-PBT Document 19-1 Filed 04/30/19 Page 1 of.1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

JACOB CHRISTINE,
Petitioner,
v.

NO. 18-237

MICHALE CLARK, et al,
Respondents
ORDER
AND NOW, this

day of

2019, upon careful and independent

consideration of the petition for a writ of habeas corpus, the response, petitioner’s reply, and
available state court records, and after review of the Report and Recommendation of United States
Magistrate Judge David R. Strawbridge, it is ORDERED that:
1.

The Report and Recommendation is APPROVED and ADOPTED;

2.

The petition for a writ of habeas corpus is DENIED AND DISMISSED;

3.

made

A certificate of appealability SHALL NOT issue, in that the Petitioner has not

a substantial showing of the denial of a constitutional right nor demonstrated that reasonable

jurists would debate the correctness of the procedural aspects of this ruling. See 28 U.S.C.
§ 2253(c)(2); Slack v. McDaniel, 529 U.S. 473,484 (2000); and
4.

The Clerk of the Court shall mark this case CLOSED for statistical purposes.

BY THE COURT:

PETRESE B. TUCKER,

J.

SL

APPENDIX F
Pennsylvania Superior Ct., Case # 3555 EDA 2018
Denial of Appeal of Dismissal of consecutive PCRA without hearing

55

■ J-S21018-19
NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

V.

JACOB MATTHEW CHRISTINE
Appellant

No. 3555 EDA 2018

Appeal from the PCRA Order Entered November 19, 2018
In the Court of Common Pleas of Northampton County Criminal Division
atNo(s): CP-48-CR-0003344-2009
BEFORE: STABILE, 3., MURRAY, J., and FORD ELLIOTT, P.J.E.
MEMORANDUM BY MURRAY, 3.:

FILED APRIL 26, 2019

3acob Matthew Christine (Appellant) appeals pro se from the dismissal
of his third petition

seeking relief under the Post Conviction Relief Act (PCRA),

42 Pa.C.S.A. §§ 9541-9546. Upon review, we affirm.
The PCRA court detailed the relevant facts and procedural history as
follows:
[Appellant] was convicted of Aggravated Assault and
Recklessly Endangering Another Person by a jury on October 7,
2010. The conviction resulted from an incident that occurred in
Northampton County Prison (NCP) on 3une 8, 2009. The trial
record established that on 3une 8, 2009, [Appellant] and his
victim, Thomas Misero (Misero), were inmates in NCP when a
confrontation between the two men occurred in [AppeMant sj cell
in Unit B-2 The cell housed 8 inmates in four rows of bunk beds.
While in [Appellant's] cell, [Appellant] was alleged to have slashed
Misero's neck and ear with a razor blade. Misero testified that
[Appellant's] assault was unprovoked.
Another inmate in
Northampton County Prison, Daniel Rice, was called by the
Commonwealth. Rice testified that he witnessed Misero go into
[Appellant's] cell, heard a fight occur and came into the cell as
[Appellant] and Misero were being separated. Rice witnessed

5H

J-S21018-19
Misero's wounds, but did not witness the fight. Rice also testified
that [Appellant] told him the fight was over twenty dollars that
Misero owed [Appellant]. During his direct and cross, Rice was
asked about any deal or consideration that the Commonwealth
was giving him in return for his testimony. Rice testified that he
was not promised anything in return for his testimony.

[Appellant] pursued post-sentence motions and an appeal
through the appellate courts. The Pennsylvania Supreme Court
issued an Order affirming [Appellant's] conviction on [October]
27, 2015.
[Appellant's] first PCRA was filed on February 22, 2016. In
the first PCRA, [Appellant] raised a series of claims, including
ineffective assistance of counsel and the existence of new
evidence" consisting of prosecutorial misconduct alleging that the
Assistant District Attorney (ADA) intimidated Rice and suborned
Rice's perjured testimony by promising Rice a hidden deal on his
criminal charges in exchange for his perjured testimony.
We held our first hearing on the PCRA on July 11, 2016.
[Appellant] was represented by PCRA counsel. At the hearing, we
heard from Rice's guilty plea counsel, Rice's PCRA counsel, and
[Appellant]. We learned that on September 15, 2010, shortly
after [Appellant's] trial, Rice was given a 4-8 year sentence as
part of a negotiated plea with a sentence bargain for a bank
robbery in which he was the getaway driver. At sentencing, Rice
acknowledged that he got the benefit of his negotiated bargain.
Apparently, Rice's co-defendant was later given a 3 to 6 year
sentence. Upon finding that his co-defendant (who actually
entered the bank to commit the robbery) got a lesser sentence,
Rice filed for PCRA relief asking for reconsideration and/or for the
same sentence his co-defendant received. Rice also claimed in his
PCRA that he was promised a sentence reduction by the ADA.
During the PCRA hearing, both of Rice's attorneys testified that
they were not aware that any prior promises were made to Rice
for his testimony against [Appellant]. Rice's PCRA attorney
testified that he did raise the inequitable sentencing situation with
the ADA. Thereafter, the ADA (the same ADA who prosecuted
[Appellant]) agreed with his proposal that a fair resolution would
be to give Rice the same sentence as the actual robber. Rice
agreed to accept the new resolution. On September 30, 2011, as
- 2 -

5&

J-S21018-19
part of the resolution of Rice's PCRA, the Judge modified Rice's
sentence to 3-6 years, with the agreement of the ADA.
[Appellant] also testified at his PCRA hearing. [Appellant]
presented the report of a private investigator, John Stahr, a
retired Detective from the Bethlehem Police Department who was
apparently sent to interview Rice by [Appellant's] Public Defender,
prior to [Appellant's] trial. The entirety of Stahr's report as it
relates to his hearsay summary of his interview with Rice is as
follows:
I asked Rice if he saw Misero approach [Appellant's]
cell and he told me that he had. Rice said that Misero
had a cup in his hand and that he saw him walk into
[Appellant's] cell. Rice said that he saw a scuffle start
and then someone yelled that they were fighting. Rice
told me that he went to the cell but the fight was over.
[Appellant] and Misero were arguing about a dispute
on the street but he did not know what it involved.
Rice had nothing further to add and the interview was
terminated.
Report of John Stahr, April 12, 2010.
[Appellant] argued that Rice's PCRA filing and the Stahr
report establish both the secret sentencing deal Rice reached with
the ADA and that the ADA suborned perjured testimony from Rice.
PCRA Counsel asked to recess the hearing as he considered calling
additional witnesses. No other hearings were held, even though
we recessed the hearing to allow PCRA Counsel to call possible
additional witnesses.
On December 30, 2016, we entered our Order denying
[Appellant's] first Petition. Our December 30, 2016 Order was
appealed. On January 3, 2018, the Superior Court affirmed our
Order denying post-conviction relief. In the Superior Court's
decision, the Court discussed the alleged improper "secret deal"
between the ADA and Rice in which the ADA allegedly influenced
Rice to change his testimony and/or the ADA knowingly proffered
perjured testimony of Rice at trial, before concluding that there
was no credible evidence of a "secret deal" or that the ADA
The
misrepresented facts or proffered perjured testimony.
Superior Court's detailed analysis can be found in its January 3,
2018 Opinion (pp. 4-12), where the Superior Court finally stated:
- 3 -

S4>

J-S21018-19
"We conclude, therefore, that the record supports the PCRA
court's finding that [Appellant], who had the burden of proof,
presented no competent or credible evidence in support of his bald
theory that the ADA lied during the trial." See Superior Court
Opinion, No. 337 EDA 2017, January 3, 2018 at page 12.
***

On May 7, 2018, [Appellant] filed his second PCRA Petition
advancing the same theory and based upon the same factual
predicate, with additional evidence consisting of a written
statement (an affidavit) from Rice which [Appellant] argued
constituted "newly discovered evidence" under the PCRA. The
Affidavit signed by Rice alleges that the ADA offered Rice reduced
time in exchange for his testimony, and that his original statement
to the "initial investigator" who visited him in prison was his true
statement.
PCRA Court Opinion, 11/19/18, at 1-6.
On May 15, 2018, the PCRA court issued notice of intent to dismiss
Appellant's second PCRA petition without a hearing pursuant to Pennsylvania
Rule of Criminal Procedure 907. The PCRA court dismissed the petition on
June 11, 2018. Appellant did not file an appeal.
On September 24, 2018, Appellant filed the instant PCRA petition, his
third.

Again, Appellant has claimed that a sworn affidavit from Rice

constituted after-discovered evidence which entitles Appellant to a new trial.
On October 11, 2018, the PCRA court issued notice of its intent to dismiss
Appellant's PCRA petition without a hearing pursuant to Pennsylvania Rule of
Criminal Procedure 907. The court dismissed the petition on November 19,
2018 on the basis that it lacked jurisdiction because the petition was untimely.
Appellant filed this appeal.

51
-4-

J-S21018-19
On appeal, Appellant presents a single issue:
1) DID THE LOWER COURT ERR IN FAILING TO GRANT A
PCRA EVIDENTIARY HEARING WHERE [APPELLANT]
FROM
A
AFFIDAVIT
PRESENTED
A
SWORN
COMMONWEALTH WITNESS THAT "ALL [HIS] TRIAL
TFSTIMONY WAS FALSE," THAT "[APPELLANT] WAS
DEFENDING THIM1SELF FROM [THE VICTIM]," AND THAT
THE ONLY REASON [THE WITNESS] TESTIFIED AGAINST
[APPELLANT] WAS BECAUSE THE ADA MADE A SECRET
DEAL WITH [THE WITNESS] PRIOR TO TRIAL TO CHANGE
HIS TESTIMONY FROM EXCULPATORY TO INCULPATORY
IN EXCHANGE FOR A SENTENCE REDUCTION ON HIS
RANK ROBBERY CONVICTION THAT WAS HIDDEN FROM
[THE! JURY.
Appellant's Brief at 4 (underline in original).
"On appeal from the denial of PCRA relief, our standard of review calls
for us to

determine whether the ruling of the PCRA court is supported by the

record and free of legal error." Commonwealth v. Williams, 196 A.3d 1021,
1026-27 (Pa. 2018) (quoting Commonwealth v. Washington, 927 A.2d
586, 593 (Pa. 2007)).

"The PCRA court's credibility determinations, when

supported by the record, are binding on this Court; however, we apply a de
novo

standard

of

review

to

the

PCRA

court's

legal

conclusions."

Commonwealth v. Roney, 79 A.3d 595, 603 (Pa. 2013).
Instantly, we must first address the timeliness of Appellants petition,
because the PCRA's time limitations implicate our jurisdiction and may not be
altered or disregarded in order to address a petition's merits; a petitioner
seeking post-conviction relief must file a petition within one year of the
petitioner's

judgment

of

sentence

becoming

final.

See,

e.g.,

52
- 5 -

J-S21018-19
Commonwealth v. Smith, 194 A.3d 126, 132 (Pa. Super. 2018); see also
42 Pa.C.S.A. § 9545(b)(1). Section 9545 of the PCRA requires that "[a]ny
petition under this subchapter, including a second or subsequent petition, shall
be filed within one year of the date the judgment becomes final. " 42 Pa.C.S.A.
§ 9545(b)(1). The timeliness requirement of the PCRA is "mandatory and
jurisdictional in nature." Commonwealth v. McKeever, 947 A,2d 782, 78485 (Pa. Super. 2008). Therefore, "no court may disregard, alter, or create
equitable exceptions to the timeliness requirement in order to reach the
substance of a petitioner's arguments." Id. at 785.
Appellant's third PCRA petition is patently untimely. The Pennsylvania
Supreme Court affirmed Appellant's judgment of sentence on October 27,
2015.

Appellant sought reargument with the Supreme Court, which was

denied on January 26, 2016. Under U.S. Sup. Ct. R. .13, Appellant had 90
days to petition for a writ of certiorari with the United States Supreme Court,
but did not do so. A judgment of sentence becomes final "at the conclusion
of direct review, including discretionary review in the Supreme Court of the
United States and the Supreme Court of Pennsylvania, or at the expiration of
time for seeking the review."

42 Pa.C.S.A. § 9545(b)(3).

Therefore,

Appellant's judgment of sentence became final on April 25, 2016, and he had
to file his PCRA petition by April 25, 2017 to meet the PCRA's time restrictions.
The underlying petition was not filed until September 24, 2018.

S\
- 6-

J-S21018-19
It is well-settled that a court does not have jurisdiction to entertain a
petition filed after the one-year time-bar unless the petitioner pleads and
proves one of the time-bar exceptions. The exceptions include:

0)

the failure to raise the claim previously was the result of
by government officials with the
interference
presentation of the claim in violation of the Constitution
or laws of this Commonwealth or the Constitution or laws
of the United States;

(ii)

the facts upon which the claim is predicated were
unknown to the petitioner and could not have been
ascertained by the exercise of due diligence; or

(Hi)

the right asserted is a constitutional right that was
recognized by the Supreme Court of the United States or
the Supreme Court of Pennsylvania after the time period
provided in this Section and has been held by that court
to apply retroactively.

42 Pa.C.S.A. § 9545(b)(l)(i)-(iii).
Until recently, a petition invoking an exception had to be filed within 60
days of the date the claim could have been presented.

However, effective

December 2017, Act 146 of 2018 amended 42 Pa.C.S.A. § 9545(b)(2), and
now provides that a PCRA petition invoking a timeliness exception must be
filed within one year of the date the claim could have been presented. See
Act 2018, Oct. 24, P.L 894, No. 146, §2 and §3. Although we note the change
in the law from 60 days to one year, and its application to Appellant, the
change does not impact our analysis.
Appellant argues that the PCRA court should have held a hearing on his
third PCRA petition and vacated his conviction because he presented sworn

Go
-7-

J-S21018-19
affidavits from Rice documenting Rice's "secret deal" with the Commonwealth.
See Appellant's Brief at 17 (stating that the PCRA court erred by failing to
conduct a hearing where the witness, Rice, "confesses" that "all his trial
testimony was false," and Appellant "was defending himself from Misero.").
Although Appellant recognizes the PCRA's time-bar and asserts that he has
presented newly discovered evidence to circumvent the time requirement, this
assertion is belied by the record. As noted by the Commonwealth, Appellant
"has failed to prove [the newly discovered evidence] exception to the
timeliness requirement because he has not shown that these facts were
unknown to him and that he exercised due diligence." Commonwealth Brief
at 10. Moreover, as the PCRA court recognizes, Appellant may not re-raise
issues that were previously litigated. PCRA Court Opinion, 11/19/18, at 17
(citing 42 Pa.C.S.A. § 9544, providing that an issue has been previously
litigated where, inter alia, "it has been raised and decided in a proceeding
collaterally attacking the conviction or sentence.").

The PCRA court

thoroughly analyzed Appellant's third claim for post-conviction relief, stating:
[Appellant's] third PCRA alleging new evidence ... is actually a
reiteration of [Appellant's] previous assertions addressing
whether or not Misero was holding anything in his hand when he
entered [Appellant's] cell and claiming that the District Attorney
promised Rice some undefined sentencing benefit in return for
falsifying his testimony.
PCRA Court Opinion, 11/19/18, at 18.
The PCRA court observed that "rather than constituting new evidence,
Rice's affidavits merely regurgitate stale evidence," and thus, Appellant's
-8 -

6Y

J-S21018-19
evidence "is both repetitive and cumulative." Id- at 21. The court accurately
explained:
[Appellant's] claim does not qualify as after-discovered
evidence under the PCRA, as the claim about the truthfulness or
accuracy of Rice's testimony was known (and addressed) at the
original trial, nearly ten years ago. Frankly, if anything, Rice
continues to be consistent with his uncertain memory in each
affidavit. Further, after the expiration of ten years after this issue
was first addressed at his trial, [Appellant] cannot meet the due
diligence requirement of the PCRA.
Id- at 20. See also 42 Pa.C.S.A. § 9545(b)(l)(ii).
For the above reasons, we agree that Appellant has failed to plead and
prove an exception to the PCRA's time-bar, and is not entitled to relief.
Because the he PCRA court did not abuse its discretion, we affirm its order
dismissing Appellant's petition for lack of jurisdiction.
Order affirmed.
Judgment Entered.

Joseph D. Seletyn, Es
Prothonotary

Date: 4/26/19

-9 -

r

APPENDIX G
Northampton County Ct. Of Cannon Please, Case # 3344-cr-2009
Order dianising third PCRA

*5

IN THE COURT OF COMMON PLEAS OF NORTHAMPTON COUNTY, PA
' CRIMINAL DIVISION

COMMONWEALTH OF PENNSYLVANIA

No. 3344-2009

)
)

f-O

•-

)

V.

CO

)

<

)

JACOB CHRISTINE

CO

)

Defendant/Petitioner

c=>

i 3>

)

“Tlj
it

m

!V>

>•

u

ORDER OF COURT

AND NOW, this

I Q^hday ofNovember, 2018, upon consideration of

the September 24, 2018 Petition for Post-Conviction Relief filed by
Defendant/Petitioner and after a review of the entire record, we DISMISS this
third PCRA Petition without a hearing pursuant to Pa.R.Crim.P. 907, as this Court
has no jurisdiction to hear this most recent PCRA claim because it is time barred
under 42 Pa.C.S.A. §9545(b).
STATEMENT OF REASONS
Factual and Procedural History
Petitioner, Jacob Christine (Christine), was convicted of Aggravated Assault
and Recklessly Endangering Another Person by a jury on October 7,2010. The
conviction resulted from an incident that occurred in Northampton County Prison

1

6H

(NCP) on June 8, 2009. The trial record established that on June 8, 2009, Christine
and his victim, Thomas Misero (Misero), were inmates in NCP when a
confrontation between the two men occurred in Christine’s cell in Unit B-2. The
cell housed 8 inmates in four rows of bunk beds. While in Christine’s cell,
Christine was alleged to have slashed Misero’s neck and ear with a razor blade.
Misero testified that Christine’s assault was unprovoked. Another inmate in
Northampton County Prison, Daniel Rice, was called by the Commonwealth . Rice
testified that he witnessed Misero go into Christine’s cell, heard a fight occur and
came into the cell as Christine and Misero were being separated. Rice witnessed
Misero’s wounds, but did not witness the fight. Rice also testified that Christine
told him the fight was over twenty dollars that Misero owed Christine. During his
direct and cross, Rice was asked about any deal or consideration that the
Commonwealth was giving him in return for his testimony. Rice testified that he
was not promised anything in return for his testimony.
Christine also testified at trial and claimed that Misero came into his cell
holding a cup of coffee and armed with a razor blade when he attacked Christine.
Christine claimed that he successfully disarmed Misero, picked up the razor from
the floor, and then unintentionally sliced Misero, as Misero continued to advance
towards, and fight with Christine.

2

<o5

Christine pursued post-sentence motions and an appeal through the appellate
courts. The Pennsylvania Supreme Court issued an Order affirming Christine’s
conviction on January 27, 2016.
Christine’s first PCRA was filed on February 22, 2016. In the first PCRA,
Christine raised a series of claims, including ineffective assistance of counsel and
the existence of “new evidence” consisting of prosecutorial misconduct alleging
that the Assistant District Attorney (ADA) intimidated Rice and suborned Rice’s
perjured testimony by promising Rice a hidden deal on his criminal charges in
exchange for his perjured testimony.
We held scheduled our first hearing on the PCRA, on July 11, 2016.
Christine was represented by PCRA counsel. At.the hearing, we heard from Rice’s
guilty plea counsel, Rice’s PCRA counsel, and Christine. We learned that on
September 15, 2010, shortly after Christine’s trial, Rice was given a 4-8 year
sentence as part of a negotiated plea with a sentence bargain for a bank robbery in
which he was the getaway driver. At sentencing, Rice acknowledged that he got
the benefit of his negotiated bargain. Apparently, Rice’s co-defendant was later
given a 3 to 6 year sentence. Upon finding out that his co-defendant (who actually
entered the bank to commit the robbery) got a lesser sentence, Rice filed for PCRA
relief asking for reconsideration and/or for the same sentence his co-defendant
received. Rice also claimed in his PCRA that he was promised a sentence
3

(A

\4^

A

l/wjd gsO

reduction by the ADA. During the PCRA hearing, both of Rice’s attorneys
testified that they were not aware that any prior promises were made to Rice for his
testimony against Christine. Rice’s PCRA attorney testified that he did raise the
inequitable sentencing situation with the ADA. Thereafter, the ADA (the same
ADA who prosecuted Christine) agreed with his proposal that a fair resolution
would be to give Rice the same sentence as the actual robber. Rice agreed to
accept the new resolution. On September 3 0, 2011, as part of the resolution of
Rice’s PCRA, the Judge modified Rice’s sentence to 3 - 6 years, with the
agreement of the ADA.
Christine also testified at his PCRA hearing. Christine presented the report
of a private investigator, John Stahr, a retired Detective from the Bethlehem Police
Department who was apparently sent to interview Rice by Christine’s Public
Defender, prior to Christine’ trial. The entirety of Investigator Stahr’s report as it
relates to his hearsay summary of his interview with Rice is as follows:
I asked Rice if he saw Misero approach Christine’s cell and he told
me that he had. Rice said that Misero had a cup in his hand and that he
saw him walk into Christine’s cell. Rice said that he saw a scuffle start
and then someone yelled that they were fighting. Rice told me that he
went to the cell but the fight was over. Christine and Misero were
arguing about a dispute on the street but he did not know what it
involved. Rice had nothing further to add and the interview was
terminated.
Report of John Stahr, April 12, 2010.

4

U7

Christine argued that Rice’s PCRA filing and. the Stahr report
establish both the secret sentencing deal Rice reached with the ADA and that
the ADA suborned peijured testimony from Rice. PCRA Counsel asked to
recess the hearing as he considered calling additional witnesses. No other
hearings were held, even though we recessed the hearing to allow PCRA
Counsel to call possible additional witnesses.
On December 30, 2016, we entered on our Order denying Christine’s first
Petition. Our December 30, 2016 this Order was appealed. On January 3, 2018,
the Superior Court affirmed our Order denying post-conviction relief. In the
Superior Court’s decision, the Court discussed the alleged improper “secret deal”
between the ADA and Rice in which the ADA allegedly influenced Rice to change
his testimony and/or the ADA knowingly proffered peijured testimony of Rice at
trial, before concluding that there was no credible evidence of a “secret deal” or
that the ADA misrepresented facts or proffered peijured testimony. The Superior
Court’s detailed analysis can be found in its January 3, 2018 Opinion (pp. 4 - 12),
where the Superior Court finally stated: “We conclude, therefore, that the record
supports the PCRA court’s finding that Christine, who had the burden of proof,
' presented no competent or credible evidence in support of his bald theory that the
ADA lied during the trial.” See Superior Court Opinion, No. 337 EDA 2017,
January 3, 2018 at page 12.

V. <?

5

t>?

Thus, the claim that Rice peijured himself, with the ADA’s knowledge or at
the ADA’s request was fully vetted at Christine’s first PCRA and reviewed and
affirmed by the Superior Court in its Order of January 3, 2018, affirming the denial
of Christine’s first PCRA petition.
On May 7, 2018, Christine filed his second PCRA Petition advancing the
same theory and based upon the same factual predicate, with additional evidence
consisting of a written statement (an affidavit) from Rice which Christine argued
constituted “newly discovered evidence” under the PCRA. The Affidavit signed
by Rice alleges that the ADA offered Rice reduced time in exchange for his
testimony, and that his original statement to the “initial investigator” who visited
him in prison was his true statement. In its entirety, Rice’s affidavit stated:
Everything in my PCRA was true and I met with District Attorney
Patricia Mulqueen prior to Jacob Christine’s trial and she offered me
time off my sentence in exchange for testimony against Jacob
Christine. My original statement was true to the initial investigator
who came to see me. Afterwards I agreed to charg [change?] my
statement for a reduced sentence.
Rice Affidavit, April 12, 2018
We shall try to reasonably organize the facts and the issues as best we can,
so that this makes sense. To summarize Christine’s claim, Christine maintains that
Rice’s testimony at trial was materially false because it contradicted Rice’s original
statement to the investigator hired by the Public Defender’s Office. In his
affidavit, Rice said that he lied at trial and that his statement to Stahr was true 6

6*

that Misero walked into Christine’s cell with cup in his hand. There is nothing else
as far as new facts presented by Christine. Further, the “new” evidence is not
anything new, as it was fully vetted at trial.
It should also be again noted, Rice was not an eyewitness to the assault, and
never claimed to be. Rice was incarcerated in the same tier and at the same time
that Christine and Misero were incarcerated in Northampton County Prison. Rice
testified that he observed Mr. Misero going into Christine’s cell and thereafter
responded to the cell after the fight occurred. Rice observed the two fighters
pulled apart and then observed the injuries to Misero. Rice observed no weapon.
After the fight, Rice testified that he spoke briefly with Christine after the fight.
We again carefully reviewed Rice’s trial testimony for purposes of analyzing
this PCRA claim. Rice apparently came to the cell after the fight started and saw
Misero and Christine being separated, describing what he saw as: “...more like
wrestling hold or whatever, but it was real brief, that it was just broke up”. (Notes
of Testimony October 6, 2010, Vol. II p. 17). Rice then testified that he saw a slice
across Misero’s neck and a lot of blood. Rice testified that he asked Christine what
the fight was about, specifically his testimony was as follows:
Q. What did you say?
A. I said what did you do this for, you know what I mean, and he said
he owed him $20, and I said you going to do this for $20.
Q. What was his response?
7

70

A. Basically he told me to run his sneakers.
Q. Who told you to run his sneakers?
A. Jacob told Tom that he wanted his sneakers, and at that point, I told
Misero, listen, your neck is bleeding, you have to go to a nurse.
See Notes of testimony, October 6, 2010 Vol. II atp. 18.
To summarize, based on Stahr’s report and his trial testimony, Rice did not
see the actual fight start, nor did he see how Misero’s neck was cut. Further, Rice
did not see a weapon and did not place a weapon in either Misero’s or Christine’s
hand. Rice did testify that Christine told him that the fight was over a $20 debt as
opposed to Rice’s purported “original statement” - Investigator Stahr’s recollection
that Rice told him the alleged motive for the assault was “a dispute on the street.”
During his direct testimony, Rice also claimed that Christine had asked him
to tell the investigator that Misero had a cup of coffee in his hand when he walked
into Christine’s cell. Specifically, Rice testified as follows:
Q. So Mr. Christine asked you to tell the investigator that you saw
Tom going into his cell?
A. Yeah.
Q. Did he say anything else?
A. And asked if I could say that he had a cup of coffee or something
like that.
Q. What was your response to that?
8

A. I actually agreed to it. I agreed to it.
Q. Why did you agree to tell the investigator that?
A. I mean I was just, I was actually going to try to help him out, you
know what I mean.
Q. And that wasn’t the truth?
A. That wasn’t even the truth. I mean he might have had a cup in
his hand, I don’t know. The guy asked me to help him out and be a
witness, I was like all right, I’ll go down there and see what the
investigator has to say. (Emphasis added)
Trial Transcript October 6,2010, Vol. II pp. 22-23.
On cross-examination Rice was again asked in detail regarding the presence
of a cup in Misero’s hand:
Q. Now, you testified here today that you believe you did see a cup of
some sort in Tom Misero’s hand, correct?
A. I mean I didn’t believe it, but it’s possible, it was dinnertime. I’m
not going to say I did or didn’t see a cup in his hand, but it’s possible
he could have had a cup in his hand.
Q. Now, you’re saying that my client told you what to say?
A. Yes.
Q. Even though you testified earlier that you think you could have
seen a cup in his hand?
Ms. Mulqueen: Objection, Your Honor.
The Court: Wait, a second sir. I think it’s fair game. It’s crossexamination. Do you understand the question, sir?
Mr. Rice: Could you ask it again?
9

1Z

BY MS. HUTNIK:
Q. You testified earlier today that you could have seen a cup in his
hand?
A. Yeah.
Q. And you didn’t say that Jacob Christine told you to say that at that
time, right?
A. No.
Q. You believe you did see a cup in his hand, you could have?
A. I could have, yes.
Q. Now, Attorney Mulqueen asked you about the investigator that
came from our office?
A. Yeah.
Q. He actually met with you on April 12, 2010, do you remember
that?
A. Yes.
Q. His name is John Stair?
A. I don’t remember his name.
Q. But you remember meeting him that day?
A. Yeah.
Q. Do you remember telling him that Misero did have a cup in his
hand when he walked into Jacob’s cell?
A. Yeah, I probably said that.
10

73

Q. And you didn’t tell him at that time, you didn’t say anything about
Jacob Christine telling you to say that, did you?
A. No I didn’t.
Notes of Testimony Volume II p. 24-26
Any reasonable review of the trial transcript established that Rice’s trial
testimony was uncertain as to whether Misero had a cup in his hand — saying at
several points that Misero “may have had a cup in his hand.” The Stabr report
contains Stahr’s hearsay statement that “Rice said that Misero had a cup in his
hand and that he saw him walk into Chritine’s cell.” In our humble opinion, there
is not a material divergence or inconsistency between Rice’s testimony and Stahr’s
hearsay summary of his interview with Rice. Further, if there is arguably a
contradiction, it was well known by counsel and addressed at trial. The affidavit
raises no new facts or new areas of dispute regarding Rice’s testimony.
After a careful review of the trial testimony, we determined that there were
virtually no new facts or claims proffered in the second PCRA Petition. In fact, the
claims regarding the interaction between Rice and the District Attorney with regard
to apr

offered deal and the content of Rice’s testimony were discussed during trial,

ppeal, then again in the first PCRA, and now regurgitated in the second PCRA.
on a
Further, the claimed peijured testimony of Mr. Rice, was specifically addressed in
both Rice’s direct examination and cross-examination during the trial. Thus, the
new

affidavit of Rice offered no new evidence nor was it a recantation of his trial
11

7H

testimony. Therefore, on June 11, 2018, after providing aNotice oflntentto
Dismiss without a Hearing, we issued a Final Order denying the second PCRA
Petition without a Hearing, because the Petition was filed beyond the one-year
PCRA time bar and on the face of the Petition there was no new evidence which
could satisfy the exception to one-year time bar.
No Appeal was filed to our June 11, 2018 denial.
On September 24, 2018, approximately ten (10) weeks after we dismissed
the second Petition, Christine filed this third PCRA Petition reiterating the same
theory contained in his first two PCRA Petitions. However, this time he filed two
“new” Affidavits from Rice. The first one is dated August 18,2018 and sets forth.
My trial testimony was false I’m not sure if I saw a cup of coffee or
not I seen something but not really 100% sure what it was. I
witnessed Misero go into Christine s cell and there was a scuffle and
Misero was on top.
See Rice Affidavit August 18, 2018.
The second affidavit was dated September 15, 2018, and set forth:
Tom Misero had just came onto the cell block and was selling
cigarettes I noticed Misero talking to Jacob Christine at one point and
soon after he Tom Misero walked towards his cell with a cup in his
hand he entered the cell and what looked like a scuffle occurred I
entered the cell shortly and it was all over with. It was a cup of
coffee. Years later District Attorney approached me Mulqueen asking
why I wrote a statement for Jacob I told her it was the truth. Jacob was
defending hisself against Misero who walked into his cell with hot
coffee.
See Rice Affidavit September 15, 2018.
12

IS

Once again Christine asserts that Rice acknowledges that has trial testimony
was false and once again, the new Affidavit offers no new evidence, no new facts
and no new claims.
Along with his third PCRA, Christine also filed a Memorandum in Support
of PCRA Petition, a “Motion for Merciful Consideration” and a request for a video
hearing on his PCRA. We review all Christine’s filings. On October 11, 2018, we
filed and circulated our Notice of Intent to Dismiss without Hearing Pursuant to
Pa.R.Crim.P.907. On October 30, 2018 we received Christine’s Response to
Notice to Dismiss PCRA Petition. We reviewed that as well.1

Legal Standard
Before we address the merits of Petitioner’s claim, we must first consider the
timeliness of his PCRA petition because it implicates the jurisdiction of this Court
and the PCRA court. See Commonwealth v. Davis, 86 A.3d 883, 887
(Pa.Super.2014). Pennsylvania law makes it clear that when “a PCRA petition is
untimely, neither this Court nor the trial court has jurisdiction over the petition.”
Commonwealth v. Seskey, 86 A.3d 237, 241 (Pa.Super.2014) (citation omitted).
1 We have attached to this Order: (1) Rice’s “original statement” to Investigator Stahr, (2) Rice’s
April 12 2018 affidavit; (3) Rice’s August 18,2018, affidavit (4) Rice’s September 15,2018, affidavit;
and (5) The entirety of Daniel Rice’s testimony at trial on October 6,2010 (24 pages, including direct,
examination, redirect, and re-cross), for the benefit of possible appellate review, as we do not mtend
cross
to ever address these issues again..
13

7(o

The “period for filing a PCRA petition is not subject to the doctrine of equitable
tolling; instead, the time for filing a PCRA petition can be extended only if the
PCRA permits it to be extended.” Commonwealth v. AH, 86 A.3d 173,177 (Pa.
2014) (internal quotation marks and citation omitted). This is to “accord finality to
the collateral review process.” (citation omitted). Commonwealth v. Watts, 23
A.3d 980, 983 (Pa. 2011). “However, an untimely petition may be received when
the petition alleges, and the petitioner proves, that any of the three limited
exceptions to the time for filing the petition, set forth at 42 Pa.C.S.A. §
9545(b)(l)(i), (ii), and (iii), are met.” Commonwealth v. Lawson, 90 A.3d 1, 5
(Pa.Super.2014)
The PCRA provides, in relevant part:
§ 9545. Jurisdiction and proceedings
(b) Timing for filing petition.—
(1) Any petition under this subchapter, including a second or
subsequent petition, shall be filed within one year of the date
the judgment becomes final, unless the petition alleges and the
petitioner proves that:
(i) the failure to raise the claim previously was the result of
interference by government officials with the presentation of the
claim in violation of the Constitution or laws of this
Commonwealth or the Constitution or laws of the United States;
(ii) the facts upon which the claim is predicated were unknown to
the petitioner and could not have been ascertained by the exercise
of due diligence; or
14

77

(iii) the right asserted is a constitutional right that was recognized
by the Supreme Court of the United States or the Supreme Court of
Pennsylvania after the time period provided in this section and has
been held by that court to apply retroactively.
(2) Any petition invoking the exception provided in paragraph (1)
shall be filed within 60 days the claim could have been
presented.
42 Pa.C.S.A. §9545(b).
A judgment becomes final “at the conclusion of direct review, including
discretionary review, in the Supreme Court of the United States and the Supreme
Court of Pennsylvania, or at the expiration of time for seeking the review.” 42
Pa.C.S.A. §9545(b)(3). Here, Petitioner’s judgement of sentence became final
upon the January 27, 2016, Order of the Pennsylvania Supreme Court.
A PCRA petitioner is not automatically entitled to an evidentiary hearing
when the court is satisfied “that there are no genuine issues concerning any
material fact, the Petitioner is not entitled to post-conviction collateral relief, and
no legitimate purpose would be served by further proceedings.” Commonwealth v.
Roney, 79 A.3d 595, 604 (Pa. 2013) (citation omitted). This concept was similarly
stated by the Superior Court in Commonwealth v. Wah, 42 A.3d 335,
(Pa.Super.2012):
“[T]he right to an evidentiary hearing on a post-conviction petition
is not absolute. It is within the PCRA court's discretion to decline to
hold a hearing if the petitioner's claim is patently frivolous and has
no support either in the record or other evidence. It is the
15

7*

responsibility of the reviewing court on appeal to examine each
issue raised in the PCRA petition in light of the record certified
before it in order to determine if the PCRA court erred in its
determination that there were no genuine issues of material fact in
controversy and in denying relief without conducting an evidentiary
hearing.”
Id. at 338 (internal citations omitted).
“[A]n evidentiary hearing is not meant to function as a fishing expedition for
any possible evidence that may support some speculative claim of ineffectiveness.”
Roney, supra at 605.. (Citation omitted).
In Commonwealth v. Lawson, 549 A.2d 107, 112 (Pa. 1988), the Supreme
Court expressed its concern that repetitive applications for post-conviction relief
ignore the waiver provisions of the Act and render the ‘finally litigated’ concept
illusory. Id. at 110. Therefore, the Lawson Court held that “...we cannot permit
our continuing concern for assuring that persons charged with crimes receive
competent representation in their defense to be exploited as a ploy to destroy the
finality of judgments fairly reached.. .a second or any subsequent post-conviction
requestfor reliefwill not be entertained unless a strong prima facie showing is
offered to demonstrate that a miscarriage ofjustice might have occurred.” Id. at
112 (emphasis added.). In fact Lawson restated this concept in the next paragraph,
again holding that a “repetitive or serial petition may be entertained only for the
purpose of avoiding a demonstrated miscarriage of justice, which no civilized
society can tolerate.” Id.
16

7*!

Finally, a defendant is not eligible for post-conviction relief if the allegation
of error has been previously litigated. 42 Pa.C.S. § 9544 provides:
§ 9544. Previous litigation and waiver
a) Previous litigation—For purposes of this subchapter, an issue has
been previously litigated if: (1) Deleted; (2) the highest appellate court
in which the petitioner could have had review as a matter of right has
ruled on the merits of the is-sue; or (3) it has been raised and decided
in a proceeding collaterally attacking the conviction or sentence.
The legislative intent of the PCRA is not to provide a defendant with a
means of re-litigating the merits of issues long since decided on appeal or in prior
PCRA petitions. See Commonwealth v. Buehl, 658 A.2d 771, 775 (Pa. 1995);
Commonwealth v. Alexander, 432 A.2d 182 (Pa. 1981,); Commonwealth v. Lawson,
549 A.2d 107 (Pa. 1988).
In order to be eligible for post-conviction relief, the defendant must establish
that the allegation of error has not been waived. See 42 Pa.C.S. § 9543(a)(3) A
claim of error is waived if the defendant could have raised the issue at trial, on
appeal, or in a prior post-conviction proceeding but failed to do so. See 42 Pa.C.S.
§ 9544(b); Commonwealth v. Peterkin, 649 A.2d 121, 124 (Pa. 1994), cert, denied,
515 U.S. 1137 (1995); Commonwealth v. Roman, 730 A.2d 486 (Pa.Super. 1999).

17

Discussion
Now comes Christine with his third PCRA alleging new evidence which is
actually a reiteration of Rice’s previous assertions addressing whether or not
Misero was holding anything in his hand when he entered Christine’s cell and
claiming that the District Attorney promised Rice some undefined sentencing
benefit in return for falsifying his testimony.
Once again, we note that the Pennsylvania Supreme Court issued a final
Order affirming Christine’s conviction on January 27,2016. Under the PCRA, the
statute of limitations on PCRA filings, often referred to the PCRA time bar,
requires that any PCRA Petition, including second or subsequent Petitions, must be
filed within one year of the date the judgment becomes final unless the Petition
alleges and can prove one of three exceptions - a newly announced substantive
constitutional right, new evidence or facts upon which the claim is predicated
which were unknown to Petitioner and could not have been ascertained by the
exercise of due diligence, or the failure to timely raise a claim was the result of
interference by governmental officials in violation of the Constitution or other law.
Here, Christine’s third PCRA Petition was filed over eighteen (18) months
after the expiration of the one year time bar (final order upon holding his
conviction was filed by the Supreme Court on January 26, 2016). Further,
18

2\

Christine cannot make out any of the exceptions to the one year time bar. There is
no assertion of a new constitutional right, there is no assertion of interference by
governmental officials, and there is absolutely no new evidence or facts upon
which his claims are based.
Apparently, Christine believes that by simply obtaining a new affidavit, in
which Rice again ruminates as to whether he can remember if Misero was holding
a cup of coffee in is hand, constitutes new evidence under the PCRA. It does not.
We have located a very recent Superior Court decision addressing a similar
PCRA claim regarding “after discover evidence” - Commonwealth v. Robinson,
No. 3515 EDA 2015 (May 2, 2018). Robinson addresses a PCRA petitioner’s
claim of uncovering after discovered evidence, which under the fact pattern in
Robinson, the Court referenced as actually being cumulative evidence.2 The
Robinson Court affirmed the trial court’s dismissal of Robinson’s 8th and 9th
PCRA claim without a hearing because it was time barred and that the petitioner
was not entitled to a hearing on his PCRA claim because the “failed to establish
due diligence.” Id. atp. 1.
In discussing the exceptions to the one year time bar found within the PCRA
under § 9545(b)(l)(ii), the Robinson Court held that a petitioner must establish
Robinson’s claim was that his attorney was in the throes of addiction at the time he was induced to plead guilty in
1983. However, the evidence that Robinson relied upon in PCRA filed in 2015, included an allegation that his
attorney purchased cocaine in 1982, including a newspaper article from 1982 which mentioned the attorney’s drug
use, and his attorney’s eventual guilty plea to a drug offense in 1994 in which the attorney admitted using cocaine
since 1979.

19

*2.

both after discovered evidence and due diligence on the petitioner’s behalf:
.. .Our Supreme Court has made plain that the analysis of whether a
PCRA petitioner has satisfied the § 9545(b)(l)(ii) time-bar exception
is analytically distinct from the merits of any substantive claim
seeking relief. As stated in Commonwealth v. Bennett, 930 A.2d 1264
(Pa. 2007):
The text of the relevant subsection provides that “the
facts upon which the claim is predicated were unknown
to petitioner and could not have been ascertained by due
diligence.” 42 Pa.C.S. § 9545(b)(l)(ii).. .. [T]he plain
language of subsection (b)(1)(h) does not require the
petitioner to allege and prove a claim of “afterdiscovered evidence.” Rather, it simply requires
petitioner to allege and prove that there were “facts” that
were “unknown” to him and that he exercised “due
diligence.” Id. at 1270
Id. at p. 7
This claim does not qualify as after-discovered evidence under the PCRA, as
the claim about the truthfulness or accuracy of Rice’s testimony was known (and
addressed) at the original trial, nearly ten years ago. Frankly, if anything, Rice
continues to be consistent with his uncertain memory in each affidavit. Further,
after the expiration of ten years after this issue was first addressed at his trial,
\

Christine cannot meet the due diligence requirement of the PCRA. y/V'

\s*—

Finally, we look to appellate case law regarding PCRA relief and allegations
of recantation testimony - just in case we are wrong and the Rice affidavits can be
considered recantation testimony. PCRA case law does recognize that recantation
testimony may qualify as newly discovered evidence entitling a petitioner to post20

25

conviction relief, if it meets the Supreme Court’s 4-part standard governing after
discovered evidence and the trial court finds the recantation testimony credible.
See Commonwealth v. D’Amato. 856 A2d. 806, 823 (Pa. 2004). Specifically, the
D’Amato found that in order to obtain PCRA relief based upon newly discovered
evidence under the PCRA:
“[the] petitioner must establish, that: (1) the. evidence has been
discovered after trial and it could not have been obtained at or prior to
trial through reasonable diligence; (2) the evidence is not cumulative;
(3) it is not be used solely to impeach credibility; and (4) it would
likely compel a different verdict.”
Id at. p. 823. (Internal citations omitted)
Not one of the four elements can be established in this record. Both the
claim of prosecutorial misconduct regarding a secret deal and just what was Misero
holding when he went into Christine’s cell has been addressed during the trial and
within each of Christine’s PCRA filings. Rather than constituting new evidence,
Rice’s affidavits merely regurgitate stale evidence. These issues were previously
addressed in final, dispositive orders. Thus, Christine’s evidence is both repetitive
and cumulative. Under any reasonable definition of due diligence, there is none.
Further, the evidence is presented not to impeach Rice’s trial testimony nor to
change Rice’s testimony; it is merely an attempt to clarify Rice’s trial testimony.
Finally, if the statements in the affidavits were admitted at trial, they would not
compel a different result as the disputed testimony does not address what actually
21

SH

happened during the assault. The jury did not decide this case based upon Rice s
testimony that Misero may have had a cup in his hand. This case turned solely on
the testimony of Misero and Christine. Christine fully presented his theory of selfdefense - he disarmed Misero, picked up Misero’s razor and then accidently sliced
Misero’s neck as Misero continued to advance to fight with him. Rice’s testimony
did not contradict Christine’s defense.
Finally, we do not find the claim by Christine, that Rice’s testimony was
somehow perjured to be at all credible. It was fully vetted at the first PCRA, we
heard from the ADA, we heard from Rice’s guilty plea counsel who negotiated
with the ADA regarding Rice’s sentence and Rice’s PCRA counsel who negotiated
the PCRA sentence modification - both asserted that they were not aware of any
prior or undeclared sentencing agreement reached with the ADA, and finally
Stahr’s report, Rice’s trial testimony and Rice’s three affidavits are eerily
consistent. We found then and we continue to find: (1) there is no evidence
indicating that the District Attorney’s Office engaged in misconduct or suborned
perjury, (2) that Rice’s trial testimony is not somehow impeached by the “new”
evidence, let alone proven to be perjured testimony, and (3) that Rice’s testimony
was not material to the outcome.

22

Therefore, because this is a third PCRA Petition, filed 18 months beyond the
one year PCRA jurisdictional time bar and none of the exceptions to the time bar
are present, we have no jurisdiction to entertain this third PCRA Petition.

BY THE COURT:

STEPHEN G. BARATTA, J.

23

APPENDIX H
Northampton County Court of Ccranon Pleas, Case # 3344-cr-2009
Order Dismissing second FCRA

?7

t

IN THE COURT OF COMMON PLEAS OF NORTHAMPTON COUNTY, PA
CRIMINAL DIVISION

COMMONWEALTH OF PENNSYLVANIA

)

No. 3344-2009

)
)
)
)
)
)

v.
JACOB CHRISTINE
Defendant/Petitioner

r-o

s-

■~v

ORDER OF COURT

-o

ro
—C

>

AND NOW, this 11th day of June, 2018, upon consideration of th& I%titi©ii
for Post-Conviction Relief Act (PCRA), 42 Pa.Cons.Stat.Ann. §§ 9541-9546
filed on May 8, 2018, and after a review of the entire record, we DISMISS this
second, subsequent PCRA petition without a hearing pursuant to Pa.R.Crim.P. 907,
as this Court has no jurisdiction to hear this most recent PCRA claim because it is
time barred under 42 Pa.C.S.A. § 9545(b).
STATEMENT OF REASONS
Factual and procedural history
The Petitioner, Jacob Christine (Christine) attacks his conviction to the
charges of aggravated assault and recklessly endangering another person after a
jury trial on October 7, 2010. Christine was sentenced on November 24,2010. The
conviction was appealed and eventually affirmed by the Superior Court by its
Opinion entered August 30,2013. The Pennsylvania Supreme Court issued a Final
1

Order affirming the Christine’s conviction on January 27, 2016.
Christine filed his first PCRA on February 22, 2016. A hearing was held in
which Christine pursued claims including prosecutorial misconduct related to
allegedly proffering perjured testimony from Daniel Rice, along with other claims
of ineffective assistance of counsel.
After numerous conferences, a PCRA hearing and the submission of briefs,
we entered our Order on December 30, 2016, denying PCRA relief. Our
December 30, 2016 Order was appealed. On January 3, 2018, the Superior Court
affirmed our Order, denying post-conviction relief. In the Superior Court’s
decision, they discussed the alleged improper “secret deal” between the Assistant
District Attorney (ADA) and Daniel Rice (in which the ADA allegedly influenced
Daniel Rice to change his testimony and/or the ADA knowingly proffered peijured
testimony of Daniel Rice at trial), the legal theory advanced by Christine, and the
relevant case law before concluding that there was no credible evidence of a
“secret deal” or that the ADA misrepresented facts or proffered peijured testimony.
The Superior Court’s detailed analysis can be found in its January 3, 2018 Opinion
(pp.4

12), where the Superior Court finally stated: “We conclude, therefore, that

the record supports the PCRA court’s finding that Christine, who had the burden of
proof, presented no competent or credible evidence in support of his bald theory
that the ADA lied during the trial.” Opinion dated January 3, 2018 at page 12.
2

SI

On May 7, 2018, Christine filed his second PCRA Petition advancing the
same theory, with a new “factual” claim that one Jennifer Cyr has obtained a
written statement from Darnel Rice which constitutes newly discovered
evidence”. The affidavit signed by Mr. Rice alleges that the ADA offered Rice
reduced time in exchange for his testimony, and that his original statement to the
“initial investigator” who visited him in prison, was his true statement. However,
nowhere in the affidavit does Rice actually state what testimony was inaccurate, let
alone perjured, other than he claimed that the ADA offered him “time off’ in
exchange for testimony against Christine and “My original Statement was true to
the initial investigator.”
The PCRA attached copies of the “original statement” to the investigator and
the purported Affidavit signed by Rice.1 We also note that Christine also filed a
“Motion for Video Hearing Resolution of PCRA” contemporaneously with the
PCRA, stating that Christine did not want to come in to Northampton County to
participate in a PCRA Hearing other than through video conferencing.
We filed and circulated our Notice of Intent to Dismiss Without Hearing
Pursuant to Pa.R.Crim.P.907 on May 14, 2018. On that same date, Christine filed
a Memorandum in Support of PCRA Petition. Thereafter, Christine also filed a

1 We have attached to this Order “original statement”, the purported affidavit and Ihe entirety of
Daniel Rice’s testimony at trial on October 6,2010, which in total is 24 pages, including direct, cross
examination, redirect, and re-cross.

3

%

Response to proposed Dismissal of PCRA without Hearing on May 24, 2018. We
have carefully reviewed those documents. Both are a regurgitation of Christine’s
claims of prosecutorial misconduct regarding the suborning of Rice’s perjured
testimony by the Assistant District Attorney.
Legal Standard
Before we address the merits of Christine’s claim, we must first consider the
timeliness of his PCRA petition because it implicates the jurisdiction of this Court
to address his PCRA. See Commonwealth v. Davis, 86 A.3d 883, 887
(Pa.Super.2014).
Pennsylvania law makes it clear that when “a PCRA petition is untimely,
neither this Court nor the trial court has jurisdiction over the petition.”
Commonwealth v. Seskey, 86 A.3d 237, 241 (Pa.Super.2014) (citation omitted).
The “period for filing a PCRA petition is not subject to the doctrine of equitable
tolling; instead, the time for filing a PCRA petition can be extended only if the
PCRA permits it to be extended.” Commonwealth v. AH, 86 A.3d 173, 177 (Pa.
2014) (internal quotation marks and citation omitted). This is to “accord finality to
the collateral review process.” Commonwealth v. Watts, 23 A.3d 980, 983 (Pa.
2011) (citation omitted). “However, an untimely petition may be received when the
petition alleges, and the Petitioner proves, that any of the three limited exceptions
to the time for filing the petition, set forth at 42 Pa.C.S.A. § 9545(b)(l)(i), (ii), and
4

(iii), are met.” Commonwealth v. Lawson, 90 A.3d 1, 5 (Pa.Super.2014) (citation
omitted).
The PCRA provides, in relevant part:
§ 9545. Jurisdiction and proceedings
(b) Timing for filing petition.—
(1) Any petition under this subchapter, including a second or
subsequent petition, shall be filed within one year of the date
the judgment becomes final, unless the petition alleges and the
petitioner proves that:
(i) the failure to raise the claim previously was the result of
interference by government officials with the presentation of the
claim in violation of the Constitution or laws of this
Commonwealth or the Constitution or laws of the United States,
(ii) the facts upon which the claim is predicated were unknown to
the petitioner and could not have been ascertained by the exercise
of due diligence; or
(iii) the right asserted is a constitutional right that was recognized
- by the Supreme Court of the United States or the Supreme Court of
Pennsylvania after the time period provided in this section and has
been held by that court to apply retroactively.
(2) Any petition invoking the exception provided in paragraph (1)
shall be filed within 60 days the claim could have been
presented.
42 Pa.C.S.A. §9545(b).
A judgment becomes final “at the conclusion of direct review, including
discretionary review, in the Supreme Court of the United States and the Supreme
Court of Pennsylvania, or at the expiration of time for seeking the review.” 42
5

<\T-

Pa.C.S.A. § 9545(b)(3). Here, Christine’s judgment'of sentence became final upon
the January 27, 2016 Order of the Pennsylvania Supreme Court.
A PCRA petitoner is not automatically entitled to an evidentiary hearing
when the court is satisfied “that there are no genuine issues concerning any
material fact, the petitioner is not entitled to post-conviction collateral relief, and
no legitimate purpose would be served by further proceedings” Commonwealth v.
Roney; 79 A.3d 595, 604 (Pa. 2013) (citation omitted). This concept was similarly
stated by the Superior Court in Commonwealth v. Wah, 42 A.3d 335,
(Pa.Super.2012):
“[T]he right to an evidentiary hearing on a post-conviction petition
is not absolute. It is within the PCRA court’s discretion to decline to
hold a hearing if the petitioner’s claim is patently frivolous and has
no support either in the record or other evidence. It is the
responsibility of the reviewing court on appeal to examine each
issue raised in the PCRA petition in light of the record certified
before it in order to determine if the PCRA court erred in its
determination that there were no genuine issues of material fact in
controversy and in denying relief without conducting an evidentiary
hearing.”
Id. at 338 (internal citations omitted).
“[A]n evidentiary hearing is not meant to function as a fishing expedition for
any possible evidence that may support some speculative claim of ineffectiveness.
Roney, supra at 605. (Citation omitted).

6

°IS

In Commonwealth v. Lawson, 549 A.2d 107, 112 (Pa. 1988), the Supreme
Court expressed its concern that repetitive applications for post-conviction relief
ignore the waiver provisions of the Act and render the ‘finally litigated’ concept
illusory. Id. at 110. Therefore, the Lawson Court held that “...we cannot permit
our continuing concern for assuring that persons charged with crimes receive
competent representation in their defense to be exploited as a ploy to destroy the
finality of judgments fairly reached.. .a second or any subsequent post-conviction
reques tfor reliefwill not be entertained unless a strong prima facie showing is
offered to demonstrate that a miscarriage ofjustice might have occurred.” Id at
112 (emphasis added.). In fact Lawson restated this concept in the next paragraph,
again holding that a “repetitive or serial petition may be entertained only for the
purpose of avoiding a demonstrated miscarriage of justice, which no civilized
society can tolerate ” Id.
Regarding the appointment of counsel for a second or subsequent petition,
counsel must be appointed only if evidentiary hearing is required. See
Pa.R.Crim.P. 904(D).
Discussion
To lift a frequent quote from our political pundits: This is a big nothing
burger.

■ft

We shall try to reasonably organize the facts and the issues as best we can.
To summarize Christine’s claim, Christine maintains that Rice’s testimony at trial
was materially false because it contradicted Rice’s original statement. Christine
now asserts that he has “new” evidence in the form of a purported affidavit signed
by Rice, acknowledging that Rice lied at trial and that the victim walked into
Christine’s cell with a hot cup of coffee in his hand. There is nothing else as far as
new facts presented by Christine. Further, the “new” evidence is not anything new
and it was fully vetted at trial.
When Christine references the “original statement” of Rice, he is in fact
referencing a summary of an interview written by the private investigator, John
Stahr, a retired Detective from the Bethlehem Police Department. Prior to the trial,
Christine’s public defender sent Stahr to Northampton County Prison to interview
Rice. The entirety of Investigator Stahr’s report as it relates to his interview with
Rice is as follows:
“I asked Rice if he saw Misero approach Christine’s cell and he told me
that he had. Rice said that Misero had a cup in his hand and that he saw
him walk into Christine’s cell. Rice said that he saw a scuffle start and
then someone yelled that they were fighting. Rice told me that he went
to the cell but the fight was over. Christine and Misero were arguing
about a dispute on the street but he did not know what it involved. Rice
had nothing further to add and the interview as terminated.”
Report of John Stahr, April 12, 2010.

8

The entirety of Christine’s new evidence is Rice’s purported affidavit which
states:
“Everything in my PCRA was true and I met with District Attorney
Patricia Mulqueen prior to Jacob Christine’s trial and she offered me
time off my sentence in exchange for testimony against Jacob
Christine. My original statement was true to the initial investigator
who came to see me. Afterwards I agreed to charg [change?] my
statement for a reduced sentence.”
Rice Affidavit, April 12, 2018
After any careful review of the trial testimony regarding the fight between
Misero and Christine, there are virtually no new facts offered in this repetitive
PCRA Petition.
First we note that Rice was not an eyewitness to the assault, and never
claimed to be. Rice was incarcerated in the same tier and at the same time that
Christine and his victim, Thomas Misero, were incarcerated in Northampton
County Prison. Rice testified that he observed Mr. Misero going into Christine ’s
cell and thereafter responded to the cell after the fight occurred. Rice observed the
two fighters pulled apart and then observed the injuries to Misero. Rice observed
no weapon. After the fight, Rice alleged that he spoke briefly with Christine after
the fight was over.

/

We again reviewed Rice’s trial testimony for purposes of analyzing this
PCRA claim. Rice apparently came to the cell after the fight started and saw Misero
and Christine engaged in the fight testifying: “more like wrestling hold or whatever,
9

°lb

but it was real brief, that it was just broke up”. (Notes of Testimony October 6,2010,
Vol. II p. 17). Rice then testified that he saw a slice across Misero’s neck and a lot
of blood. Rice testified that he asked Christine what the fight was about, specifically
his testimony was as follows:
Q. What did you say?
A. I said what did you do this for, you know what I mean, and he said
he owed him $20, and I said you going to do this for $20.
Q. What was his response?
A. Basically he told me to run his sneakers.
Q. Who told you to run his sneakers?
A. Jacob told Tom that he wanted his sneakers, and at that point, I told
Misero, listen, your neck is bleeding, you have to go to a nurse.
See Notes of testimony, October 6, 2010 Vol. II at p. 18.
To summarize, based on Stahr’s report and his trial testimony, Rice did not
see the actual fight start, nor did he see how Misero’s neck was cut. Further, Rice
did not see a weapon and did not place a weapon in either Misero or Christine’s
hands. Rice did testify that Christine told him that the fight was over a $20 debt as
opposed to Rice’s purported “original statement” - Investigator Stahr’s recollection
that Rice told him the alleged motive for the assault was “a dispute on the street.”
During his direct testimony, Rice also claimed that Christine had asked him
to tell the investigator that Misero had a cup of coffee in his hand when he walked
10

°0

into Christine’s cell. Specifically, Rice testified as follows:
Q. So Mr. Christine asked you to tell the investigator that you saw
Tom going into his cell?
A. Yeah.
Q. Did he say anything else?
A. And asked if I could say that he had a cup of coffee or something
like that.
Q. What was your response to that?
A. I actually agreed to it. I agreed to it.
Q. Why did you agree to tell the investigator that?
A. I mean I was just, I was actually going to try to help him out, you
lknow what I mean.
Q. And that wasn’t the truth?
A. That wasn’t even the truth. I mean he might have had a cup in
his hand, I don’t know. The guy asked me to help him out and be a
witness, I was like all right, I’ll go down there and see what the
investigator has to say. (Emphasis added)
Trial Transcript October 6, 2010, Vol. II pp. 22-23.
On cross-examination Rice was again asked in detail regarding the presence
of a cup in Misero’s hand:
Q. Now, you testified here today that you believe you did see a cup of
some sort in Tom hfesero’s hand, correct?
A. I mean I didn’t believe it, but it’s possible, it was dinnertime. I’m
not going to say I did or didn’t see a cup in his hand, but it’s possible
he could have had a cup in his hand.
11

Q. Now, you’re saying that my client told you what to say?
A. Yes.
Q. Even though you testified earlier that you think you could have
seen a cup in his hand?
Ms. Mulqueen: Objection, Your Honor.
The Court: Wait, a second sir. I think it’s fair game. It’s crossexamination. Do you understand the question, sir?
Mr. Rice: Could you ask it again?
BY MS. HUTNIK:
Q. You testified earlier today that you could have seen a cup in his
hand?
A. Yeah.
Q. And you didn’t say that Jacob Christine told you to say that at that
time, right?
A. No.
Q. You believe you did see a cup in his hand, you could have?
A. I could have, yes.
Q. Now, Attorney Mulqueen asked you about the investigator that
came from our office?
A. Yeah.
Q. He actually met with you on April 12, 2010, do you remember
that?
A. Yes.
12

°IPV

Q. His name is John Stair?
A. I don’t remember his name.
Q. But you remember meeting him that day?
A. Yeah.
Q. Do you remember telling him that Misero did have a cup in his
hand when he walked into Jacob’s cell?
A. Yeah, I probably said that.
Q. And you didn’t tell him at that time, you didn’t say anything about
Jacob Christine telling you to say that, did you?
A. No I didn’t.
Notes of Testimony Volume II p. 24-26
Any reasonable review of the trial transcript established that Rice s
testimony was uncertain as to whether Misero had a cup in his hand — saying at
severa1 points that Misero “may have had a cup in his hand.” The Stahr report
contains Stahr’s hearsay statement that “Rice said that Misero had a cup in his
hand and that he saw him walk into Chritine’s cell.” In our humble opinion, there
is not a material divergence or inconsistency between Rice’s testimony and Stahr’s
hearsay summary of his interview with Rice. Further, if there is arguably a
contradiction, it was well known by counsel and addressed at trial. The affidavit
raises no new facts or new areas of dispute regarding Rice’s testimony.

13

10D

Finally, with regard to Rice’s trial testimony, Rice also testified that the
ADA did not promise him anything in return for his testimony. Shortly after the
Christine trial - September 15, 2010 - Rice was given a 4-8 year sentence as part of
a negotiated plea with a sentence bargain for a bank robbery in which he was the
getaway driver. At sentencing, Rice acknowledged that he got the benefit of his
negotiated bargain. Apparently, Rice’s co-defendant and actual robber was
eventually given a 3-6 year sentence and as a result, Rice filed for PCRA relief
asking reconsideration and/or for the same sentence his co-defendant received,
claiming that he was “promised a sentence reduction by the ADA.” On September
30, 2011, as part of the resolution of his PCRA, the Judge modified Rice’s
sentence to 3-6 years, with the agreement of the ADA. At Christine’s first PCRA
hearing we heard from Rice’s guilty plea counsel and Rice s PCRA counsel, both
of who testified that there was no prior promises by the Christine ADA, but that
the ADA agreed that a fair resolution would be to give Rice the same sentence as
the robber. Rice agreed to that resolution. The claim that Rice peijured himself,
with the ADA’s knowledge or at the ADA’s request was fully vetted at Christine’s
first PCRA and reviewed and affirmed by the Superior Court in its Order of
January 3, 2018 affirming the denial of Christine’s first PCRA petition.
Regarding the fight itself, Misero and Christine were the only two witnesses
to testify. Misero’s testimony was that he came into the cell to talk with Christine
14

fc>\

and that Christine, without any provocation, attacked him, yelling about a $20 debt
and as a result of the fight, his neck was sliced. Misero claimed that he did not see
a weapon. Regarding the motive for the assault, Misero indicated:
Q. When he grabbed you by the shirt, what happened?
A. He pulled me into the cell, I turned around and he began like hitting me.
He kept yelling, you owe me $20, you owe me $20. Then I looked down and I seen
all of this blood and I didn’t know what was going on.
Q. You said that Mr. Christine was punching you?
A. Yes.
Q. Was he saying that you owed him $20 as he was punching you?
A. Yeah.
See Notes of testimony, October 5, 2010 Vol. I at p. 61.
During his trial, Christine testified that Misero came into his cell armed with
a razor blade, threw hot coffee at him and then attacked Christine. Christine
claimed that he successfully disarmed Misero, picked up the razor from the floor,
and then unintentionally sliced Misero, as Misero continued to advance and
threaten him. Based on the testimony at trial, including Christine’s testimony,
Christine was apparently the last person to possess the weapon. However, the
weapon was never located.
As stated above, there were only two eye-witnesses to the fight - Misero and
Christine. Each testified in detail as to what actually happened and apparently the
15

IbX

jury accepted Misero’s version, or at least rejected Christine’s claim that he cut
Misero’s neck in self-defense.
Now Christine claims to have “new” evidence proving that Rice perjured
himself or testified falsely, but his proof is merely that Rice’s testimony did not
mirror the hearsay statement written by Investigator Stahr. Regardless, Rice’s
testimony and Stahr’s hearsay statement summarizing Rice’s interview are not
contradictory regarding any material claim. After careful review of Stahr s report
and Rice’s testimony, the best one could conclude is that Rice’s trial testimony was
equivocal or uncertain regarding the possibility that Misero was holding a cup of
coffee in his hand, where in Stahr’s report the statement is not equivocal.
We have located a very recent Superior Court decision addressing a similar
PCRA claim regarding “after discover evidence” - Commonwealth v. Robinson,
No. 3515 EDA 2015 (May 2,2018). Robinson addresses a PCRA petitioner’s
claim of uncovering after discovered evidence, which under the fact pattern in
Robinson, the Court referenced as actually being cumulative evidence.2 The
Robinson Court affirmed the trial court’s dismissal of Robinson’s 8th and 9th
PCRA claim without a hearing because it was time barred and that the petitioner

2 Robinson’s claim was that his attorney was in the throes of addiction at the time he was induced to plead ^ilty m
1983. However, the evidence that Robinson relied upon in PCRA filed in 2015, included an allegation that his
attorney purchased cocaine in 1982, including a newspaper article from 1982 which mentioned the attorney s drug
use, and his attorney’s eventual guilty plea to a drug offense in 1994 in which the attorney admitted using cocame
since 1979.

16

was not entitled to a hearing on his PCRA claim because the “failed to establish
due diligence.” Id. atp. 1.
In discussing the exceptions to the one year time bar found within the PCRA
under § 9545(b)(1)(h), the Robinson Court held that a petitioner must establish
both after discovered evidence and due diligence on the petitioner’s behalf:
.. .Our Supreme Court has made plain that the analysis of whether a
PCRA petitioner has satisfied the § 9545(b)(l)(ii) time-bar exception
is analytically distinct from the merits of any substantive claim
seeking relief. As stated in Commonwealth v. Bennett, 930 A.2d 1264
(Pa. 2007):
The text of the relevant subsection provides that “the
facts upon which the claim is predicated were unknown
to petitioner and could not have been ascertained by due
diligence.” 42 Pa.C.S. § 9545(b)(1)(h).... [T]he plain
language of subsection (b)(1)(h) does not require the
petitioner to allege and prove a claim of “afterdiscovered evidence.” Rather, it simply requires
petitioner to allege and prove that there were “facts” that
were “unknown” to him and that he exercised “due
diligence ” Id. at 1270
Id. at p. 7
Finally, we look to appellate case law regarding PCRA relief and allegations
of recantation testimony, just in case we are wrong and the divergence in Rice’s
statements can be considered recantation testimony. PCRA case law does recognize
that recantation testimony may qualify as newly discovered evidence entitling a
petitioner to post-conviction relief, if it meets the Supreme Court’s 4-part standard
governing after discovered evidence and the trial court finds the recantation
17

m

testimony credible. See Commonwealth, v. D Amato, 856 A2d. 806, 823 (Pa. 2004).
Specifically, the D’ Amato found that in order to obtain PCRA relief based upon
newly discovered evidence under the PCRA:
“[the] petitioner must establish that: (1) the evidence has been
discovered after trial and it could not have been obtained at or prior to
trial through reasonable diligence; (2) the evidence is not cumulative;
(3) it is not be used solely to impeach credibility; and (4) it would likely
compel a different verdict.”
Id at. p. 823. (Internal citations omitted)
Not one of the four elements can be established in this record. First of all,
Christine - prior to trial - obtained the statement by his own investigator, hired by
his public defender. Therefore, the statement was available for Rice s crossexamination to test the credibility of his testimony. Secondly, the evidence is
frankly cumulative as Christine testified on the very issue of Misero holding a cup
of coffee and Rice also acknowledged that Miero may have been holding a cup
when he went into Christine’s cell. Thus, the trust of Christine’s claim is to revisit
the trial testimony about whether or not Misero was holding a cup is both repetitive
and cumulative; and further, was addressed as part of cross-examination, because
the statement was available to Christine prior to trial. Third, the evidence is
presented solely to attempt to impeach Rice. Fourth it would not compel a
different result as the disputed testimony does not address what actually happened
during the assault. The jury did not decide this case based upon Rice’s testimony
18

165

that Misero may have had a cup in his hand. This case turned solely on the
testimony of the victim and Christine. Christine fully presented his theory of selfdefense - he disarmed Misero, picked up Misero’s razor and then accidently sliced
Misero’s neck as Misero continued to advance to fight with him. Rice’s testimony
did not contradict Christine’s defense.
Finally, we do not find the claim by Christine, that Rice’s testimony was
somehow perjured to be at all credible. It was fully vetted at the first PCRA, we
heard from the ADA, we heard from Mr. Rice’s attorney who negotiated with the
ADA regarding Rice’s sentence, and Christine, who had the Stahr report at the
time of the first PCRA hearing and apparently opted not to call Investigator Stahr.
We found then and we continue to find: (1) there is no evidence indicating that the
District Attorney’s Office engaged in misconduct or suborned perjury, (2) that
Rice’s trial testimony is not somehow impeached by the “new” evidence, let alone
proven to be perjured testimony, and (3) that Rice’s testimony was not material to
the outcome.
Therefore, because this is a second, subsequent PCRA Petition, filed one
year after the expiration of the jurisdictional time frame and that there is no newly

19

lot

APPENDIX I
Pennsylvania Superior Court, Case # 337 EDA 2017
Denial of Appeal of Denial of First PCRA

~l

J-A29015-17

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.

JACOB MATTHEW CHRISTINE
Appellant

No. 337 EDA 2017

Appeal from the PCRA Order December 30, 2016
In the Court of Common Pleas of Northampton County Criminal Division
atNo(s): CP-48-CR-0003344-2009
BEFORE:

LAZARUS, J., PLATT*, J., and STRASSBURGER*, J.

MEMORANDUM BY LAZARUS, J.:

FILED JANUARY 03, 2018

Jacob Matthew Christine appeals from the order, entered in the Court of
Common Pleas of Northampton County, denying his petition for relief under
the Post-Conviction Relief Act ("PCRA"), 42 Pa.C.S. §§ 9541-9546. After our
review, we affirm.
A jury convicted Christine of aggravated assault1 and recklessly
endangering another person.2 The convictions resulted from an incident that
occurred in Northampton County Prison on June 8, 2009. On that date,
Christine and the victim, Thomas Misero, were inmates in the prison when a
confrontation between the two men occurred in Christine's cell.

While in

Christine's cell, Christine cut Misero's neck and ear with a razor blade.

1 18 Pa.C.S. § 2702(a)(1).
2 18 Pa.C.S. § 2705.

it#
*

Retired Senior Judge assigned to the Superior Court.

£T

J-A29015-17

Immediately after the attack, corrections officers searched Christine's cell;
only one weapon, a shank, was found in the cell, and it was hidden within
Christine's bed. See Trial Court Opinion, 4/26/11, at 1-2.
At trial, Christine testified he was reading on his cot when one of his
cellmates invited Misero inside. N.T. Trial, 10/6/10, at 44-45. Christine
testified his cellmate and Misero argued about a debt, and the conversation
escalated and became confrontational; Christine tried to leave the cell, but
Misero was standing in the doorway. Id. at 45. Christine stated Misero threw
a cup of hot coffee at him and a struggle ensued. Misero produced a
razorblade; Christine stated he disarmed Misero, retrieved the razorbiade, and
accidently may have cut Misero as he left the cell. Id. at 46, 49. The
razorblade was never found.
On November 24, 2010, the court sentenced Christine to nine to 20
years' incarceration. Christine filed post-sentence motions, which were
denied; he filed a timely direct appeal on May 5, 2010. On August 30, 2013,
this Court affirmed the judgment of sentence, en banc, by an equally divided
court.3 Commonwealth v. Christine, 78 A.3d 1 (Pa. Super 2013) (en banc).
Christine filed a petition for allowance of appeal in the Pennsylvania Supreme

3 Then-President Judge Stevens did not participate in the consideration or
decision in that case.

- 2 -

left

J-A29015-17

Court and, on October 27, 2015, the Court affirmed Christine's judgment of
sentence. Commonwealth v. Christine, 125 A.3d 394 (Pa. 2015).
On February 22, 2016, Christine filed a timely PCRA petition. The PCRA
court appointed counsel and, following a hearing, denied relief on December
30, 2016.

This pro se appeal followed.4

Christine filed a timely Pa.R.A.P.

1925(b) statement of errors complained of on appeal, and the trial court filed
a Rule 1925(a) opinion. Christine raises the following issues for our review:5
1. Whether the PCRA court erred in finding no violation of
Brady v. Maryland, 373 U.S. 83 (1963)?6
2. Whether the PCRA court erred in its Pa.R.Crim.P. 600
calculation?
3. Whether trial counsel was ineffective for failing to raise a
Pa.R.E. 404(b) objection (Crimes, Wrongs, or Other Acts)?
4. Whether counsel was ineffective for failing to bring a
Mooney7 violation claim against the Commonwealth?

4 Following a Grazier hearing, the PCRA court entered an order on February
1, 2017, granting Christine's motion to proceed pro se. Commonwealth v.
Grazier, 713 A.2d 81 (Pa. 1998).
5 We have reworded the issues for ease of discussion.
6 A Brady claim is cognizable on collateral appeal under the PCRA. See
Commonwealth v. Tedford, 960 A.2d 1, 30 n.19 (Pa. 2008); 42 Pa.C.S. §
9543(a)(2)(vi) ("The unavailability at the time of trial of exculpatory evidence
that has subsequently become available and would have changed the outcome
of the trial if it had been introduced.").
7 Mooney v. Holohan, 294 U.S. 103 (1935), prohibits the prosecution from
obtaining a conviction through deliberate deception. In Brady v. Maryland,
supra, the Supreme Court held that suppression by the prosecution of
evidence favorable to an accused violates due process where the evidence is

- 3 -

\\to

J-A29015-17
5. Whether trial counsel was ineffective for failing to request
a "castle doctrine"8 jury instruction and for failing to
correct jury instructions that indicated he had a duty to
retreat?
6. Whether trial counsel was ineffective for failing to submit
photographs of Christine's injuries to the jury?
"Our standard of review from the denial of post-conviction relief is
limited to examining whether the PCRA court's determination is supported by
the evidence of record and whether it is free of legal error." Commonwealth
v. Ousley, 21 A.3d 1238, 1242 (Pa. Super. 2011).

See

Commonwealth

v. Blakeney, 108 A.3d 739 (Pa. 2014).
Christine first argues that the prosecutor, Patricia Mulqueen, Esquire,
committed a Brady violation by making "a secret deal with [] witness [Dan
Rice] to change his testimony from exculpatory to inculpatory in exchange for
a sentence reduction [for Rice's bank robbery conviction where Mulqueen was
also the prosecutor, which was] hidden from the defense and jury.
Appellant's Brief, at 30; Rule 1925(b) Statement, 2/13/17, at 1.

exculpatory, "irrespective of the good faith or bad faith of the prosecution.
Id. at 87. The good faith, or lack thereof, by the prosecutor is immaterial
because the concern is not punishment of society for misdeeds of the
prosecutor, but avoidance of an unfair trial to the accused. Id., citing Mooney
supra. See Commonwealth v. Strong, 761 A.2d 1167, 1170 (Pa. 2000).
Further, the prosecutor's office is an entity and the knowledge of one member
of the office must be attributed to the office of the district attorney as an
entity. Commonwealth v. Hallowell, 383 A.2d 909, 911 (Pa. 1978).
8 See 18 Pa.C.S. § 505. The castle doctrine is a component of self-defense,
which recognizes that a person has no duty to retreat from his or her home
before using deadly force as a means of self-defense. See Commonwealth
v. Johnston, 263 A.2d 376 (Pa. 1970); Denise M. Drake, The Castle Doctrine:
An Expanding Right to Stand Your Ground, 39 St. Mary's LJ. 573, 584 (2008).
- 4 -

m

J-A29015-17

• f'

The PCRA court determined that Christine presented no evidence to
support his allegations of a "secret deal."

Christine relies on hearsay

statements in Rice's pro se PCRA petition and Rice's subsequent amended
petition filed by counsel on June 9, 2011, both of which are included in the
certified record on appeal.

Christine refers to that portion of Rices pro se

petition indicating that Investigator Christopher Naugle was present during
Rice's meeting with Attorney Mulqueen, at which the sentence reduction deal
was discussed. Investigator Naugle testified at Christine's PCRA hearing, at
which time he denied having been present during a meeting with Rice and the
prosecutor. See N.T. PCRA Hearing, 7/11/16, at 4-16. In fact, Investigator
Naugle stated that he did not recall meeting any witnesses with Attorney

Mulqueen. Id. at 16.
At his PCRA hearing, Christine sought to present the testimony of
Attorney Mulqueen. Attorney Mulqueen requested a brief recess and brought
in District Attorney John Morganelli.

When PCRA counsel called Attorney

Mulqueen, the District Attorney objected and directed Attorney Mulqueen not
to testify and to invoke her Fifth Amendment privilege. This, Christine argues,
evidences a Brady violation and necessitates an adverse inference.
First, we note that we are particularly troubled by Attorney Mulqueen's

decision to invoke the Fifth Amendment and DA Morganelli's advice that she
assert it. We recognize, however, that Christine, at his PCRA hearing, did not
present evidence to support his allegation of a deal between Rice and Attorney
Mulqueen that was kept from the jury in Christine's trial.
- 5 -

Rice, who was

in

i:

J-A29015-17

sentenced on his bank robbery case prior to Christine's trial, filed for PCRA
relief after Christine's trial, alleging that he had agreed to testify based on
Attorney Mulqueen's promise that she would "intervene on his behalf and
secure a reduced sentence with the Honorable Anthony Beltrami."

Rice's

Amended PCRA Petition, 7/9/11, at H 9. Rice also alleged, however, that his
trial counsel was ineffective in that he
affirmatively represented that [Rice] would receive the same
sentence as his co-defendant of 3 to 6 years. [Rice] relied upon
counsel's representation and was induced thereby to plead guilty.
Trial counsel [] should have informed [Rice] that the Court had
the discretion to impose a different or harsher sentence than that
qjven to the co-defendant. [Rice] did receive a harsher sentence
than the co-defendant who entered the bank and committed the
actual robbery. [Rice's] role was much more limited as the driver
of the getaway car. The imposition of the court's sentence of 4 to
8 years rendered petitioner's plea involuntary.
Id. at HH 12-14.
Our review

of the timeline and the testimony of Rice's PCRA counsel,

Attorney Michael Corcoran, who testified at Christine's PCRA hearing, indicate
that there is no support for Christine's allegation of a "secret deal" or that
Attorney Mulqueen
promises

misrepresented, at Christine's trial, the fact that no

were made for Rice's testimony. The relevant testimony follows.

At Christine's trial, Rice testified that he saw Christine and Misero
fighting, "[m]ore like a wrestling hold or whatever, but it was real brief, then
it was just broke up[.]" N.T. Trial, 10/6/10, at 17. He testified that he saw
Misero holding his

neck and blood "everywhere[,]" and that when he asked

Christine why he did this, Christine's response was "[Misero] owed him $20.
- 6 -

US

J-A29015-17

Id. at 18.

Notably, Rice testified that he could not be sure if Christine had

anything in his hand, but that Christine asked him, prior to Rice's meeting
with the investigator, if he could "say that you [saw Misero] come in to my
[a]nd asked if I could say that he had a cup of coffee or something

cell .

like that." Id, at 22.

He continued, "I actually agreed to it... I was actually

going to try to help him out.

" id. at 23.9 Attorney Mulqueen questioned Rice

further:
Q: And that wasn't the truth?
A‘ That wasn't even the truth. I mean he might have had a cup in
his hand, I don't know. The guy asked me if I could help him out
and be a witness, and I was like all right, I'll go down there and
see what the investigator has to say.
Q: So why are you testifying now to something different than what
you told the investigator?
A: Well, I like [Misero], you know what I mean, and for him to get
50, 60 stitches.
Q: Had any promises been made to you to get you to testify
here today by my office or by the Northampton County
Prison?
A: No.

^ Private Investigator John E. Stahr, Jr., who interviewed Rice on behalf ofThe
Public Defender's Office in the instant case, reported that Rice indicated that
Miser."ha. , cup
his to. and thathe»w to“f^/S fhey'we"
and that he saw a
fiqhting." Investigative Report - Dan Rice Interview, 4/12/10. Christine
appears to argue that this was exculpatory evidence, possibly because it
corroborated Christine's version of the events with respect to Misero coming
into his cell, holding a cup, and that at trial Rice's testimony differed, not
necessarily with respect to the cup, but to the issue of whether Christine had
asked Rice to tell the investigator that that is what he saw (i.e., Misero coming
into Christine's cell holding a cup).
- 7 -

m

J-A29015-17

Q: In fact, you don't wish to be here today, do you?
A: No, I don't even care for you. I mean you sent me to prison
for 8 years.
Id. at 23-24 (emphasis added).
More than one year after Christine's trial, Rice filed his aforementioned
pro se

PCRA petition and his counseled, amended petition, alleging that there

was a deal between Attorney Mulqueen and himself in exchange for his
testimony. Christine points to the allegations in Rice's petitions, and claims
they suggest Attorney Mulqueen misrepresented on the record the fact that
she had not reached a deal with Rice, as explained by the PCRA court in this
matter, "that in open court during Mr. Christine's trial she represented [that]
did

not exist, which

does suggest that she committed

perjury

and

misrepresented a material fact in the trial. So it's a very serious allegation,
and I understand that" N.T. PCRA Hearing, 5/11/16, at 14. See N.T. Trial,
supra at 23-24.

The PCRA court determined that Christine offered no

evidence at his PCRA hearing to support this claim and, after our review, we
are constrained to agree.
Christine, without making a record or establishing predicate testimony
through Rice, sought to cross-examine Attorney Mulqueen. The PCRA court,
noting that the burden of proof to prosecute a PCRA petition is on the
petitioner, stated that "if the only proof you have is to call the assistant district
attorney as of cross, you have no proof." N.T. PCRA Hearing, 5/11/16, at 18.
Defense counsel sought to admit Rice's PCRA petition as evidence at

- 8 -

US

J-A29015-17

Christine's PCRA hearing. The PCRA court, pointing out that this was hearsay,
continued the matter for two months to allow Christine to obtain witnesses, in
particular, Rice. Id. at 17.
Two months later, at his continued PCRA hearing, Christine failed to
present Rice to testify as to the allegations in his PCRA petition with respect
to a deal with Attorney Mulqueen.10 As stated above, Investigator Naugle
testified, although his testimony did not support Christine's allegations.
Christine also called Attorney Corcoran to testify. As noted above, Attorney
Corcoran, a former public defender, had represented Rice on his PCRA petition
with respect to his bank robbery conviction, in which Rice had driven the
getaway car. Rice's PCRA petition alleged that when he entered his guilty plea
to that crime, he was under the impression he would receive the same
sentence as his co-defendant, who received 3 to 6 years, while Rice was
sentenced to 4 to 8 years.

Attorney Corcoran also testified that "[i]n his

petition, [Rice] also claimed that he was entitled to reconsideration of his
sentence

because he had

helped the Commonwealth out in

.

.

.

Commonwealth versus Christine." N.T. PCRA Hearing, 7/11/16, at 62.
The court acknowledged that Rice believed that there was a sentence
bargain when he filed his PCRA claim, but "his belief is all hearsay and he's

10 At the hearing, Christine presented Barry Golezeski, who testified that he
was hired by Christine's family to locate Rice. He stated that, after ten to
twelve hours of investigative work, he was unable to locate Rice. N.T. PCRA
Hearing, 7/11/16, at 82-84. Rice's PCRA petitions are included in the certified
record in this case; however, they remain allegations and not proof of
Christine's claims.
-9 -

\\b

J-A29015-17

not present to testify about it." Id. at 71.

Attorney Corcoran's testimony

sheds some light on this:
Q: Mr. Corcoran, what was the eventual outcome of [Rice's]
PCRA?
A: In September of 2011, Ms. Mulqueen and I appeared before
Judge Beltrami and the relief sought at that point was to get him
the benefit of what he perceived to be a bargain, and there was a
3 to 6 year sentence.
THE COURT: That was the understanding. That's exactly
what you said, 3 to 6. He wanted a 3 to 6 year sentence because
he believed he was due the same sentence as his co-defendant
who actually went into the bank and robbed them.
MR. CORCORAN: That was part of it, yes.
THE COURT: Okay. And he got that at the PCRA hearing?
MR. CORCORAN: He did, Your Honor.
THE COURT: And he was satisfied.
MR. CORCORAN: Yes, he wanted it to run concurrent, but
Judge Beltrami did not entertain that request, but he was
otherwise satisfied with the sentence reduction.
Q: And did Ms. Mulqueen tell you why she was trying to do this
sentence reduction?
A: I remember approaching her about it after 1 was
assigned the matter, and basically outlined her some of the
representations in his PCRA, and asked whether she would
be amenable to the sentence reduction. And she indicated
that his testimony was helpful in the matter of
Commonwealth versus Christine, and that she would work
with me to achieve the sentence reduction.
Q: Did she admit or deny that there was a deal between her
and Dan Rice?
A: That I don't recall.

- 10 -

m

J-A29015-17

Id. at 72-73, 77-78 (emphasis added). Again, without more, we are unable
to find that this establishes a prior, secret deal between Rice and Attorney
Mulqueen that Attorney Mulqueen misrepresented at Christine's trial.
At the conclusion of the hearing, the court reviewed Rice's guilty plea
colloquy on the record, stating:
And on Page 4, it says: "I've also been told that there is a plea as
to the sentence in this case. And the sentence that has been
negotiated by the Commonwealth and your attorney is 4 to 8
years, is that our understanding of what the sentence is in this
case?" Defendant. "Yes." Then the Court said: "Also, now I
understand there's going to be a negotiation that there will be no
charges against your girlfriend arising in any alleged conduct in
relation to your alibi defense?" Defendant: "Yes.
Is that your
understanding and part of your belief also? "Yes.
Are there
any other promises?" Defendant said no. Thats on Page 5.
Then on Page 20 Judge Beltrami opposed the sentence. Mr. Rice
said: "I'm just asking you to take into consideration to make it
concurrent." I mean to apologize for my behavior. I have 2 years
in prison already. I'm going to serve another 4. I'm just trying
to" - and he asks for the 4 to 8 year sentence to run concurrent
to what he's serving. Judge Beltrami said no.
If your theory is that at the time that Mr. Rice had some
negotiated favorable sentence from Ms. Mulqueen, you
would think that it would be there in the record
somewhere.... So your theory is because Mr. Rice believed
that he should get sympathy also after he had been
sentenced because he testified in a different trial, and later
Ms. Mulqueen relented and agreed that she would have no
opposition to a lesser sentence for him, that that is an
indication that the presentation Ms. Mulqueen made at trial
with the negotiated plea with regard to his sentence is
somehow false?

- 11 -

J-A29015-17

Id.

at 93-94 (emphasis added). Christine's PCRA counsel responded that that

was an indication that the jury was "not given the whole story." Id. at 94.
We disagree.
The fact that Rice alleged in his petition that there was a deal, and the
fact that Rice ultimately received his requested PCRA relief, does not prove
Christine's allegation. The PCRA court reviewed Rice's PCRA filings, Rice's plea
colloquy, and Rice's PCRA counsel's testimony,

The PCRA court concluded

that all that was established was that Rice alleged a prior deal and that
Attorney Mulqueen did not oppose Rice's request for a reduced sentence when
she was approached, after Christine's trial, by Attorney Corcoran. There was
no proof that Attorney Mulqueen misrepresented, at Christine's trial, the fact
that no promises were made to Rice prior to Christine s trial.
We conclude, therefore, that the record supports the PCRA court's
finding that Christine, who had the burden of proof, "presented no competent
or credible evidence in support of his bald theory that the ADA lied during the
trial." PCRA Court Opinion, 12/30/16, at 8. See Blakeney, supra (we review
ruling by PCRA court to determine whether it is supported by record and free
of legal error); Ousely, supra; see also Commonwealth v. Chmiel, 30
A.3d 1111, 1131 (Pa. 2011) (mere conjecture as to agreement between
prosecution and witness is not sufficient to establish Brady violation); PCRA
Court Opinion, supra at 4-8 (no testimony proffered at Christine s PCRA
hearing that suggested anything improper or nefarious occurred during trial).

- 12 -

11*

J-A29015-17

ineffective for failing to
Next, Christine argues that trial counsel was
seek dismissal under Rule 600. Christine claims the trial court violated Rule
600 because he was

not brought to trial until October 5, 2001, 448 days after

the July 14, 2009 filing of the information . See Pa.R.Crim.P. 600.
Our standard of review when faced with a claim of ineffective
assistance of counsel is well settled. First, we note that counsel
is presumed to be effective and the burden of demonstrating
ineffectiveness rests on appellant. In order to prevail on a claim
of ineffective assistance of counsel, a petitioner must show, by a
preponderance of the evidence, ineffective assistance of counsel
which, in the circumstances of the particular case, so undermined
the truth-determining that no reliable adjudication of guilt or
innocence could have taken place. A petitioner must show (1)
that the underlying claim has merit; (2) counsel had no
reasonable strategic basis for his or her action or inaction; and (d)
but for the errors or omissions of counsel, there is a reasonable
probability that the outcome of the proceedings would have been
different. The failure to prove any one of the three prongs results
in the failure of petitioner's claim.
' Commonwealth v. Rivera, 10 A.3d 1276, 1279 (Pa. Super. 2010) (internal
citations omitted). See also Commonwealth v. Natividad, 938 A.2d 310,
321 (Pa. 2007); Commonwealth v. Andrews, 158 A.3d 1260, 1263 (Pa.
Super. 2017).
Rule 600 provides, in relevant part, as follows:
Rule 600. Prompt Trial.

- 13 -

J-A29015-17
(A)(3) Trial in a court case in which a written complaint is filed
against the defendant, when the defendant is at liberty on bail,
shall commence no later than 365 days from the date on which
the complaint is filed.

determining the period for commencement of trial, there
(C) In
shall be excluded therefrom:

(2) any period of time for which the defendant expressly
waives Rule 600;
(3) such period of delay at any stage of the proceedings as
results from:
(a) the unavailability of the defendant or the defendant's
attorney;
(b) any continuance granted at the request of the
defendant or the defendant's attorney.

(G) If the court, upon hearing, shall determine that the
Commonwealth
exercised due diligence and
that the
circumstances occasioning the postponement were beyond the
control of the Commonwealth, the motion to dismiss shall be
denied and the case shall be listed for trial on a date certain. . . .
If at any time, it is determined that the Commonwealth did not
exercise due diligence, the court shall dismiss the charges and
dismiss the defendant.
Pa.R.Crim.P. 600

Pursuant to Rules 600(A) and (C), the mechanical and

adjusted run dates are calculated as follows:

arrested on the new charges forming the basis of the rule 600 claim, and is
therefore, technically, at liberty on those new charges.").

- 14 -

J-A29015-17
The mechanical run date is the date by which the trial must
commence under Rule 600. It is calculated by adding 365 days
(the time for commencing trial under Rule 600) to the date on
which the criminal complaint is filed. [T]he mechanical run date
can be modified or extended by adding to the date any periods of
time in which delay is caused by the defendant. Once the
mechanical run date is modified accordingly, it then becomes an
adjusted run date. If the defendant's trial commences prior to the
adjusted run date, we need go no further.
If however, the defendant's trial takes place outside of the
adjusted run date, we must determine, pursuant to Rule 600(G),
whether the delay occurred despite the Commonwealths due
diligence. To this end, we have fashioned the "excusable delay
doctrine. Excusable delay is a legal construct that takes into
account delays which occur as a result of circumstances beyond
the Commonwealth's control and despite its due diligence. Our
Supreme Court has made dear that the Commonwealth must do
everything reasonable within its power to guarantee that a trial
begins on time. Moreover, the Commonwealth bears the burden
of proving that its efforts were reasonable and diligent.
Due diligence is a fact-specific concept that must be determined
on a case-by-case basis. Due diligence does not require Perf^ct
vigilance and punctilious care, but rather a showing by the
Commonwealth that a reasonable effort has been put forth. Due
diligence includes, among other things, listing a case for trial prior
to the run date, preparedness for trial within the run date, and
keeping adequate records to ensure compliance with Rule 600.
A period of delay that is excusable pursuant to Rule 600(G) results
in an extension to the adjusted run date.
Commonwealth v. Ramos, 936 A.2d 1097, 1102-03 (Pa. Super. 2007) (en
banc) (internal citations, quotation marks, and brackets omitted).
Here, the mechanical run-date is July 14, 2010. Christine was not tried
until October 5, 2010, 82 days beyond the run-date,

The court, however,

found 122 days of excludable or excusable delay: outstanding defense pretrial
motions, agreed-upon continuances, and preliminary hearing delay, none of

- 15 -

»ZZ-

&

J-A29015-17

which amounted to a lack of due diligence on the part of the Commonwealth.
Based on our review of the docket, we agree with the court's calculation and
its finding that there was no
11-15.

Rule 600 violation. See PCRA Opinion, supra at

Trial counsel, therefore, was

not ineffective for failing to raise this

claim. Rivera.
In his third issue, Christine claims trial counsel was ineffective for failing
to raise a Pa.R.E.

404(b)12 objection with respect to admission of the shank

at trial. This issue has been previously litigated.
To be eligible for PCRA relief, one must plead and prove that an issue
has not been previously litigated. 42 Pa.C.S. § 9543(a)(3). An issue has been
previously litigated where the highest appellate court in which review was
available as of right has ruled on the merits of the issue. 42 Pa.C.S. §

12 Rule 404(b) provides:
(b) Crimes, Wrongs, or Other Acts.
(1) Prohibited Uses. Evidence of a crime, wrong, or other act is
not admissible to prove a person's character in order to show that
on a particular occasion the person acted in accordance with the
character
(2) Permitted Uses. The evidence may be admissible for another
purpose, such as proving motive, opportunity, intent, preparation,
plan, knowledge, identity, absence of mistake, or lack of accident.
In a criminal case this evidence is admissible only if the probative
value of the evidence outweighs its potential for unfair prejudice.
Pa r E 404(b). We note that Rule 404(b)(2)'s list of permissible uses is not
intended to be exhaustive. "[T]he range of relevancy outside the Rule s ban
on propensity is almost infinite." Ohlbaum on Pennsylvania Evidence {2016
edition), at § 404.24, citing Commonwealth v. Claypool, 495 A.2d 176 (Pa.

1985).
- 16 -

12*

J-A29015-17

9544(a)(2). It is

evident from a reading of the Pennsylvania Supreme Court's

October 27, 2015 opinion, that this issue was previously litigated within the
meaning of the PCRA.
Christine filed a motion in limine to exclude the shank from evidence,
arguing it was

irrelevant and would cause undue prejudice by confusing the

jury. See N.T. Trial, 10/5/10, at 13. The Commonwealth conceded that the
shank was not the instrument used in the attack. Id. The trial court ruled
the

shank admissible under the similar-weapon exception because it showed

Christine had "access to a weapon and that he had the ability to fashion a
homemade weapon from objects in the prison." Trial Court Opinion, 4/26/11,
at 6-7. Additionally, the court found the shank was relevant because it
"tend[ed] to show [Christine] had knowledge and familiarity with prison -made
weapons and could conceal them in his prison ce!l[.]" Id. at 8. The court
found the evidence "relevant and that the probative value outweighed the
prejudicial [effect]." Id.
As noted above, on direct appeal an equally divided en banc panel
affirmed the trial court on the issue of the admissibility of the shank. The
Supreme Court granted allowance of appeal to determine whether the trial
court erred or abused its discretion when it permitted the Commonwealth to
admit the shank. Although the Supreme Court determined that the shank was
not admissible under the "similar-weapon exception," it ultimately found that
the trial court acted within its discretion in admitting the shank to demonstrate
defendant's ability to fashion a homemade weapon. The Court stated: "[T]he

- 17 -

IZ*\

J-A29015-17

Commonwealth laid a foundation of the similarity between the handles on the
shank and razorblade, which, as admittedly generic that may be, the trial
court found demonstrated [Christine's] familiarity with and ability to fashion
jailhouse weapons

, which one cannot say is irrelevant." Christine, 125 A.3d

at 401. The Court concluded that "the trial court did not abuse its discretion
or commit reversible error by admitting relevant evidence," and stated that
our Court's en banc opinion in support of affirmance properly determined that
"the

shank was relevant under alternative theories of admissibility." Id.
Christine attempts to evade the previously litigated obstacle, claiming

trial counsel was ineffective because Justice Saylor's dissent in the Supreme
Court decision stated that had a Rule 404(b) objection been made, Christine
would have had the benefit of a more "discerning evaluation of probative value
versus

prejudice[.]w Id. at 408. This claim is unavailing. The requirement

that a claim

for PCRA relief not be previously litigated would be rendered a

nullity if this Court could be compelled to revisit every issue decided on direct
appeal upon assertion that a dissenting view be applied.
Next, Christine claims counsel was ineffective for failing to bring a
Mooney violation claim against the Commonwealth.

This claim is waived.

Christine did not raise this issue in his PCRA petition, 42 Pa.C.S. § 9543(a)(3),
9544(b), and, furthermore, the argument on this issue is undeveloped and
unintelligible.

See Appellant's Brief, 60-63. See also Commonwealth v.

Tedford, 960 A.2d at 12-13 (claim that has been waived is not cognizable

- 18 -

W5

J-A29015-17

under the PCRA); Commonwealth v. Clayton, 816 A.2d 217, 219-20 (Pa.
2002) (issue waived if not raised in PCRA petition).
In his fifth issue, Christine claims trial counsel was ineffective for failing
to request a "castle doctrine" jury instruction, 18 Pa.C.S. § 505, and failing to
submit photographs of his injuries to the jury. We note, first, that section 505
was amended on August 27, 2011; this amendment, which expanded the
definition of "castle" to include one's dwelling, residence, occupied vehicle or
place of work, was not in effect at the time of Christine's trial. Moreover, there
is no precedent for extending this doctrine to a prison cell. In any event, we
conclude that the PCRA court properly disposed of this issue in its opinion. We
rely on that disposition to resolve this claim.

See PCRA Court Opinion,

12/30/16, at 15-17.
In his final claim, Christine argues that trial counsel was ineffective for
failing to present to the jury five black and white photographs of Christine s
injuries.13 Christine argues these photographs show defensive wounds that
he suffered as a result of the victim's attack. Appellant's Brief, at 67. Christine

13 Christine presents a layered ineffectiveness claim, stating PCRA counsel was
ineffective for failing to raise trial counsel's ineffectiveness. Appellant's Brief,
at 67. This explains why the PCRA court did not address the issue in its
opinion. Christine did, however, present this claim in his Rule 1925(b)
statement, but the PCRA court relied on its opinion denying PCRA relief to
dispose of Christine's claim. See Pa.R.A.P. 1925(a) Statement ("Having
received a new fling - Notice of Appeal - dated January 19, 2017, and filed
January 25, 2017, we once again reaffirm that the support for our Order can
be found in our Order denying PCRA relief filed on December 30, 2016. ).
- 19 -

\Zb

J-A29015-17

i_________

acknowledges that "the injuries are minor," but argues that they corroborate
the fact that he was defending himself. Id.
We agree with the Commonwealth's assessment that these photographs
are fairly indecipherable. See Appellant's Exhibits and Appendices, Exhibit A.
Moreover, Christine has failed to establish that counsel did not have a tactical
reason for not presenting the pictures, not only because they are unclear, but
because they would contrast significantly with the victim's life-threatening

injuries.

Rivera, supra (counsel is presumed effective and burden to

establish otherwise is on appellant).

Further, we are not convinced that

Christine was prejudiced by counsel's failure to present the photographs as
both parties acknowledged that there was a physical altercation,

The

photographs would have been of dubious value. Christine has not established
that there is a reasonable probability that, but for counsel's failure to present
the photographs, the outcome of the proceeding would have been different.
Commonweaith v. Cox, 863 A.2d 536, 546 (Pa.2004).
therefore, that this claim is meritless.

We conclude,

See Rivera, supra', see also

Commonwealth v. Paddy, 15 A.3d 431, 443 (Pa. 2011) (if petitioner cannot
prove underlying claim of trial counsel ineffectiveness, petitioner's derivative
claim of appellate counsel ineffectiveness fails).
We, therefore, affirm the PCRA court's order denying relief, and we
direct the parties to attach a copy of the Honorable Stephen G. Baratta's
opinion in the event of further proceedings.
Order affirmed.
- 20 -

tZ.7

J-A29015-17

Judgment Entered.

\/P..7

Joseph D. Seletyn, Es^
Prothonotary

Date: 1/3/2018

- 21 -

\Zt

APPENDIX J
Northampton County Court of Camion Pleas, Case # 3344-cr-2009
12/30/16 Order Denying First PCRA

r

J

L:r.-- -

i

f

\

IN THE COURT OF COMMON PLEAS OF NORTHAMPTON COUNTY, PENNSYLVANIA
CRIMINAL DIVISION

COMMONWEALTH OF PENNSYLVANIA
V.

JACOB CHRISTINE,
Defendant.

)

NO.

)
)
)
)
)
)

3344-2009
es!.- ju

i J1

-3?~
i

i

ORDER OF COURT
AND NOW,

.“--3
C.'VJ

O
Hi

i

<•••>

o

CD

~ri:

!

"j-

‘

£

CO

•T
'f-

r.r, •

CO
C/i

day of December 2016, it is hereby ORDERED that Defendant s

Petition for Post Conviction Relief (PCRA) is DENIED.
STATEMENT OF REASONS
Facts and Procedural History
Defendant, Jacob Christine, was convicted of Aggravated Assault and Recklessly
Endangering Another Person by a jury on October 7,2010. However, the jury found Defendant
not guilty of Attempted Criminal Homicide. Defendant was sentenced on November 24, 2010,
to 108-240 months incarceration on the Aggravated Assault count and 1-2 years incarceration on
the Recklessly Endangering Another Person count. The Aggravated Assault sentence runs
consecutively to Defendant’s Lehigh County sentence and the Recklessly Endangering sentence
runs concurrently with the Aggravated Assault sentence.
The convictions resulted from an incident that occurred in Northampton County Prison
(NCP) on June 8, 2009. On that date, the Defendant and the victim, Thomas Misero, were
inmates in NCP when a confrontation between the two men occurred in the Defendant’s cell in
UnitB-2. The cell housed 8 inmates in four rows of bunk beds. While in the Defendant’s cell,

\To

si
V

the Defendant was alleged to have slashed Mr. Misero’s neck and ear with a razor blade.
Immediately after the attack, corrections officers searched the Defendant’s cell. Only one
weapon, a shank, was found in the cell. It was hidden within the Defendant5 s bed.
Interestingly, the Defendant testified at trial that the victim came into his cell armed with
a razor blade and attacked the Defendant. The Defendant claimed that he successfully disarmed
the victim, picked up the razor from die floor and then unintentionally sliced the victim when the
victim continued to threaten the Defendant. Even though the Defendant was the last person to
t

have control of the weapon, it has never been located. We also note that there were no injuries
i

suffered by the Defendant.
The Defendant was convicted after a jury trial on October 7, 2010, of Aggravated Assault
and Recklessly Endangering Another Person. Apparently, the jury rejected the Defendant’s claim
of self-defense.

1

The Defendant pursued post-sentence motions and an appeal through the appellate courts.
The Pennsylvania Supreme Court issued an Order affirming the Defendant’s conviction on
January 27, 2016.
Defendant’s First PCRA was filed on February 22,2016. Several conferences and
hearings were scheduled. The final PCRA hearing was held July 11,2016.
Thereafter the Defendant and the Commonwealth filed Briefs.
The Defendant’s PCRA claims can be summarized as (1) prosecutorial misconduct for
failing to disclose a sentencing agreement with an eyewitness to the alleged assault;
(2) ineffective assistance of counsel for failing to raise a 404(b) objection; (3) ineffective
assistance of counsel for failing to pursue a claim for violation of Pennsylvania Rule of Criminal
2

isi

C—
Procedure 600; (4) ineffective assistance of counsel for failing to pursue a jury charge for “the
castle defense;” and (5) ineffective assistance of counsel for failing to raise an objection to an
alleged defective jury charge.

Legal Standard
Counsel is presumed to be effective; the burden of proving otherwise rests with the
petitioner. See Commonwealth v. Cox. 983 A.2d 666, 678 (Pa. 2009). Generally, “where
matters of strategy and tactics are concerned, counsel’s assistance is deemed constitutionally
effective if he chose a particular course that had some reasonable basis designed to effectuate his
client’s interest.” Commonwealth v. Puksar, 951 A.2d 267, 277 (Pa. 2008). Further,
“[cjounsel’s performance is presumed constitutionally adequate, and will be deemed ineffective
only upon a petitioner’s three-pronged showing that counsel’s ineffectiveness was such that, ‘in
the circumstances of the particular case, [it] so undermined the truth-determining process that no
reliable adjudication of guilt or innocence could have taken place.” Commonwealth v. Dennis,
950 A.2d 945, 954 (Pa. 2008) (quoting Commonwealth v. Rios, 920 A.2d 790, 799 (Pa. 2007)).
In order for a petitioner to prevail on his claims of ineffective assistance of counsel, the
petitioner must plead and prove, by the preponderance of the evidence, three elements: “(1) the
underlying legal claim has arguable merit; (2) counsel had no reasonable basis for his or her
action or inaction; and (3) [the petitioner] suffered prejudice because of counsel’s action or
inaction” Commonwealthv. Hutchison. 25 A.3d 277,285 (Pa. 2011) (citing Commonwealths
pjerce< 527 A.2d 973 (Pa. 1987)). The failure of a petitioner to satisfy any of the prongs set
forth above requires a rejection of the ineffectiveness claim. See Dennis, 950 A.2d at 954.
3

\Vl

Under the first prong, if a claim lacks merit, the court’s inquiry ceases, as counsel will not
be deemed ineffective for failing to pursue a baseless or meritless issue. See Commonwealth v.
Johnson, 588 A.2d 1303, 1305 (Pa. 1991). In order to prove the second prong of this test (“the
Pierce standard”), the “reasonable basis” prong, a petitioner must prove that “an alternative not
i

chosen offered a potential for success Substantially greater than the course actually pursued.”
Hutchison, 25 A.3d at 285 (citing Commonwealth v. Williams, 899 A.2d 1060,1064 (Pa. 2006).
In order to establish the third prong of the test, a petitioner must prove ‘‘that there is a reasonable
i

probability that the outcome of the prdceedings would have been different but for counsel’s
action or inaction.” Id
The petitioner’s abstract allegations of ineffectiveness will not be considered. See
Commonwealth v. DeHart 650 A.2d 3 8, 43 (Pa. 1994). Instead, “a petitioner must allege actual
prejudice and be able to identify a specific factual predicate that demonstrates how a different
course of action by prior counsel would have better served his interest.” Id. Further, “an
evaluation of counsel’s performance is highly deferential, and the reasonableness of counsel’s
decision cannot be based upon the distorting effects of hindsight.” Commonwealth _w_
Basemore. 744 A.2d 717, 735 (Pa. 2000).
Discussion
1.

Prosecutorial Misconduct

Mr. Christine alleges that at trial, the Assistant District Attorney (hereinafter, ADA)
misrepresented or lied to the jury when she stated that she had provided no special favor to a
witness, Daniel Rice, in return for Rice’s favorable testimony. Specifically, Mr. Christine
argues that ADA Mulqueen offered Daniel Rice sentencing relief that she denied or failed to
4

133

rr;

disclose during the trial.
Mr. Christine proffered no evidence whatsoever to support this claim.
i

The record established that at ihe time that Daniel Rice testified, he had already pled
guilty for participation in an unrelated! charge - a bank robbery in which Mr. Rice was the alleged
i

lookout. When Mr. Rice appeared for sentencing before the Honorable Anthony Beltrami on
September 15, 2010, Judge Beltrami accepted a negotiated sentence bargain in which Mr. Rice
agreed to a 4 to 8 year sentence in return for immunity for his girlfriend for any involvement she
may have had with his criminal matter. Judge Beltrami provided Mr. Rice with the sentence
bargain on September 15, 2010. At sentencing, Mr. Rice acknowledged that he received the
benefit of his negotiated bargain. It should also be noted that Rice’s co-defendant, the actual
bank robber, received a 3 to 6 year state sentence.
Thereafter, Mr. Rice agreed to, testify at Mr. Christine’s October 2010 trial on behalf of
the Commonwealth. Apparently, Mr. Rice was a witness to the prison assault perpetrated by
Mr. Christine. During the trial, Mr. Rice indicated that he spoke with ADA Mulqueen and was
hoping for consideration in return for his testimony. However, Mr. Rice also testified that he
had not been offered and/or promisedianything in return for his testimony.
Thereafter, Mr. Rice filed a PCRA on April 8, 2011, in which he raised three complaints
(1) he got a 4 to 8 year sentence when he thought that his sentence bargain should have been 3 to
i

6 years; (2) ADA Mulqueen promised him a sentence reduction in return for his testimony in the
;

[Christine] trial, but he received no reduction; and (3) Mr. Rice sought the opportunity to have
his sentence reconsidered. Mr. Rice’s PCRA counsel was Michael Corcoran, Esq.
Mr. Christine called Mr. Corcoran as a witness at this PCRA hearing. Mr. Corcoran
5

»3H

testified that after he was appointed to represent Daniel Rice, he approached ADA Mulqueen
with the proposal that Mr. Rice receive PCRA relief in the form of a new sentence of 3 to 6 years
(which was the same sentence that his co-defendant received). ADA Mulqueen apparently
agreed to Mr. Corcoran’s proposal. Counsel presented the agreement to Judge Beltrami, who
accepted the resolution at the PCRA proceeding held on September 30,2011.

In return for the

reduction, Mr. Rice withdrew all PCRA claims.
There was absolutely no testimony proffered at Mr. Christine’s PCRA hearing which
suggested that anything improper or nefarious occurred during the Christine trial. In fact, the
various inter-related records corroborate the testimony presented during the Christine trial, and
the representations made by ADA Mulqueen - that nothing had been offered to Rice in exchange
for his testimony.
Interestingly, at the initial PCRA hearing, Mr. Christine’s PCRA counsel proffered that
ADA Mulqueen lied on the record and also suborned peijury on the record,

However, PCRA

counsel had no evidence and represented the same. Still, PCRA counsel wanted to call ADA
Mulqueen as a witness at Mr. Christine’s PCRA hearing.
ADA Mulqueen was rightfully incensed at the bald accusations, She asked for a brief
recess in order to get another DA to come into the Courtroom if she was going to be a witness.
She returned shortly with the District Attorney, John Morganelli. When PCRA counsel sought
to call ADA Mulqueen, Mr. Morganelli objected, indicated that he directed ADA Mulqueen not
to testify and to take the Fifth Amendment. ADA Mulqueen also indicated that she was
invoking her right under the Fifth Amendment not to testify. As a result, we did not require
ADA Mulqueen to testify.
6

1*5

Undeterred and without any legal authority, PCRA counsel requested that we. draw an
inference that ADA Mulqueen actually committed crimes by falsely presenting assertions that she
had not promised specific benefits to Daniel Rice and that she suborned perjury by having Mr.
Rice testify falsely that he had not been promised anything in return for his testimony.
We refuse to do so. Frankly, we found the actions of PCRA counsel to be offensive,
unsupported by any factual record, and lacking any logic or reasonableness as far as legal
strategy.
The Fifth Amendment right against self-incrimination, as applied to the states via the due
process clause of the Fourteenth Amendment, precludes the trier of facts from drawing a negative
inference from a Defendant’s failure to take the stand in his own defense or for exercising his
Constitutional privilege against self-incrimination.

Griffin v. California. 380 U.S. 609, 85

S.CT. 1229,14 L.Ed. 2d 106 (1965). ;
In this matter, Ms. Mulqueen was not a Defendant facing criminal prosecution; however,
we also note that the bald accusations by Defense Counsel accuse the ADA of felony perjury
charges. It is a rather hybrid situation, but we have chosen to evaluate this claim under the body
of law applied in civil proceedings. Pennsylvania has allowed an adverse inference to be drawn
against a party who invokes the privilege against self-incrimination in civil proceedings, such as
workers compensation cases. See Fromnovicz v. W.C.A. B. (Palsgroye), 642 A.2d 638
(Pa,Cmmlth. 1994). However, Fromoovicz indicates that the inference is permissive, rather than
mandatory, by the Court’s use of the work “may”. See Id at 641. Thus, it is a discretionary
determination by the Court. However, secondly and more importantly, when a negative
inference is drawn in civil matters from a parties’ invocation of the Fifth Amendment pnvilege,

7

13b

m:the inference itself does not constitute substantial, competent evidence to support any finding of
fact. See Harmon v. Mifflin County School District 713 A.2d 620 (Pa. 1998); Petronev^
Unemployment Compensation Board of Review, 557 A.2d 1118 (Pa.Commwlth. 1989). Rather,
the Commonwealth Court has held that the negative inference can only go the credibility of
evidence introduced by the party with the burden of proof. See Harring v. Unemployment.
Compensation Board of Review. 452 A.2d 914 (Pa. Commwlth. 1982).

In other words, in this

matter, Mr. Christine had the burden of proof. He presented no competent or credible evidence
in support of his bald theory that the ADA lied during the trial. He had the opportunity to call
witnesses in support of this theory and: was unable to present any evidence of improper activity.
As a result, Defense Counsel wished to engage in a fishing expedition in an effort to embarrass
the ADA by accusing the ADA of lying and committing pequry without one scintilla of evidence.
The claim related to prosecutorial misconduct for the failure to disclose evidence related
to the alleged agreement that witness Rice would receive a sentence reduction is analyzed under
the standard of Bradv v. Maryland. 373 U.S. 83 (1963), which requires that the Court find that
under the circumstances of the case, the failure to disclose the evidence undermined the truth
determining process which entitles the. Defendant to obtain Post-Conviction Relief in the form of
a new trial.
This first PCRA claim fails because Mr. Christine and PCRA Counsel had no evidence
whatsoever to support the theory absent counsel’s bald insult, accusing the ADA of committing a
felony by lying on the record and suborning pequry of a witness called during the trial.

8

-L

2.

Trial Counsel failed to raise PA. Rule of Evidence 404(b) Objection

This is a rather interesting legal argument regarding the admission of a shank. After the
assault in which Mr. Christine was charged with slashing the victim’s neck with a cutting
instrument, the correction officers searched his cell in an attempt to locate the weapon or
instrument used to cut the victim’s nebk. During the search of Mr. Christine’s cell, the
correction officers found a “shank-like” weapon in his mattress. However, the consensus was
that the weapon found in Mr. Christine’s mattress was not the weapon used to injure the victim.
i

Ultimately, the correction officers were unable to find the weapon used by Christine to slice the
victim’s neck.
At trial, the Commonwealth sought to introduce the shank located during the search, to
demonstrate the Defendant’s access to weapons and/or ability to fashion weapons.
Trial counsel objected, arguing that the knife was irrelevant and if relevant, that the
probative value did not outweigh the prejudicial value. We overruled the objection and
permitted the shank to be introduced as its introduction was probative to the fact that the
Defendant did have access to the type; of weapon that was used in this attack.
Our evidentiary ruling was affirmed by the Supreme Court as the Supreme Court found
that the appellant could not show that-we had abused our discretion in admitting the Defendant’s
shank. See Commonwealth v. Christine. 125 A.3d 394 (Pa. 2015).
Interestingly, there was a dissent authored by then Justice Saylor which discussed the
availability of a 404(b) objection to trial counsel and noted that it was not raised of record. No
other Justice joined Judge Saylor’s dissent. While Justice Saylor discussed the nature of a
404(b) objection, he noted that should a 404(b) objection been raised, the appellant “would have
9

\zt

been entitled to a more discerning evaluation of probative value versus prejudice”. Id. at 404 405
It is important to note that Justice Saylor did not issue a final conclusion on the
admissibility of the shank, noting: “As to the admissibility of the shank found in appellant’s
cell, I would forego addressing the issue, because I do not believe that the salient questions have
been framed and presented adequately.” Id.
The claim that trial counsel was ineffective for failing to properly object to the admission
of the shank fails because Trial counsel did object to the admission of the shank and argued
vociferously that it was not relevant and further that the probative value did not outweigh the
prejudicial value. Even though trial counsel did not specifically reference 404(b) as the basis for
the objection, counsel and the court did discuss the very specific and discerning evaluation of
probative value versus prejudicial. Thus, proper facts and analysis were raised by trial counsel
and discussed by the Court prior to the admission of the shank. The record was reviewed by the
Supreme Court and the majority of the Court, absent Justice Saylor, agreed that the shank was
properly admissible. Therefore, this claim has been previously litigated and finally resolved.
Mr. Christine wants another bite at the apple to rehash the same argument of probative versus
prejudicial in his PCRA. The Supreme Court’s opinion closed the door in this matter. Further,
we find that even if the Supreme Court’s opinion is not the last word, that trial counsel ably
argued the appropriate evidentiary standard in support of her objections. Therefore, there can be
no finding of ineffectiveness.

10

\v\

y~-

3.

Rule 600 claim

Pennsylvania Rule of Criminal procedure 600 provides in pertinent part:
|

(A) Commencement of Trial; Time for Trial
(1) For the purpose of this rule; trial shall be deemed to commence on the date the
trial judge calls the case to trial, or the defendant tenders a plea of guilty or nolo
contendere.
(2) Trial shall commence within the following time periods.
(a) Trial in a court case in which a written complaint is filed against the defendant
shall commence within 365 days from the date on which the complaint is filed.
(D) Remedies
i
(1) When a defendant has not been brought to trial within the time periods set
forth in paragraph (A), at any time before trial, the defendant's attorney, or the
defendant if unrepresented, may file a written motion requesting that the charges
be dismissed with prejudice on the ground that this rule has been violated.
The Supreme Court provides a! detailed analysis of Pa.R.Cr.P. 600 in Commonwealth v._
i

Bradford, 46 A.3d 693 (Pa. 2012):
To protect the defendant's speedy trial rights, Rule 600 ultimately provides
for the dismissal of charges if the Commonwealth fails to bring the defendant to
trial within 365 days of the filing of the complaint (the “ mechanical run date”),
subject to certain exclusions for delays attributable to the defendant. Pa.R.Crim.P.
600(A)(3), (G). Conversely, tq protect society's right to effective prosecution prior
to dismissal of charges, “rule 600 requires the court to consider whether the
commonwealth exercised due diligence, and whether the circumstances
occasioning the delay of trial were beyond the Commonwealth s control.
Selenski, 994 A.2d at 1088. If the Commonwealth exercised due diligence and the
delay was beyond the Commonwealth's control, “the motion to dismiss shall be
denied.” Pa.R.Crim.P. 600(G)j The Commonwealth, however, has the burden of
demonstrating by a preponderance of the evidence that it exercised due diligence.
See Browne, 584 A.2d at 908. As has been oft stated, “[d]ue diligence is
fact-specific, to be determined;case-by-case; it does not require perfect vigilance
and punctilious care, but merely a showing the Commonwealth has put forth a
reasonable effort.” Selenski, 994 A.2d at 1089. “If, at any time, it is determined
that the Commonwealth did not exercise due diligence, the court shall dismiss the
charges and discharge the defendant.” Pa.R.Crim.P. 600(G).
Id. at 701 -702
Mr. Christine raised a Rule 600 claim in his pro se filing. At the PCRA hearing, PCRA

11

1%

counsel, on the record, attempted to withdraw the claim. Mr. Christine objected to his counsel s
attempt to do so. We did not permit counsel to withdraw the claim. We then allowed Mr.
Christine to address his Rule 600 claims in his testimony and acknowledge that Mr. Christine
cogently framed an issue worthy of review.
The docket evidences the following pertinent information:

The criminal complaint was

i

filed on July 14, 2009. The Defendant was detained on the complaint on July 15,2009 with bah
set by Magisterial District Justice Elwell. The Defendant’s trial did not commence until October
5,2010. By our calculation, the Defendant was not tried until 447 days after his detention on
these charges. We then reviewed thejdocket and the entire file to determine if there are any
events that toll the Rule 600 calculation.
We note that the first preliminary hearing date was set for July 24, 2009 at 9:00 a.m.
before MDJ Elwell. However, the preliminary hearing was not held until October 20, 2009.
A review of the MDJ’s file indicates that the Defendant had his preliminary video
arraignment on July 15,2009, at 2:30 p.m. where bail was set. At the time of the assault, the
Defendant was incarcerated in Northampton County Prison. Shortly after the complaint was
filed by a Northampton County Correctional Officer, Christopher Nagle, the Defendant was
transferred to SCI-Forest. The Defendant was not available for his first scheduled preliminary
hearing on July 24,2009, therefore, it:was continued. Additionally, the MDJ’s notes indicate
that as of July 29,2009, the Defendant had not applied for a Public Defender, nor had private
counsel entered an appearance. The MDJ sent a letter to Northampton County Court
Administration requesting that the second preliminary hearing be held at the courthouse and that .
the Defendant be brought in from SCI- Forest. The new preliminary hearing was set for the
12

Hi

September 9,2009. That hearing was also cancelled as the Defendant was unable to be
delivered to Northampton County. A re-scheduled preliminary hearing was set for October 15,
2009, at the Northampton County Courthouse. The Defendant was brought in from SCI- Forest.
The hearing was held without defense counsel for the Defendant, as he failed to apply for a
Public Defender and did not hire private counsel. In fact, the Defendant chose to represent
himself at the preliminary hearing. At the conclusion of the preliminary hearing, the
Defendant’s case bound over for trial, i
By our calculation, the time frame from the continuance for July 24,2009 until the
Defendant had his preliminary hearing on October 15,2009, is 83 days. At no point during this
period, did the Commonwealth request a continuance or was the Commonwealth unable to
proceed for the preliminary hearing. The delay was two-fold. First, that the Defendant did not
obtain counsel and, as a result, the MDJ gave the Defendant an opportunity to obtain counsel and
second, the Defendant, because of these charges, had been transferred out of the jurisdiction,
obviously for prison administrative (safety) reasons and, as a result he was not available to the
Magisterial District Court, and therefore arrangements had to be made to reschedule and
transport the Defendant back to our jurisdiction.
We note that in Bradford, supra., the Supreme Court found that a breakdown in in the
Court process where the Magisterial District Judge failed to forward timely the relevant file as
required by Pa.R.Crim.P. 547(B), did not support a dismissal of the charges for a Rule 600
violation, as there was no due diligende violation by the Commonwealth. Here, the prison
officials, because of the security concerns presented by inmate Christine, transported Mr.
Christine out of the jurisdiction and he was not logistically or immediately available for his
13

WL

preliminary hearing. We find that this delay tolls Rule 600 for an additional 83 days.
Thereafter, on October 28,2009, the Defendant filed a “Motion for Dismissal and Quash
of Indictment for Judicial Misconduct and Habeas Corpus”. In the body of his petition, Mr.
Christine attacked the court’s jurisdiction, complained that he had no counsel at the preliminary
hearing, asserted that he received no notice of the preliminary hearing because he was at SCIForest, and he alleged that a prima facie case was not established at the preliminary hearing.
On November 17, 2009, Mr. Christine’s Public Defender filed a Motion for a Remand for
a Preliminary Hearing. The matter was scheduled for a hearing before Judge Smith on
November 25, 2009. The parties appeared before the Honorable Edward G. Smith on November
i

25, 2009 and entered an agreed order, in which the Defendant’s Motion for Remand was
“withdrawn by defense with anticipation of filing a Writ of Habeas Corpus. The hearing on the
writ of habeas corpus shall take place at 9:00 a.m. on Friday, December 18, 2009.

Thereafter,

counsel perfected the oral claim for habeas corpus relief by filing a written Petition for Habeas
Corpus on December 10,2009. The docket indicates that the hearing on the habeas corpus
petition was not held until January 15,j 2010. The transcript of the Habeas Corpus proceeding
i

was filed on February 1,2010, which indicates that Judge Smith denied the Petition for Habeas
Corpus on the record as of January 15, 2010.

We find that the period of time between October

28, 2009, until the resolution of the habeas corpus petition on January 15, 2010, is tolled under
Rule 600 as outstanding pre-trial motions were filed and unresolved. By our calculation, 79
days were tolled.
Thereafter, several trial dates were scheduled in which no official court activity occurred
until a miscellaneous hearing appearance on July 30,2010 before the Honorable Paula A.
14

m

C

Roscioli. At that time, the District Attorney and defense counsel agreed that the case would be
continued and attached for trial on October 4,2010. The Order was entered by agreement.
Apparently, the Defendant was unavailable and detained at SCI-Albion; therefore, the District
Attorney presented a writ to transfer the Defendant to Northampton County for his trial.

That

writ was signed by Senior Judge Lawrence J. Brenner on September 23,2010. Thereafter, trial
commenced.

We also note that Judge Roscioli’s Order of Court dated July 30, 2010, continued

the trial by agreement until October 5; 2010. No record was made at the PCRA hearing
moating that that period was not properly tolled by the court order entered by Judge Roscioli
aching counsel and setting a date certain for trial by agreement of counsel. By our
calculation, the period from July 30, 2010 until October 5, 2010 is tolled for a total of an
additional 68 days.
Our final calculation is that from the filing of the charges until trial was 447 days, from
that figure we

subtract the following tolled periods: (1) 83 days - Preliminary Hearing delay, (2)

79 days - Pre-trial motions, and (3) 6? days

agreed trial continuance. Thus, only 217 days

i

expired under Rule 600. There is no ;Rule 600 violation.
4.

Castle Defense - Use of Force to Protect Property

As we understood the factual predicate leading up to the alleged assault, the doors to the
cells at Northampton County Prison \yere open and the inmates on the various tiers were
I

permitted to intermingle with each other. Apparently, a group had gathered outside of the
Defendant’s cell and the alleged assault began either directly in front of or inside the Defendant s
opened cell.

15

IH4

The Defendant claims that even though he asserted a self-defense claim and received the
instruction with regard to justification/self-defense at trial, that his trial counsel was ineffective
for failing to request that the “Castle Doctrine” be included in the jury charge.
It is important to note that the Defendant’s alleged assault occurred in 2009 and his trial
was held in 2010. At the time, we were laboring under the justification defense set forth in 18
Pa.C.S. § 505 enacted in 1972. Under the 1972 version of § 505, the self-defense jury
instruction required that the actor wash non-aggressor, possessed reasonable fear of imminent
death and did not violate a duty to retreat. Under the 1972 version, all circumstances of the
crime were to be evaluated to determine if the actor seeking the justification defense had a
reasonable fear of death or serious bodily injury. However, Pennsylvania also recognizes the
“Castle Doctrine” which excused any duty to retreat when the actor was attacked within his
dwelling or residence.
The Law of Justification in effect at the time that this Defendant committed his crime and
at the time he was tried, did not provide the new, expanded Castle Doctrine that became law
when 18 Pa.C.S.A. § 505 was amendqd on August 27, 2011, which expanded the definition of
“Castle” to include dwelling, residence, occupied vehicle or place of work.
In our 2010 trial, we would not allow this Defendant, alleged to have committed an
aggravated assault in 2009, to expand|the Castle Doctrine to include his prison cell which he
shared with six other inmates and which he did not have the authority to secure himself. We
firmly believed that the 1972 version did not possess the legislative intent to grant inmates in a
penal institution a claim that a multi-bed prison cell was to be considered the inmate s private,
personal dwelling which would immunize the inmate should another inmate enter his open cell
16

---------- 1

1

door. Therefore, we made no attempt to fashion a new, special jury instruction for inmate
Christine which adopted the common-law Castle Doctrine to encompass his assigned prison cell.
Trial counsel appropriately requested and received the charge for self-defense. We
i

cannot find counsel to be ineffective fpr failing to advance the request for a novel Castle
Doctrine charge related to inmates and prison cells.
5.

Jury Charge.

The entirety of the Defendant’s argument with regard to the error in the jury instructions
is set forth in the following three paragraphs:
Aggravated assault is defined under 18 Pa.C.S.A. § 2702 as follows: “(a)
Offense defined. - A person is guilty of aggravated assault if he: (1) attempts to
cause serious bodily injury to another, or causes such injury intentionally,
knowingly or recklessly manifesting extreme indifference to the value of human
life.” However, this Honorable Court informed the jury that “If you accepted the
Defendant’s testimony that in defending himself, accidentally the victim was
slashed, then there is no justification either because the Defendant committed the
crime.” N.T. 10/7/10, Pg. 88, Ln. 13-14.
A review of this Honorable Court’s comments during discussions in
chambers appears to show that the Court meant to say quite the opposite. When
this exact topic was broached in chambers, this Honorable Court stated: “If the
jury accepts [Christine’s] testimony, he committed no crime and there is no
defense ofjustification available.”1 N.T. 10/7/10, Pg. 5, Ln. 9-11.
It appears that this Honorable Court merely misspoke. However, this
interchange of the words “the” and “no” in the Court’s instructions to the jury
warrants a new trial. “When reviewing a challenge to a part of the jury
instructions, the Court must review the charge as a whole to determine if it is fair
and complete.” Commonwealth v. Hall. 549 Pa. 269 at 303 (1997). Only where
there is an abuse of discretion or an inaccurate statement of law is there reversible
error. Id.
i

1 During this discussion in chambers the Court discussed Commonwealth v. Harris. 665 A.2d 1172 (Pa. 1995) and
its holding that the assertion of a justification defense was mutually exclusive to a defendant's assertion that an
injury was a result of an accident and defendant therein was not in fear of injury. Harris has since been
distinguished by Commonwealth v. Childs. 2014 WL10788813 (Pa. Super. 2014)(Non-Precedential Decision) where
the defendant therein accidentally caused SBl/Death while defending himself.

17

Wb

c

i'

See Brief in Support Defendant’s PCRA Petition page 2.
The standard of review in a jury charge is to determine whether the trial court committed
a clear abuse of discretion or an error iof law which controlled the outcome of the case.
Commonwealth v. Brown. 911 A.2d 576,582-83 (Pa.Super 2006).
“When evaluated jury instructions, the charge must be read as a
whole to determine whether itj was fair or prejudicial. The trial court has
broad discretion in phrasing its instructions... so long as the law is clearly,
adequately, and accurately presented to the jury for its consideration.”

Commonwealth v. Hawkins. 787 A.2<i 292, 301 (Pa. 2001). “Error will not be predicated on
isolated excerpts. Rather it is the general effect of the charge that controls.” Commonwealth v.
Myers. 545 A.2d 309, 314 (Pa. Superi 1988).
First, we must note that we had a jury charge conference with counsel in which we
discussed the jury charge for the defense ofjustification, including the application of the holding
in Commonwealth v. Harris. 665 A.2d 1172 (Pa. 1995) and the language that is now at issue.
Counsel agreed to the charge that we provided. (See Trial Notes of Testimony Vol HI, pp.3 11.) During our initial jury charge, no objections were made and the jury was sent out to
deliberate. We believe that the charge we gave to the jury reflected the law and our pre-charge
conference. Defense Counsel, Appellate Counsel and PCRA Counsel did not raise any
complaints regarding our initial charge, including the justification charge. (See Notes of Jury

Trial Vol mpp. 44-77).
The alleged error raised by PCRA counsel appears at a subsequent charging proceeding
after the jury returned a question related to the justification defense and the definition of serious

18

m

bodily injury.2 We believe that we accurately recited the law and our jury charge with regard to
justification. After our second attempt to provide instructions to the jury regarding justification,
we brought counsel again to side bar and no objections were raised with regard to our
instructions.
The sum total of the alleged error by PCRA counsel is the following quote from his Brief,
“It appears that this Honorable Court merely misspoke. However, this interchange of the
word “the” and “no” in the Court’s instructions to the jury warrants a new trial.”
We believe that it is important to read the entirety of that section of the record to place
this claim in perspective. It is as follows:
“Also, if you accept the defendant’s testimony that he was a person who .
was innocent in this matter, that he was in his cell, and that the victim came to his
cell with hot coffee and a razor, and that the victim, Mr. Misero, was the person
who provoked the assault, and, in fact, attempted to slash the defendant with the
razor. Eventually the defendant disarmed Mr. Misero, they disengaged, the
defendant walked over, picking up the razor, he was now armed, and the
defendant then was under attack again by Mr. Misero a second time, and that in
defending himself, accidentally the victim was slashed, then there is no
justification either because thd defendant committed the crime. He has no intent to
injure the victim so you don’t have to consider justification if you believe the
defendant’s story.”
N.T.10/7/10, p.88.
We cannot deny that the transcription of our jury charge on Page 88, Line 13-14, recites
the phrase “the Defendant committedithe crime.”

However, we believe that we did not

misspeak, but in fact we said etthe Defendant committed no crime”. Otherwise, the entire
sentence appears to be “logical gibberish.” It makes no sense that the court reporter s
transcription was accurate. We had previously, accurately made the statement to the jury that

2 Frankly, this would not have been an issue, if we had the authority to provide the jury with a written copy of our
initial charge.

19

m

had if the Defendant accidently slashed the victim (as he reported in his testimony) then the
Defendant could not have committed the crime of aggravated assault and the defense of
i

i

justification would not need to be considered by the jury. We believe that we provided the same
!

instruction in our first charge as we diji in our second charge referenced on Page 88 of the
Transcript. Other than the apparent error of ‘‘the” rather than “no”, the section is consistent with
i

the charge required as well as our discussion with the parties regarding the import of
Commonwealth v. Hams in delineating between a justification defense and a lack of intent.
We cannot account for the Scribner’s error.
However, even if the error did; occur, however, it would still be considered an isolated
excerpt” of the transcript which is notj a basis to determine error. Commonwealth v. Myers,
supra . Taken as a whole, the jury instmction adequately conveyed the law to the jury.
|

We next note that the alleged charging error was also not raised during the appellate
process

Obviously, this record was reviewed with a fine tooth comb. There are two Opinions

from the Superior Court and eventually, a review and an Opinion by the Supreme Court.
Obviously, this issue, if it existed, wqs waived on appeal.
Therefore, the issue becomes Whether or not trial counsel, Susan Hutnik, was ineffective
for failing to raise the objection and, if so, the extent of any prejudice, because this claim was
waived for post-sentence claims because of the failure to include it in the direct appeal.
Thus, our next determination is whether or not trial counsel was ineffective for not
pursuing this claim. The standard fcjr performance of trial counsel (and appellate counsel) is a
three prong performance and prejudice test set out in Commonwealth v. Pierce, 527 A.2d 973

20

m

(Pa. 1987), which continues to be the legal standard for evaluating such claims. Under Pierce,
the PCRA petitioner must demonstrate: (1) the claim of ineffectiveness has arguable merit, (2)
that counsel did not have a reasonable'basis for the act or omission in question, and (3) petitioner
i

must establish prejudice which demonstrates that “but for the errors and omissions of counsel,
i

there is a reasonable probability that the outcome of the proceedings would have been different.”
See Commonwealth v. Pierce. Supra; .Commonwealth v. Douglas, 645 A.2d 226,230 (Pa. 1994);
I

Commonwealth v. Kimball. 724 A.2d:326, 333 (Pa. 1999).
The Supreme Court in Commonwealth v. Daniels, 963 A.2d 409,430 (Pa. 2009),
addressed the legal standard for review of an allegedly defective jury charge. The Daniels Court
held:
It is well-settled that when reviewing the adequacy of a jury instruction, we must
consider the charge in its entirety to determine if it is fair and complete.
Commonwealth v. Cooper, 596 Pa 119, 941 A.2d 655, 669 (2007); Commonwealth
v. Murphy, 559 Pa. 71, 739 A.2d 141,146 (1999); Commonwealth v. Stokes, 532
Pa. 242, 615 A.2d 704, 709 (1992); Commonwealth v. Prosdocimo, 525 Pa 147,
578 A.2d 1273 (1990). The trial court has broad discretion in phrasing the charge
and the instruction will not belfound in error if, taken as a whole, it adequately and
accurately set forth the applicable law. Prosdocimo, supra.
Id. at 430.
Upon inquiry by PCRA counsel, Ms. Hutnick had no answer to PCRA counsel’s inquiry
as to why no objection was raised to our charge. (Notes of Testimony, July 11, 2016 pp. 30 33). If our belief is incorrect and we! did misread our justification charge on page 88 of the Trial
transcript, the trial counsel should have raised an objection.
Still, we note that under Commonwealth v. Daniels, given the totality of our entire

3 Also, we note that the PCRA transcript incorrectly references PCRA counsel asking Mr. Lawser to review the
defective jury instruction on "page 48." This was dearly another transcription error, as PCRA counsel actually
provided Mr. Lawser with page 88 for his review. .

21

ISO

•f—
charge, any reasonable person would understand that the Defendant had available to him
justification - self-defense - in this case. It had been reviewed and discussed by the Defendant
in his testimony, by Defense Counsel and the ADA in their closing arguments, and by the Court
i
in its initial charge and then we addressed it again to the jury’s satisfaction when we charged the
jury a second time after they came back into the courtroom. Thus, the jury had the charge of
aggravated assault properly charged oh two occasions. There is no reasonably possibility that
this jury found that this Defendant accidentally sliced the victim while he was defending himself
and then also found that the elements iof aggravated assault had been established, because based
on our charge there could be no conviction for the intentional crime of aggravated assault for an
accidental injury. We further note that our charge for aggravated assault was, at all times,
consistent with the suggested standard charge. Our charge made it clear that ifjustification
existed (the Defendant acted in self-defense), there could be no conviction for aggravated assault.
To accept the Defendant’s argument that based on the one line on page 88, that the jury could
have found that the Defendant acted in self-defense and accidentally sliced the victim, but that
the court was directing that the jury find that he committed the crime anyway, is not credible
given the entire charging record. Wq cannot find actual prejudice, because the Defendant cannot
establish a reasonable probability that the outcome of the proceedings would have been different,
i

absent the one word error in the trial transcript.
In summary, we believe that the entirety of the charging record established that the jury
was provided with an accurate summary of the applicable law, that there is no prejudice in the
record which warrants relief, and most importantly, based upon the charge of the court, a
reasonable determination of guilt was made.
22

\h\

'V

The Defendant is not entitled to PCRA relief.

BY THE COURT:
i

i

■

STEPHEN G. BARATTA, J.
:
i

:
i

:

:

23

1W-

APPENDIX K
PA SUPREME CT., Case # 8 MAP -201M
Denial of Application for Reargument or Enc Banc Reargument

[J-77-2014J
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
CASTILLE, C.J., SAYLOR, EAKIN, BAER, TODD, McCAFFERY, STEVENS, JJ
COMMONWEALTH OF PENNSYLVANIA,: 8 MAP 2014
Appellee
v.
JACOB MATTHEW CHRISTINE

Praecipe for Withdrawal of Appearance;
Motion to Proceed Pro Se and In Forma
Pauperis; Application for Reconsideration
or En Banc Reargument; Motion for
Appointment of Counsel in the Event of
Reargument

Appellant

ORDER

PER CURIAM
AND NOW, this 26th day of January, 2016, the Praecipe for Withdrawal of
Appearance, treated as a Motion to Withdraw Appearance, and the Motion to Proceed
Pro Se and In Forma Pauperis are GRANTED.

Appellant’s pro se Application for

Reconsideration or En Banc Reargument, treated as an Application for Reargument, is
DENIED.

Appellant’s pro se Motion for Appointment of Counsel in the Event of

Reargument is DENIED AS MOOT.
Former Chief Justice Castille, Justice Eakin, and former Justices McCaffery and
Stevens did not participate in the consideration or decision of this matter.

A True Copy Elizabeth E. Zisk
As Of 1/26/2016
Attest:
^
Chief Clerk
Supreme Court of Pennsylvania

\5H

APPENDIX L
PA Supreme Ct. Case # 8 MAP 2014
Affirmance of Lower Ct. Order denying New Trial

I5S
i

[J-77-2014]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
CASTILLE, C.J., SAYLOR, EAKIN, BAER, TODD, McCAFFERY, STEVENS, JJ.

COMMONWEALTH OF PENNSYLVANIA, : No. 8 MAP 2014
Appellee

v.

JACOB MATTHEW CHRISTINE,
Appellant

Appeal from the Order of Superior Court at
No. 1893 EDA 2011 dated August 30,
2013 affirming the Judgment of Sentence
of the Northampton County Court of
Common Pleas, Criminal Division, at No.
CP-48-CR-0003344-2009 dated
November 24, 2010.
ARGUED:

September 9, 2014

OPINION

MR. JUSTICE EAKIN

DECIDED:

October 27, 2015

An equally divided en banc panel of the Superior Court1 resulted in affirmance of
appellant’s judgment of sentence for aggravated assault, 18 Pa.C.S. § 2702(a)(1), and
recklessly endangering another person (REAP), id., § 2705.2

The trial court

summarized the facts:
The convictions resulted from an incident that occurred in Northampton
County Prison (NCP) on June 8, 2009. On that date, [appellant] and the
victim, Thomas Mis[s]ero, were inmates in NCP when a confrontation
between the two men occurred in [appellants cell in Unit B-2. The cell
housed 8 inmates in four rows of bunk beds. While in [appellants cell,
[appellant] was alleged to have slashed Mr. Mis[s]ero’s neck and ear with a
razor blade. Immediately after the attack, corrections officers searched
1 Then-President Judge Stevens did not participate in the consideration or decision of
the en banc decision below.
2 Appellant was found not guilty of attempted murder, id, §§ 901(a), 2502(a).

1S&

[appellant's cell. Only one weapon, a shank, was found in the cell.[3]
was hidden within [appellant's bed.

It

Trial Court Opinion, 4/26/11, at 1-2.
Appellant filed a motion jn limine to exclude the shank from evidence, arguing it
was irrelevant and would cause undue prejudice by confusing the jury, because the
Commonwealth agreed the shank was not used in the attack.

N.T. Trial, 10/5/10, at 13.

The trial court ruled the shank admissible under multiple theories.

The court first stated

the shank was admissible under the similar-weapon exception4 because it showed
appellant had “access to a weapon and that he had the ability to fashion a homemade
weapon from objects in the prison."

Trial Court Opinion, 4/26/11, at 7; see also jcL, at

6-7 (discussing similar-weapon exception).

Additionally, the court found the shank was

relevant because it “tend[ed] to show [appellant] had knowledge and familiarity with
prison-made weapons and could conceal them in his prison cell ... [and] to rebut
[appellant’s assertion that he was unarmed and acted in self-defense."

id., at 8.

The

court found the shank’s probative value outweighed its prejudicial effect and, therefore,
admitted it into evidence,

kl

3 The “shank” was an 18- to 20-inch rod from a metal bookshelf, "with a sharp point and
a handle wrapped around it, which is a piece of cloth wrapped real tight so they can have
a grip on it" N T. Trial, 10/6/10, at 38. The Commonwealth conceded the shank was
not used in the attack. ’ See, e^, N.T. Trial, 10/5/10, at 13 (“[The shank] was not the
weapon used in this incident.... We believe a razorblade was used, no razorblade was
found. Right after the incident they searched the [appellant’s cell, what they found was
a shank. The Commonwealth intends to introduce the shank even though we do not
believe that that is the instrument that was used.").
4 The similar-weapon exception, discussed infra, permits the introduction of a weapon
not “specifically linked” to the crime if the Commonwealth “lay[s] a foundation that would
justify an inference by the finder of fact of the likelihood that the weapon was used in the
commission of the crime." Commonwealth v. Lee, 662 A.2d 645, 652 (Pa. 1995)
(citation omitted).

\SG>
[J-77-2014] - 2

Appellant filed another pre-trial motion seeking to admit into evidence Missero’s
post-attack simple-assault conviction.5
his self-defense

He argued Missero’s conviction was relevant to

claim because the conviction demonstrated Missero’s violent

propensities and that he was the initial aggressor.

The trial court denied the motion

because, as the events leading to Missero’s simple-assault conviction occurred after the
jailhouse attack, “nothing about the timing or nature of the charges Qcould establish
Mis[s]ero's reputation for violence at the time of the [attack].”

JcL, at 11-12.

At trial, appellant testified he was reading on his cot when one of his cellmates
invited Missero inside.

N.T. Trial, 10/6/10, at 44-45.

Missero argued about a debt,

Appellant stated the cellmate and

and the conversation escalated and became

confrontational; appellant tried to leave the cell, but Missero was standing in the
doorway.

Id, at 45.

Appellant testified Missero threw a cup of hot coffee at him and a

struggle ensued, during which punches were exchanged,

Missero produced a

razorblade; appellant stated he disarmed Missero, retrieved the razorblade, and
accidently may have cut Missero as he left the cell.

Id., at 46, 49.

The razorblade was

never found.
A jury convicted appellant of aggravated assault and REAP,

The trial court

sentenced appellant to nine to 20 years imprisonment for aggravated assault and a

5 Almost 11 months after the attack, Missero, who was released from prison, was
arrested for domestic violence. The prosecutor summarized the incident as follows:
[On] May 1st of 2010, Nazareth Police were called to the American Hotel in
Nazareth for a report of an assault. Thomas Missero was outside and his
girlfriend was there, Melissa Miller. She claimed that [Missero] had
grabbed her and had pushed her. She had minor damage to her ear as a
result of falling, I guess, from the push, and that he had threatened her.
N.T. Trial, 10/5/10, at 27. On June 24, 2010, Missero pled guilty to simple assault and
REAP. Trial Court Opinion, 4/26/11, at 11.

157
[J-77-2014] - 3

concurrent one- to two-year sentence for REAP, the entire sentence running consecutive
to his current sentence.
Appellant appealed, and a divided three-judge panel of the Superior Court
reversed, holding the shank was properly admitted but finding error in refusing to allow
appellant to question Missero about his post-attack conviction for simple assault.
Commonwealth v. Christine. No. 1893 EDA 2011, unpublished memorandum at 6, 10
The Superior Court granted the

(Pa. Super, filed April 24, 2012) (withdrawn).

Commonwealth’s application for reargument en banc,

See Pa.R.AP. 2543.

On

reargument, an equally divided en banc panel affirmed the trial court.

Commonwealth

v. Christine. 78 A.3d 1, 2 (Pa. Super. 2013) (en banc) (per curiam).

All eight judges

agreed, albeit for different reasons, the trial court did not abuse its discretion by
excluding the post-trial conviction.6

The court was evenly divided regarding

admissibility of the shank.
The OISA held that even though it was not used in the attack, the shank
demonstrated appellant’s familiarity with and ability to fashion a homemade weapon
similar to the one used in the attack.

The OISA noted the razorblade and the shank

both had the “distinctive characteristic” of having “'cloth or tape at the end of the
instrument in order to have a handle on it.’”

Id., at 8 (Mundy, J., OISA) (citation

6 The Opinion in Support of Affirmance (OISA) reasoned Missero’s subsequent
conviction was inadmissible because that “offense is not ‘similar in nature’ to the events
that [ajppellant alleged transpired [during the attack].” Id, at 5 (Mundy, J., OISA)
(quoting Commonwealth v. Mouzon. 53 A.3d 738, 741 (Pa. 2012)) (citing N.T. Trial,
10/6/10, at 45-47 (stating Missero threw hot cup of coffee on appellant and punched him
multiple times)). The Opinion in Support of Reversal (OISR) opined "the only relevant
time period for purposes of proving a victim’s ... character is the time period up until the
occurrence of the confrontation!,]" and therefore, “Missero’s subsequent conviction for
an event that transpired after the prison incident should not be used ‘to retroactively
establish [his] character’ at the time of the incident.” id, at 11-12 (Ott, J., OISR)
(emphasis and alteration in original) (quoting Trial Court Opinion, 4/26/11, at 13).

[J-77-2014] -4

Isg

The OISA reasoned that while a generic razorblade is not unique, it is the
omitted)
intentional and snecific modification of the razor and the bookcase's metal rod into
makeshift weapons[] that makes both of them distinctive ... [, and it tends to show
appellant] ‘had the ability to fashion a homemade weapon from objects in the prison.
Id., at 8-9 (emphasis in original) (citations omitted).
The OISR, citing Commonwealth V. Robinson, 721 A.2d 344 (Pa. 1998), and
Commonwealth v. Marshall, 743 A.2d 489 (Pa. Super. 1999), believed the shank was
irrelevant because “there was no dispute that [it] was not the weapon used in the fight[,]
there was testimony ... that razor blades were readily available to inmates at the prison[,
and] the shank did not corroborate or rebut any testimony.”

Christine, at 13 (Ott, J„

The OISR also disagreed that appellant's self-defense claim was rebutted by a
OISR).
different weapon having been found in his bed. Ii, at 13 & n.6 (citing Commonw_eajth
v. Williams, 58 A.3d 796, 801

(Pa. Super. 2012)).

Moreover, because the

Commonwealth’s case depended largely on credibility determinations, the OISR
concluded the error was not harmless.

, at 15-16.

We granted allowance of appeal to determine:
(1) Isa conviction for assault, which occurs subsequent to the incident at
issue in a criminal trial, admissible to prove the allegedly violent
propensities of the victim, where self-defense is asserted and where there
is an issue raised as to who was the aggressor?
(2) Did the [t]rial [c]ourt commit error of law or abuse its discretion when it
permitted the Commonwealth to admit a "shank” as physical evidence, as
well as testimony regarding said shank, in the course of the jury trial in the
instant matter?
rnmrrv'nwpalth v. Christine. 86 A.3d 831 (Pa. 2014) (per curiam); see a]so 42 Pa.C.S. §
724(a).
Both issues concern the admissibility of evidence, which rests within the sound
discretion of the trial court, and therefore, we “will reverse [the] trial court’s decision ...

[J-77-2014] - 5

15°!

only if the appellant sustains the 'heavy burden' to show that the trial court has abused
its discretion.”
omitted).

Commonwealth v. Bryant. 67 A.3d 716, 726 (Pa. 2013) (citations

The following principle leads to our affirmance of the trial court s rulings.

It is not sufficient to persuade the appellate court that it might have reached
a different conclusion!;] it is necessary to show an actual abuse of the
discretionary power. An abuse of discretion will not be found based on a
mere error of judgment, but rather exists where the court has reached a
conclusion [that] overrides or misapplies the law, or where the judgment
exercised is manifestly unreasonable, or the result of partiality, prejudice,
bias or ill-will.
Id (alteration in original) (citation and internal quotation marks omitted).
Only relevant evidence is admissible at trial.

Pa.R.E. 402.

Evidence is relevant

if it tends to make a material fact more or less probable than it would be without the
evidence.

Id., 401.

Even if relevant, however, evidence may be excluded if its

probative value is outweighed by ... unfair prejudice, confusing the issues, misleading
the jury;
403.

undue delay, wasting time, or needlessly presenting cumulative evidence.

IsL,

Appellant’s claim of inadvertent injury while exercising the right of self-defense is

pertinent to both rulings.

As to the first issue, when a defendant asserts a claim of

self-defense:
fElvidence of the victim's prior convictions involving aggression may be
admitted, if probative, either (1) to corroborate the defendants alleged
knowledge of the victim’s violent character, to prove that the defendant was
in reasonable fear of danger, or (2) as character/propensity evidence, as
indirect evidence that the victim was in fact the aggressor.
Mouzon. at 741 (citation omitted).

The defendant need not have knowledge of the

victim’s prior conviction if it is being offered to prove the victim was the aggressor.
p.nmmnnwealth v. Amos. 284 A.2d 748, 752 (Pa. 1971).
prior conviction is

Thus, evidence of the victim’s

admissible if the trial court determines it is “similar in nature and not

too distant in time....”

Mouzon, at 741 (citation omitted).

[j-77-2014] - 6

u*

Relying on Commonwealth v. Beck, 402 A.2d 1371 (Pa. 1979),7 appellant first
argues the lower courts erred in looking to the facts behind the subsequent conviction to
determine whether it was “similar in nature” to the jailhouse attack, as "an assault
conviction necessarily implies violent propensity."

Appellant’s Brief, at 13.

In regard to

the not-too-distant-in-time element, appellant avers the fact that case law refers to a
conviction preceding the present incident does not necessarily limit the admissibility of
victim’s convictions to prior convictions,

[d, at 15 (“Nowhere in either [Beck or Amos]

did this Court consider whether a conviction must occur before or after the incident on
trial in

order to be relevant to violent propensity.”).

He contends that because Beck and

Amos were murder cases, where it was tautologically impossible for the victim to commit
a subsequent offense, the prior-conviction language in those opinions is dicta, and thus,
precedent does not bar subsequent convictions from being admissible.

Id, at 15-16.

Therefore, according to appellant, the reasoning of those cases logically applies to
subsequent convictions and the trial court erred by “categorically refusing to admit any
subsequent conviction.

See id, at 16-17.

Finally, appellant submits the trial court’s

was
error was not harmless because “the only contested issue at trial was which party
the aggressor[.]”

Id, at 18.

The Commonwealth responds by arguing any conviction subsequent to the
incident at issue can never be probative that the victim was the aggressor during a
previous altercation.

*-

Commonwealth’s Brief, at 8; see also id, at 6-7 (stating no case

7 In Beck this Court held it was error for the trial court to exclude the victim’s
three-year-old prior convictions for assault and battery, We stated, “When the prior
conviction is for assault and battery, there is no need to compare the facts. Any
difference is irrelevant, A conviction for assault and battery necessarily implies a
character involving aggressive propensities.” Id, at 1373.

[J-77-2014] - 7

U4

law supports “position that subsequent convictions of the victim may be admitted to show
alleged violent propensities in a prior conflict” and noting this Courts precedent
“specifically refers to ‘prior convictions’ and ‘past crimes’” (emphasis in original) (quoting
Mouzon, at 741)).8

The Commonwealth asserts logic does not warrant extending the

rule to subsequent convictions because “numerous intervening factors ... could have
affected the victim’s character and propensities going forward.”

]d, at 8-9.

We hold the Superior Court did not err in determining the trial court acted within its
discretion by excluding Missero’s subsequent simple-assault conviction,

The “decision

in each case as to similar nature and remoteness ... rests within the sound discretion of
the trial judge.”

Amos, at 752.

While we disagree with appellant’s position that the trial

court abused its discretion, we do not' endorse the claim that a subsequent conviction
can never be probative and admissible.
facts.

Proximity in time is a factor, as is similarity of

Here we have 11 months between events, but a strikingly disparate factual

scenario.9

See Weakley, at 1190 (stating, in context of using prior bad acts to identify

defendant, “the importance of a temporal nexus between crimes declines as the

8 The Commonwealth argues, while there is a dearth of case law dealing with the
admission of subsequent offenses "in any context..., in those cases where courts have
allowed [such] evidence ... to be admitted at trial, [it] has come in under the exceptions
listed in [Pa R E ] 404(b)(2) and it has related to the defendant, not the victim.” id, at
7-8 (citing Commonwealth v. Reid. 626 A.2d 118, 121 (Pa. 1993); Commonwealth^
Weakley. 972 A.2d 1182, 1188 (Pa. Super. 2009); Commonwealth v. Wattiey, 880 A.2d
682, 686-87 (Pa. Super. 2005)).
9 In this regard, we overrule Beck insofar as it stands for the bright-line rule that all
assault convictions are sufficiently similar to demonstrate the victim’s violent
propensities. See Beck, at 1373. Instead, trial courts may determine whether the
facts are sufficiently similar on a case-by-case basis, and the trial court here did not err in
doing so.

[J-77-2014] - 8

similarity of the crimes increases”); see also N.T. Trial, 10/6/10, at 46 (appellant testifying
Missero started fight by throwing hot cup of coffee).

We uphold the ability of the trial

court to duly consider all things appropriate, and find the court here did not abuse its
discretion in excluding Missero’s conviction.

We “reaffirm our confidence in our trial

judges to oversee the presentation of evidence ‘so that overtly passionate, intentionally
biased and inflammatory material is kept out of the courtroom.”’

Bryant, at 726 (quoting

Commonwealth v. Eichinaer. 915 A.2d 1122, 1139 (Pa. 2007)).
Appellant’s second issue challenges the admission of the shank found hidden in
his bed.

Appellant first argues the trial court erred by ruling it admissible under the

similar-weapon exception because the Commonwealth conceded the shank did not
cause Missero’s injuries.

See Appellant’s Brief, at 23 (quoting Lee, at 652).

Instead,

the Commonwealth contends the shank was admissible “to show that [ajppellant ‘had
possession and control of a weapon similar to the one used to commit his crimes.”’
Commonwealth’s Brief, at 14 (quoting Williams, at 801).
A weapon not "specifically linked” to the crime is generally inadmissible; however,
the fact “the accused had a weapon or implement suitable to the commission of the
crime charged ... is always a proper ingredient of the case for the prosecution.”
Robinson, at 351 (alteration in original) (citation and internal quotation marks omitted).
“Any uncertainty that the weapon is the actual weapon used in the crime goes to the
weight of such evidence.”

Commonwealth v. Williams. 640 A.2d 1251,1260 (Pa. 1994)

(citing Commonwealth v. Coccioletti. 425 A.2d 387, 390 (Pa. 1981)).

“The only burden

on the prosecution is to lay a foundation that would justify an inference by the finder of
fact of the likelihood that the weapon was used in the commission of the crime.”

[J-77-2014] - 9

Lee, at

m

652 (citing Commonwealth v. Thomas, 561 A.2d 699, 707 (Pa. 1989) (If a proper
foundation is laid, the weapon is admissible where the circumstances raise an inference
of the likelihood that it was used.")).
The cases cited deal with weapons that might have been used,

Possession of a

handgun may be relevant even if the particular gun possessed cannot be proven to be
the one used in the crime.
been used.
not

That it was possessed may allow the inference it could have

Here, however, the exception is not in play, as the shank was admittedly

used in the pertinent assault.

The theory of the exception is that the weapon

possessed could have been the weapon used — that simply is not the case here, and
admission under the similar-weapon exception was error.10

To the extent that cases

10 This Court's entry into the similar-weapon exception was in Commonwealth v. For?-'
301 A.2d 856 (Pa. 1973), where police believed a 12-inch knife found in the defendants
home was the murder weapon. The victims were stabbed with “a kitchen knife about12
inches long,” and the medical examiner testified the victims’ "wounds were caused by a
knife with a seven to seven and one-half inch blade.” Id., at 857. However, the knife
at trial was never positively identified as the one used, and the medical examiner was
unable to link it to the crime. Jd, We held the knife was admissible because there was
a foundation to “‘justify an inference of the likelihood of [the knife] having been^®d7 "
Id,, at 858 (quoting United States v. Rame_y, 414 F.2d 792, 794 (5thi Cir. 1969) (figr
curiam)). Accord Commonwealth v. Edwards, 903 A.2d 1139, 1156-57 (Pa. 2006)
f[T]he Commonwealth need only lay a foundation that would justify an inference by the
finder of fact of the likelihood that the weapon was used in the commission of the crime
(citation omitted)); Lee, at 652 (same); Thomas, at 707 (same); Commonweaith v. Yount,
314 A.2d 242, 249 (Pa. 1974) (“The knife [found on defendant and admitted at trial] was
of a kind that’mniri have inflicted the wounds, even though the prosecution was unable
conclusively to demonstrate that the particular knife was the weapon used <?™Ph.®sls
added)); Commonwealth v. Johnson, 615 A.2d 1322, 1334 (Pa. Super. 1992) (citing
Commonwealth v. Fromal. 572 A.2d 711, 724 (Pa. Super. 1990)).
Unfortunately, some appellate decisions have omitted language referring to the
need for a foundation justifying an inference the weapon was used in the crime
Williams 640 A.2d at 1260 (stating weapon admissible "if it tends to prove that the
’
’ a weapon similar to the one used in the perpetration of the crime );
defendant had
Williams. 58 A.3d at 801 (stating similar-weapon exception applies “where ‘the accused
(continued...)
[J-77-2014] -10

UH

affirm use of this exception strictly on the basis of similarity, without an inference they
were the weapons used, we reject them.
Of course, admission on other grounds remains possible.

In that regard, the trial

court also found the shank relevant and admissible to demonstrate appellants ability to
fashion a homemade weapon, and to rebut his self-defense claim.
are

Noting razorblades

regularly handed out to inmates, appellant argues “it does not take much ingenuity to

put a piece of paper, tape, or cloth on one end of the blade in order to hold it.
ability to do so was not at issue."

Appellant’s Brief, at 27.

[His]

However, the

Commonwealth laid a foundation of the similarity between the handles on the shank and
razorblade, which, as admittedly generic that may be, the trial court found demonstrated
appellant’s familiarity with and ability to fashion jailhouse weapons, which one cannot
say is irrelevant.
Appellant claims “the shank does not rebut his assertion of self-defense except by
the improper inference of guilt arising from his alleged possession of an unrelated
weapon.”

Id.

Even if another judge would have ruled otherwise, it is ‘“not sufficient to

persuade the appellate court that it might have reached a different conclusion!;] it is
necessary to show an actual abuse of the discretionary power.
(alteration in original) (citation omitted).

Bryant, at 726

We find the trial court’s decision to admit the

shank in order to rebut appellant’s self-defense claim was not “‘manifestly unreasonable,

(...continued)
, 1(
.
.,»*
had a weapon or instrument suitable to the commission of the crime charged ),
r.nmmnnwealth v. Owens. 929 A.2d 1187, 1191 (Pa. Super. 2007) (citation omitted)
But see Edwards, at 1156-57 (citation omitted); Lee, at 652; Thomas, at 707, Yount, at
249; Ford, at 858; Johnson, at 1334 (citation omitted). This exception requires
evidence sufficient to allow such an inference. It is not present herein.

[J-77-2014] -11

IfeS

or the result of partiality, prejudice, blast,] or ill-will.”'

Id (citation omitted).

Therefore,

the trial court did not abuse its discretion or commit reversible error by admitting relevant
relevant under alternative
evidence and the OISA did not err by ruling the shank was
theories of admissibility.
Order affirmed; jurisdiction relinquished.
Former

Chief Justice Castille and Former Justice McCaffery did not participate in

the decision of this case.
Messrs. Justice Baer and Stevens join the opinion.
Madame Justice Todd files a concurring opinion.
Mr. Chief Justice Saylor files a dissenting opinion.

[J-77-2014] -12

IU»

[J-77-2014] [MO:Eakin, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA, : No. 8 MAP 2014
Appellee

v.

JACOB MATTHEW CHRISTINE
Appellant

Appeal from the Order of the Superior
Court dated August 30, 2013 at No. 1893
EDA 2011 affirming the Judgment of
Sentence of the Court of Common Pleas
of Northampton County, Criminal Division
dated November 24, 2010 at No. CP-48CR-0003344-2009
ARGUED: September 9, 2014

CONCURRING OPINION

DECIDED: October 27, 2015
MADAME JUSTICE TODD
I join the majority in affirming the Superior Court’s holding that the trial court did
not abuse its discretion in admitting into evidence the shank found in Appellants cell for
the purpose of rebutting Appellant’s claim that he was unarmed and acted in selfdefense. I also agree that the trial court properly denied Appellant’s motion in limine to
question the victim regarding his conviction for simple assault which occurred after his
jailhouse altercation with Appellant; I write separately, however, because my reasoning
on this second issue differs from that of the majority.
As noted by the majority, Appellant was charged with, inter alia, aggravated
assault based on a jailhouse altercation involving the victim in June 2009, during which

the victim

allegedly threw hot coffee onto Appellant and punched Appellant several

times. Appellant filed a pretrial motion seeking to introduce evidence that the victim was
convicted of simple assault based on an incident of domestic violence between the
victim and his girlfriend which occurred subsequent to the victim’s release from prison,

I&7

approximately 11 months after the jailhouse altercation involving Appellant. Appellant
argued that the victim’s simple assault conviction was relevant to Appellant’s selfdefense claim because it demonstrated the victim’s violent propensities and suggested
the victim was the initial aggressor.
In denying Appellant’s motion to introduce evidence of the victim’s simple assault
conviction, the trial court first noted that, pursuant to Pa.R.E. 404(b)(1), evidence of
other crimes generally is inadmissible to prove the character of a person in order to
show conformity therewith,

Trial Court Opinion, 4/26/11, at 12.

The trial court

acknowledged that this Court has held that a defendant who alleges self-defense may
use a deceased victim’s criminal record either to corroborate his alleged knowledge of
the victim’s quarrelsome and violent character to show the defendant reasonably
believed his life was in danger; or to prove the allegedly violent propensities of the
victim to show the victim was the aggressor. See Commonwealth v. Amos, 284 A.2d
748 (Pa. 1971); Commonwealth v. Beck. 402 A.2d 1371 (Pa. 1979). However, the trial
court distinguished those cases on the basis that, unlike the present altercation, they
involved a deceased victim. The trial court concluded that Appellant was attempting “to
use future events to retroactively establish [the victim’s] character,” and opined:
the law only allows evidence of prior incidents to prove the
character or reputation of the victim at the time of the crime
in question. A subsequent conviction arising from events
that transpired after the incident involving [Appellant] simply
has no bearing on whether [the victim] possessed violent
propensities on June 8, 2009.
Id. at 13.
On appeal, the Opinion in Support of Affirmance (“OISA”) below recognized the
principle expressed in Amos that a defendant alleging self-defense may use a deceased
victim’s criminal record to prove the alleged violent propensities of the victim to show
that the victim was the aggressor, and further recognized that, to be admissible, the

[J?77-2014] [MO: Eakin, J.]-2

IW

victim’s crimes must be “similar in nature and not too distant in time" from the underlying
incident. Commonwealth v. Christine. 78 A.3d 1, 5 (Pa. Super. 2013) (OISA) (citing
Commonwealth v. Mouzon. 53 A.3d 738, 741 (Pa. 2012)).

However, without

acknowledging, as the trial court did, that Amos was distinguishable because the victim
in the instant case is not deceased, the OISA concluded the trial court in the instant
case properly excluded evidence of the victim’s simple assault conviction because the
offense was not "similar in nature” to the jailhouse altercation during which the victim
threw hot coffee onto and punched Appellant. Christine, 78 A.3d at 5 (OISA).
Although the Opinion in Support of Reversal (“OISR") below also concluded the
trial court properly precluded introduction of the victim’s conviction for simple assault, it
did so based on its belief that the victim’s simple assault conviction did not show a
propensity for violence on June 8, 2009, because the conduct underlying the conviction
was then a future event. Thus, the OISR would have affirmed the trial court’s ruling
because the victim’s "subsequent conviction for an event that transpired after the prison
incident should not be used ‘to retroactively establish [his] character’ at the time of the
incident.” Christine. 78 A.3d at 11-12 (OISR) (citation omitted).
The majority concludes that “the Superior Court did not err in determining the trial
court acted within its discretion by excluding [the victim’s] subsequent simple-assault
conviction," but declines to “endorse the claim that a subsequent conviction can never
be probative and admissible.” Majority Opinion at 8 (emphasis original). The majority
further opines: “Proximity in time is a factor, as is similarity of facts. Here we have 11
months between events, but a strikingly disparate factual scenario.” Id The majority
proceeds to affirm the trial court based on this factual disparity.
While l agree with the majority that the Superior Court did not err in affirming the
trial court’s holding, I disagree with its premise. Indeed, there is no case law supporting

[J-77-2014] [MO: Eakin, J.]-3

m

introduction of evidence of a victim’s subsequent conviction to demonstrate the victim’s
character for purposes of proving the victim was the aggressor. Both Amos and Beck
involved evidence of a deceased victim’s aggressive behavior which occurred prior to
their fatal altercations, and this Court has continued to limit introduction of evidence of a
victim’s convictions to those which occurred prior to the incident in which the victim is
alleged to have been the aggressor:
[A]s an evidentiary matter, this Court has held that when
self-defense is properly at issue, evidence of the victim’s
prior convictions involving aggression may be admitted, if
probative, either (1) to corroborate the defendant’s alleged
knowledge of the victim’s violent character, to prove that the
defendant was in reasonable fear of danger, or (2) as
character/propensity evidence, as indirect evidence that the
victim was in fact the aggressor.
Mouzon, 53 A.3d at 741 (emphasis added).
Thus, I would hold that the trial court properly precluded Appellant from
introducing evidence of the victim’s subsequent simple assault conviction to support
Appellant’s claim of self-defense pursuant to Rule 404(b)(1), and would not engage in
an analysis of whether the facts underlying the two altercations were sufficiently similar
in nature.

[J-77-2014] [MO: Eakin, J.] - 4

no

[J-77-2014J[M.O. - Eakin, J.]
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA,
Appellee

:

No. 8 MAP 2014
Appeal from the Order of the Superior
Court at No. 1893 EDA 2011 dated
August 30, 2013, affirming the judgment
of sentence of the Northampton County
Court of Common Pleas, Criminal
Division, at No. CP-48-CR-00033442009 dated 11/24/10

v.

JACOB MATTHEW CHRISTINE
Appellant

ARGUED: September 9, 2014

DISSENTING OPINION

MR. CHIEF JUSTICE SAYLOR

DECIDED: October 27, 2015

The majority relates that it "uphold[s] the ability of the trial court to duly consider
all things appropriate” and finds that the trial court did not abuse its discretion in
excluding Thomas Missero’s conviction. Majority Opinion, slip op. at 9. The difficulty
with this position, however, is that the trial court simply did not consider all things
appropriate or exercise any discretion whatsoever. Instead, that court implemented a
bright-line rule of law - presently disapproved by the majority -- permitting the
admission of evidence only of “prior incidents to prove the character or reputation of the
victim at the time of the crime in question.” Commonwealth v. Christine, No. 3344-2009,
slip op. at 13 (C.P. Northampton Apr. 26, 2011) (emphasis added).
Given the majority’s rejection of the per se evidentiary rule implemented by the
trial court -- and in the absence of any other supporting rationale deriving from that

m

court’s opinion --1 fail to see how the court’s decision, in any way, can be credited on its
own terms or otherwise denominated as an appropriate exercise of discretion.
In light of the above, the majority’s de novo evaluation of the overall
circumstances presented to determine admissibility appears to represent a form of a de
facto harmless-error assessment. In my view, however, Missero’s conviction, entailing
assaultive behavior within eleven months of the events giving rise to Appellant’s
judgment of sentence, is sufficiently probative of violent propensities that the trial court
had the discretionary latitude to admit the evidence.

See generally Pa.R.E. 405(b)

(sanctioning the admission of evidence of specific instances of conduct to prove a
character trait of an alleged victim where evidence of such trait is otherwise admissible
per the applicable rule).
In effectively holding to the contrary, the majority not only undertakes to
disapprove a salient per se facet of a previous decision of this Court by way of a
footnote, see Majority Opinion, slip op. at 8 n.9 (overturning an aspect of
Commonwealth v. Beck, 485 Pa. 475, 402 A.2d 1371 (1979)), but also appears to
implement an entirely countervailing bright-line approach.

The majority does so by

effectively suggesting that the subject instance of assaultive behavior on Missero’s part
-- because it reasonably can be couched as less severe than the conduct of the victim
alleged by the defendant and since it occurred approximately eleven months after the
prison incident -- simply could not have been admitted into evidence within the trial
court’s discretionary purview, had discretion actually been exercised.1 Thus, while the

To the degree to which the majority opinion would allow that the trial court actually had
discretion to permit the admission of the evidence of Missero’s subsequent assaultive
behavior, it would be necessary to apply a materially different approach to the question
of harmlessness. See infra.
[J-77-2014][M.O. - Eakin, J.] - 2

nr

majority purports to afford wide latitude to the discretionary evidentiary decisions of the
trial courts, I believe that the effect of its decision, in fact, is constrictive.
Rather than implementing a de novo appellate-level evidentiary ruling, I believe
that

an

appropriate

harmless-error analysis

should

center

on

whether

the

Commonwealth has demonstrated, beyond a reasonable doubt, that there is essentially
no possibility that the evidence of Missero’s assaultive behavior which was excluded by
the trial court for an erroneous reason could have made a difference in terms of the
outcome of Appellant’s trial. See generally Commonwealth v. Howard, 538 Pa. 86, 100,
645 A.2d 1300, 1307 (1994) (setting forth the standard governing harmless-error
review) (quoting Commonwealth v. Story, 476 Pa. 391, 409, 383 A.2d 155, 164 (1978).
In this regard, I tend toward the view of Judge Strassburger, expressed in his initial
memorandum opinion, as follows:
Appellant and Missero were the only witnesses to testify at
trial about who did what in Appellant’s cell on June 8, 2009.
Missero testified that Appellant ambushed him with the razor
blade. Appellant testified that Missero initiated the fight by
throwing coffee at him and coming after him with the razor
blade.
Clearly the evidence of Missero’s assaultive
character could persuade a jury to believe Appellant’s
version of events. As such, we cannot deem this to be
harmless error.
Commonwealth v. Christine, No. 1893 EDA 2011, slip op. at 10 (Pa. Super. Apr. 24,
2012) (withdrawn).
As to the admissibility of the shank found in Appellant’s cell, I would forego
addressing the issue, because I do not believe that the salient questions have been
framed and presented adequately. With respect to the admissibility of other-weapons
evidence, l find it important to distinguish between legal and illegal weapons, since the
latter also comprises evidence of other bad acts subject to the restrictions on

[J-77-2014][M.O. - Eakin, J.] - 3

P3

admissibility imposed under Pennsylvania Rule of Evidence 404(b).

See Pa.R.E.

404(b)(1) (“Evidence of a crime, wrong, or other act is not admissible to prove a
person s character in order to show that on a particular occasion the person acted in
accordance with the character.”).

While this rule admits of exceptions, see Pa.R.E.

404(b)(2) ("This evidence may be admissible for another purpose, such as proving
motive, opportunity, intent, preparation, plan, knowledge, identity, absence of mistake,
- or lack of accident”), such exceptions are subject to the following express and
important caveat: “In a criminal case this evidence is admissible only if the probative
value of the evidence outweighs its potential for unfair prejudice.” Id.
Accordingly, while I have little difficulty with the majority’s assessment that the
shank found under Appellant’s bed can be deemed relevant under the minimal
relevancy requirements set forth in our evidentiary rules, see Pa.R.E. 401 (providing
that [ejvidence is relevant if... it has any tendency to make a fact (of consequence in
determining the action] more or less probable than it would be without the evidence1'), I
find it noteworthy that Appellant would have been entitled to a more discerning
evaluation of probative value versus prejudice, had such question been raised and
preserved.2
In this regard, I also observe that our written and common-law evidential rules
protect against the use of evidence of specific conduct to prove propensity against a
criminal defendant, see Pa.R.E. 404(b)(1), 405(b), while affording latitude to defendants
2 Relevant to such balancing, I have otherwise expressed my belief that “the
presentation of other-weapons evidence is attended by a fairly high risk of undue
prejudice, and, therefore, courts should refrain from sanctioning admission absent a
strong and legitimate probative purpose justifying its introduction.” Commonwealth v
Hitch0> ___Pa-____,___.___ A.3d___ ,___, 2015 WL 5691067, at *36 (Sept. 29,
2015) (Saylor, C.J., concurring). Indeed, I believe that such prejudice is the reason
underlying the general prohibition in the first instance.

[J-77-2014][M.O. - Eakin, J.]-4

m

to use specific-conduct evidence of a victim’s propensity for violence in furtherance of
self-defense claims. See Pa.R.E. 405(b)(2); Commonwealth v. Mouzon, 617 Pa. 527,
532, 53 A.3d 738, 741 (2012).3 These principles are out of focus in the present case
both since the trial court’s decision was erroneous in several material respects
see
Majority Opinion, slip op. at 10-12, and because its effect was to allow for the admission
of specific-conduct-type evidence against the defendant (his constructive possession of
a shank) while excluding such evidence relevant to the victim

(Missero’s assault

conviction). In the circumstances, I do not find the other-weapons aspect of the appeal
to present a suitable context for adding clarity to the jurisprudence.
In summary, I would reverse the order of the Superior Court, since I agree with
the majority that the trial court’s actual evidentiary ruling concerning the admissibility of
the victim s assault conviction was predicated on an erroneous rationale. Further, to the
degree that the question of harmless error resides within the appropriate scope of this
appeal, I conclude that the Commonwealth has not satisfied its burden in this regard.

Although there is a lack of parity in these principles as between the interests of
criminal defendants and the Commonwealth, only the liberty (and, sometimes, the lives)
of the former are at stake in criminal proceedings.
Parenthetically, the evidentiary rules do establish some degree of equilibrium when a
defendant seeks to prove a character trait of an alleged victim by permitting the
Commonwealth to introduce reputation evidence and engage in cross-examination
relative to the same trait of the defendant. See Pa.R.E. 404(a)(2)(B)(ii) 405(a) The
rules, however, simply do not operate in this fashion relative to evidence of specific
instances of conduct. See Pa.R.E. 405(b).
[J-77-2014][M.O. - Eakin, J.]-5

115

APPENDIX M
Superior Ct. Of Pennsylvania, Case # 1893 EDA 2011
Order Affirming Trial Ct. Order on Enc Banc Reargunent
(Evenly divided decision—Op. In Support of Reversal Pg. 198)

r?*>

J-E01004-13
I

COMMONWEALTH OF PENNSYLVANIA,
Appellee

IN THE SUPERIOR COURT OF
PENNSYLVANIA

I
I
i
i

v.

i|

JACOB MATTHEW CHRISTINE,

i

No. 1893 EDA 2011

Appellant

Appeal from the Judgment of Sentence November 24, 2010
In the Court of Common Pleas of Northampton County
Criminal Division at No(s): CP-48-CR-0003344-2009
PER CURIAM ORDER

FILED AUGUST 30, 2013

The Court, being evenly divided, the Order of the Court of Common
Pleas is affirmed.
OPINION IN SUPPORT OF AFFIRMANCE BY MUNDY, J.

Bowes, J. and

Shogan, J. join. Gantman, J. concurs in the result.
OPINION IN SUPPORT OF REVERSAL BY OTT, J. Ford Elliott, P.J.E., Panella,
J. and Lazarus, J. join.
Stevens, P.J. did not participate in the consideration or decision of this case.

177

J-E01004-13

i

IN THE SUPERIOR COURT OF
PENNSYLVANIA

COMMONWEALTH OF PENNSYLVANIA
I

Appellee

i
i

v.

i
i

JACOB MATTHEW CHRISTINE

«
i

Appellant

No. 1893 EDA 2011

Appeal from the Judgment of Sentence November 24, 2010
In the Court of Common Pleas of Northampton County
Criminal Division at No(s): CP-48-CR-0003344-2009
BEFORE* STEVENS, P.J.,* FORD ELLIOTT, P.J.E., BOWES, J., GANTMAN, J-,
PANELLA, J., SHOGAN, J., LAZARUS, J., MUNDY, J., and OTT, J.
OPINION IN SUPPORT OF AFFIRMANCE BY MUNDY, J.:
Appellant, Jacob Matthew Christine, appeals from the November 24,
2010 aggregate judgment of sentence of nine to 20 years' imprisonment
imposed after a jury found him guilty of aggravated assault and recklessly
endangering another person (REAP).1 After careful review, we would affirm.
The trial court summarized the underlying facts of this case as follows.
The convictions resulted from an incident that
occurred in Northhampton County Prison (NCP) on
June 8, 2009. On that date, [Appellant] and the
victim, Thomas Missero, were inmates in NCP when a
confrontation between the two men occurred in
[Appellant's cell in Unit B-2. The cell housed 8
While in
inmates in four rows of bunk beds.
[Appellant's cell, [Appellant] was alleged to have
* President Judge Stevens did not participate in the consideration or decision of this case.
1 18 Pa.C.S.A. §§ 2702(a)(1) and 2705, respectively.

- 2-

m

J-E01004-13
slashed Mr. Missero's neck and ear with a razor
Immediately after the attack, corrections
blade.
Only one
officers searched [Appellant]'s cell.
weapon, a shank, was found in the cell. It was
hidden within [Appellant]^ bed.
Interestingly, [Appellant] testified at trial that
the victim came into his cell armed „with, a , razor
.
.
blade and attacked [Appellant]. [Appellant] claimed
that he successfully disarmed the victim, picked up
the razor from the floor and then unintentionally
sliced the victim when the victim continued to
threaten [Appellant]. Even though [Appellant] was
the last person to have control of the weapon, it. has
r ..
never been located. [The trial court] also note[d]
that there were no injuries suffered by [Appellant].
Trial Court Opinion, 4/26/11, at 1-2.
On July

14, 2009, the Commonwealth charged Appellant with

attempted criminal homicide2, aggravated assault and REAP.
proceeded to a three-day jury trial.

Appellant

On October 7, 2010, the jury found

Appellant guilty of aggravated assault and REAP, but found him not guilty of
attempted criminal homicide.
imposed an

On November 24, 2010, the trial court

aggregate sentence of nine to 20 years' imprisonment.

December 6,

2010, Appellant filed

a timely post-sentence

On

motion.4

2 18 Pa.C.S.A. § 901(a) (to commit 18 Pa.C.S.A. § 2501(a)).
* The trial court sentenced Appellant to nine to 20 years' imprisonment for the aggravated
assault charge and a concurrent term of one to two years imprisonment for REAP The
aggregate sentence was to run consecutively to the prison term Appellant was already
serving for unrelated offenses.
4 We note the fina| day for Appellant to timely file his post-sentence motion was December
4 20^0 whfch fell on a Saturday. See Pa.R.Crim.P. 720(A)(1) (stating that "a written
post-sentence motion shall be filed no later than 10 days ^fter .™po^!°f" ‘*n SaturdaY ^
When computing a filing period "[if] the last day of any such period shall fall on Saturday or
Sunday ... such day shall be omitted from the computation.
1 Pa.C.S.A. § lyua.

- 3 -

in

J-E01004-13
Appellants post-sentence motion was denied on April 26, 2011. On May 5,
2011, Appellant filed a timely notice of appeal.5
On April 24, 2012, a divided panel of this Court vacated Appellants
judgment of sentence and remanded the case for a new trial, concluding
that the trial court abused its discretion in not permitting Appellant to
introduce evidence of Missero's subsequent criminal convictions. On May 21,
2012, the Commonwealth filed a petition for reargument en banc.

This

Court granted the Commonwealth's petition on July 10, 2012, and the
previous panel memorandum was withdrawn.
In his substituted brief on reargument, Appellant raises three issues
for our review.
1.

Did the trial court abuse its discretion when it
refused to allow Appellant to present testimony
at trial regarding a criminal assault in the
alleged victim's criminal record?

2.

Did the trial court abuse its discretion when it
permitted the Commonwealth to introduce a
"shank" as physical evidence as; well as
testimony regarding said shank in the course
of the jury trial in the instant matter?

3.

Was the sentence imposed contrary to the
norms which underlie the sentencing process
and does this case involve circumstances
where the application of the sentencing
guidelines was clearly unreasonable?

Appellant's Brief at 4.
Therefore, Appellant's deadline to file a timely post-sentence motion was Monday,
December 6, 2010.
5 Appellant and the trial court have complied with Pa.R.A.P .1925.

-4 -

\$o

J-E01004-13
In Appellant's first two issues on appeal, he challenges the trial court's
rulings regarding the admission of evidence at trial. We begin by noting our
well-settled standard of review over such matters.
Admission of evidence ... rests within the sound
discretion of the trial court, which must balance
evidentiary value against the potential dangers of
unfairly prejudicing the accused, inflaming the
passions of the jury, or confusing the jury. We
reaffirm our confidence in our trial judges to oversee
the presentation of evidence so that overtiy
passionate, intentionally biased and inflammatory
material is kept out of the courtroom. We w,l
reverse a trial court's decision as to admissibility of
evidence only if [Appellant] sustains the heavy
burden to show that the trial court has abused its
discretion.
Commonwealth v. Bryant, 67 A.3d 716, 726, (Pa. 2013) (citations and
internal quotation marks omitted).
First, Appellant avers that the trial court erred in precluding him from
"questioning Missero

regarding [a] simple assault charge" which "Missero

had plead [sic] guilty to, and was sentenced for."

Appellant's Brief at 9.

Appellant further argues that "[t]his cross examination would

have

substantially proven the 'alleged violent propensities of the victim to show
that the victim was in fact the aggressor.

Id. at 10-11, quoting

Commonwealth v. Carbone, 707 A.2d 1145, 1154 (Pa. Super. 1998),
appeal discontinued, 727 A.2d 1116 (Pa. 1998).
counters

The Commonwealth

, and the trial court concluded, that "[a] subsequent act of violence

cannot be considered an

indicator of someone's propensity for violence in

K\
- 5 -

J-E01004-13
the past."

Commonwealth's Brief at 16; see also Trial Court Opinion,

4/26/11, at 13 (stating, "[a] subsequent conviction arising from events that
transpired after the incident involving [Appellant] simply has no bearing on
whether Misero [sic] possessed violent propensities on June 8, 2009[]")
(footnote omitted).
Our Supreme Court has held that "as far back as 1884, [Pennsylvania
courts have] permitted the

introduction of character evidence to prove the

decedent's violent propensities, where self-defense is asserted and where
there is an issue as to who was the aggressor.

" Commonwealth v. Dillon,

598 A.2d 963, 965 (Pa. 1991), citing Alexander v. Commonwealth, 105
Pa. 1, 9 (1884). Further, our

Supreme Court has specifically held that the

victim's criminal record can be admissible on two distinct grounds.
(1) to corroborate [the defendant's] alleged
knowledge of the victim's quarrelsome and violent
character to show that the defendant reasonably
believed that his life was in danger; or (2) to prove
the allegedly violent propensities of the victim to
show that the victim was in fact the aggressor.

Nor do we mean to suggest that our decision
here abandons the rule ennunciated [sic] in
[Abernethy v. Commonwealth, 101 Pa. 322
(1882)1 that the defendant must first establish a
foundation of his knowledge of the victim s
introduce , the
he
can .....
convictions
before
corroboratory record when the defendant is seeking
to prove his belief that he was in imminent danger of
bodily harm. Here again, the determination whether
or not the defendant demonstrates a sufficiently

Itfz.
- 6-

J-E01004-13
particular knowledge of the victim's record rests
within the sound discretion of the trial court.
Commonwealth v. Amos, 284 A.2d 748, 303, 305 (Pa. 1971).

We

highlight that our Supreme Court held that a defendant must lay a
foundation for his knowledge of the victim's convictions only when he "is
seeking to prove his belief that he was in imminent danger of bodily harm."
Id. at 305

It therefore logically follows that a defendant need not establish

knowledge of the victim's record in order "to prove the allegedly violent
propensities of the victim to show that the victim was in fact the aggressor."
Id. at 303. In every case, the defendant is also required to show that the
convictions sought to be introduced are similar in nature and not too distant
in time" from the underlying incident.
A.3d 738, 741 (Pa. 2012).

Commonwealth v. Mouzon, 53

Because Appellant wished to use Missero's

subsequent conviction to establish the second Amos ground as opposed to
the first, Appellant was not required to show specific knowledge of the
conviction. See Amos, supra at 303, 305.
Applying Amos to the case sub judice, we conclude the trial court did
not abuse its discretion.

The facts stemming from Missero's subsequent

conviction were as follows.
May 1st of 2010, Nazareth
[Defense Counsel]:
Police were called to the American Hotel in Nazareth
for a report of an assault, Thomas Missero was
outside and his girlfriend was there, Melissa Miller.
She claimed that [Missero] had grabbed her and
pushed her. She had minor damage to her ear as a

m
-7-

J-E01004-13
result of falling, I guess, from the push, and that he
had threatened her.
N.T., 10/5/10, at 27. As a result, Missero pled guilty to simple assault and
REAP.

Id. at 27-28. The trial court concluded that Missero's subsequent

convictions "[do not] really demonstrate violent propensities. "
We agree

Id. at 29.

In our view, this offense is not "similar in nature" to the events

that Appellant alleged transpired on June 8, 2009.

Mouzon, supra; see

also N.T., 10/6/10, at 45-47 (stating that Missero threw a hot cup of coffee
on

Appellant and punched him multiple times). As a result, we conclude that

the trial court did not abuse its discretion in excluding evidence regarding
Missero's subsequent convictions.

See Bryant, supra.

As a result,

Appellant's first claim fails.
In his second issue, Appellant avers that the trial court abused its
discretion in denying his motion in limine to preclude the Commonwealth
from introducing the shank found in Appellant's bed and testimony regarding
it.

Appellant's Brief at 13.

Appellant argues that the shank should have

been excluded given the Commonwealth's concession that the shank was not
the weapon used in the underlying incident,

Id.

The Commonwealth

counters that the shank was relevant to show "that [Appellant] had a
weapon

similar to the one used in the perpetration of the crime."

Commonwealth's Reply Brief at 9.
Pennsylvania Rule of Evidence 401 addresses relevancy and provides
as follows.

m
- 8-

J-E01004-13
Rule 401. Test for Relevant Evidence
Evidence is relevant if:
(a) it has any tendency to make a fact more or less
probable than it would be without the evidence; and
(b) the fact is of consequence in determining the
action.
Pa.R.E. 401; see also Pa.R.E. 402 (stating, "[a]ll relevant evidence is
admissible, except as otherwise provided by law ... [but e]vidence that is not
relevant is not admissible[]").
specifically

linked

to

a

In Pennsylvania, a weapon that "cannot be

crime"

is

generally

inadmissible

at

trial.

Commonwealth v. Robinson, 721 A.2d 344, 351 (Pa. 1998), cert, denied,
Robinson v. Pennsylvania, 528 U.S. 1082 (2000).

However, this Court

has consistently noted an exception to this rule.
A weapon shown to have been in a defendant's
possession may properly be admitted into evidence,
even though it cannot positively be identified as the
weapon used in the commission of a particular crime,
if it tends to prove that the defendant had a weapon
similar to the one used in the perpetration of the
crime.
Commonwealth v. Williams, 58 A.3d 796, 801 (Pa. Super. 2012), quoting
Commonwealth v. Owens, 929 A.2d 1187, 1191 (Pa. Super. 2007),
appeal denied, 940 A.2d 364 (Pa. 2007).
In Williams, the appellant was charged and convicted of seconddegree murder stemming from a shooting that began outside a bar in
Philadelphia. Id. at 797. As part of its case, the Commonwealth introduced

-9-

J-E01004-13
into evidence a

"photograph they discovered on [the appellant's phone,

which showed [the appellant posing with a Walther P-38 9-mm pistol." Id.

at 801.

The photograph was admitted despite the fact that the

Commonwealth's ballistics expert testified "upon examining the bullets and
casings found at the crime scene, [the Commonwealth's expert] determined
that the victim was not killed with a
semi-automatic weapon."
of the photograph, even

Walther P-38, but more likely, a .380

Jd. On appeal, this Court upheld the admission

though the Commonwealth did not believe the gun

in the photograph was the murder weapon.
In this case, the photograph of Appellant
proudly displaying a P-38 Walther nearly five days
before the murder was relevant to show that
Appellant had possession and control of a weapon
to commit his crimes.
similar to the one used
l
Appellant claims that [a friend] gave the P-38
Walther firearm to him "to hold" immediately before
the shooting.
Admission of the photograph
challenges Appellant's claim that this firearm did not
belong to him and shows Appellant had access to a
firearm similar to the one witnesses claimed he ™as
holding when threatening the victim on the night of
the murder.
Id. As a result, we

concluded that the trial court did not abuse its discretion

in admitting the photograph. Id.
In this case, Thomas Missero, the victim, testified about the weapon
used to attack him, and claimed that it was not his weapon.
Q:

Did you see anything in [Appellant]'s hand?

- 10 -

J-E01004-13
I didn't see nothing in his hand until afterward,
A:
I realized I was cut, and it was a modified razorblade
lying on the ground covered in blood.
You saw the razorblade on the ground in
Q:
blood?
A:

Yes, I did.

Q:

Can you describe that for the jury, please?

It was a razor made out of like a regular
A:
normal Bic Razor that you get from the dollar store,
they issue them in the prison. The blade was taken
out, and at the end it had paper or tape wrapped
around it with the blade sticking out maybe an inch.
Q

How long was the taped part you saw?

A

Just the taped part was about 2 inches.

Q

And that was attached to the razorblade itself?

A

Yes.

Q

And you only saw this on the ground?

A

Yes.

Q

Did you have a razorblade on you?

A

No, I did not.

N.T., 10/5/10, at 63-64 (emphasis added).
However, Appellant presented a different version of events,

At the

outset, in her opening statement, defense counsel argued to the jury that
Appellant acted in self-defense and claimed that it was actually Missero that
had the razorblade and brought it into the cell. See id. at 51 (stating to the
jury that Appellant "was minding his own business when Thomas Missero
- li -

1*7

J-E01004-13
hot cup of coffee thrown on him, punches go,
into
his
cell,
there's
a
came
razorblade coming at him, and Tom Missero takes a slice
and then he sees a
at him, doesn't hit him[]"). Appellant later testified in his own defense as to
his version of events.
What happened [when you tried to exit the

Q:

cell]?
AI never actually made it outside of the ceM.
When I saw [Missero], he made eye contact with me
I noticed he had a hot cup of coffee in his hand, a
steaming hot cup of coffee I don't too*, wha was
in his other hand, I don't know if he had J raz°
in his hand or concealed some other place in
his body.

Q:

Was [Missero] saying anything to you?

He didn't say anything to me. As soon as he
A:
saw me he ran towards me, I took some steps back
Mo the' cell, retreating, wondering If be « *
nnina to enter the cell and attack me. He did.
9 into the cell, he threw the whole cup of coffee at
ran
me luckily he missed me with that, because tha
nrabablv might have blinded me and I would have
reaSy got hurt then. We kind of engaged in a
scuffle.9 I'm scared. I know he means business, I
know he's trying to hurt me. I'm afraid for my life.
We exchanged some punches, we exchanged som
hinws
Il kind of covered my face ... to protec
myself. When I brought my hands down I noticed
he had a razorblade in his hand and took a
swioe at me. We were probably like in the middle

reaPof tde cel, b, now. I kicked bln,. Ldckd,

birsIdeTgott™ » ™d
™d pulled blm
picked it up. But he
hot cup of coffee and it was his
- he had brought a

- 12 -

m

J-E01004-13
intention to throw the hot cup of coffee at me, blind
me and cut me.
N.T., 10/6/10, at 45-47 (emphases added).
The Commonwealth provided the testimony of Corrections Officer
Nathan Picone. Officer Picone testified that he helped search Appellants cell
immediately after the incident and discovered the shank in question.
Q:
What did you do once you got to [Appellant's
cell]?
Once we noticed all of the bloody towels
A:
blood splattering in the cell, we then took
inmates housed in cell 3 and split them up. We
them up in different rooms around the block.
lieutenant then went and talked to each
individually.
Q:

and
the
split
The
one

Would that be Lieutenant Lamont?

That would be Lieutenant Lamont. I, myself,
A:
and a few other officers then proceeded to shake
down cell number 3.
Q:

And did you find anything?

Yes, I did. ... I personally found in what was
A:
later identified as [Appellants bed, there was a
small rip in the plastic cover of the bed. I ripped it
open and I found a large metal object... with a sharp
point and a handle wrapped around it, which is a
piece of cloth wrapped real tight so they can have a
grip on it. We identified that as a shank.
[F]or the record, could you say how long
Q:
[the shank] was?
A:

18 to 20 inches.

m
r 13 “

J-E01004-13
Q:
... [W]ere you able to determine how
[Appellant] got th[e] metal rod [used in the shank]?
Yes, there was a metal bookcase in the, I
A:
forget the name of the room, They have a room
where they do church services or when they want to
watch movies on T.V.
Is that the multipurpose room?

Q:

A:
That would be the multipurpose room, in zna\.
room there is a bookcase, you know several stacks
of books on it, that rod was, in particular, one of the
many rods that the books go on.
Id. at 37-40.
Appellant avers that the shank and testimony surrounding it were
irrelevant

and

inadmissible

because

the

Commonwealth

"specifically

indicate^] ... to [the trial court] on the record that '[i]t was not the weapon
used in this incident

/" Appellant's Brief at 15, quoting N.T., 10/5/10, at 12.

While the shank was not the weapon used in this case, it does not
not relevant The Commonwealth
automatically follow that the shank was
avers that although the razor in the fight and the shank had different blade
lengths, the two weapons were
Brief at 9. Specifically, the

nevertheless similar. Commonwealth's Reply

Commonwealth argues that "both the razor and

the shank had cloth or tape at the end of the instrument in order to have a
handle on it.

" Id. Indeed, the testimony at trial does reveal this distinctive

characteristic of both weapons.
stating, "[the razor] blade ..
around it

Compare N.T., 10/5/10, at 63 (Missero

at the end it had paper or tape wrapped

with N.T., 10/6/10, at 37 (Officer Picone describing the
\

- 14 -

J-E01004-13
q.

[W]ere you able to determine how
[Appellant] got th[e] metal rod [used in the shank]?
Yes, there was a metal bookcase in the, I
A:
forget the name of the room, They have a room
where they do church services or when they want to
watch movies on T.V.
Q:

Is that the multipurpose room?

That would be the multipurpose room, In that
A:
room there is a bookcase, you know several stacks
of books on it, that rod was, in particular, one of the
many rods that the books go on.
Jcf. at 37-40.
Appellant avers that the shank and testimony surrounding it were
irrelevant

and

inadmissible

because

the

Commonwealth

"specifically

indicated] ... to [the trial court] on the record that '[i]t was not the weapon
used in this incident.'" Appellant's Brief at 15, quoting N.T., 10/5/10, at 12.
While the shank was not the weapon used in this case, it does not
automatically follow that the shank was not relevant. The Commonwealth
avers that although the razor in the fight and the shank had different blade
lengths, the two weapons were nevertheless similar. Commonwealth s Reply
Brief at 9. Specifically, the Commonwealth argues that "both the razor and
the shank had cloth or tape at the end of the instrument in order to have a
handle on it. " Id. Indeed, the testimony at trial does reveal this distinctive
characteristic of both weapons,
stating, "[the razor] blade
around it

Compare N.T., 10/5/10, at 63 (Missero

at the end it had paper or tape wrapped

with N.T., 10/6/10, at 37 (Officer Picone describing the

- 14 -

W\

J-E01004-13
shank as "a sharp point and [having] a handle wrapped around it, which is a
piece of cloth wrapped real tight so they can have a grip on it[] )
(emphases added).
In our view, the distinctive manner in which Appellant created handles
on both weapons for easy gripping makes the shank "a weapon similar to
the one used in the perpetration of the crime," which is what our cases
require.

Williams, supra.

We note that Missero did testify that razor

blades were issued to inmates at the prison.

See N.T., 10/5/10, at 65.

While a generic razor blade, the main component of the weapon in this case,
is not unique, it is the intentional and specific modification of the razor
and the bookcase's metal rod into makeshift weapons, that makes both of
them distinctive. See id. at 64; N.T., 10/6/10, at 39-40.
Additionally, as noted above, Appellant's theory of the case was that
the razorblade was not his weapon, but rather was Missero's weapon. See
N.T., 10/6/10, at 46. Therefore, the possession of the razorblade was also
at issue in the trial.6 The shank therefore "tend[ed] to make [the] fact more

6 Although Appellant relies on our Supreme Court's decision in Robinson, we find that case
to be distinguishable. In Robinson, the Commonwealth introduced a Bulldog 44 SPL
revolver even though "there was never any doubt that the murder weapon was a 9
millimeter gun." Robinson, supra at 352. The trial court concluded that the revolver was
relevant "in order to support the testimony that appellant was carrying the gun in his
waistband at the time of the murder." Id. Our Supreme Court disagreed and concluded
that the revolver did not tend to establish any material fact in the case.
[T]here was never any doubt that the murder weapon was a 9
millimeter gun, thus the introduction of the .44 was not
relevant to the inquiry of whether the appellant had a weapon
or implement suitable to commit the instant crime. In addition,
Tara Hodge testified that appellant pulled a gun out of his

- 15 -

J-E01004-13
... probable" that Appellant "had the ability to fashion a homemade weapon
from objects in the prison." Pa.R.E. 401; Trial Court Opinion, 4/26/11, at 7.
The fact that the Commonwealth and Appellant agree that the shank was not
the weapon used to attack Missero does not suddenly render the shank nonprobative.

See Williams, supra; Commonwealth v. Kubis, 978 A.2d

391, 395 (Pa. Super. 2009) (concluding that knives found in the appellant's
car were relevant at trial for robbery to show that the appellant was more
likely to have threatened to stab the victim even though "no knife was
physically produced during the robbery"); Commonwealth v, Boaster, 863
A.2d 588, 591, 592 (Pa. Super. 2004) (permitting admission of a discarded
handgun into evidence to show that the appellant "readily obtained
handguns of the same caliber used in the murder" even though the
"Commonwealth conceded at trial that the discarded gun was not the
murder weapon"), appeal denied, 876 A.2d 392 (Pa. 2005).
Based on the aforementioned considerations, we conclude that the
shank was relevant and admissible at trial. We further agree with the trial
court that the probative value of the shank was not outweighed by its
prejudicial effect. See Trial Court Opinion, 4/26/11, at 8; Pa.R.E. 403. As a
sweats and shot her; and that the gun that appellant used was
black and silver. This testimony was not disputed. We fail to
see how testimony regarding where appellant had the gun on
his person was of any value to the instant inquiry.
Id. However, in this case, there was a factual dispute as to whether or not Appellant had
See N.T., 10/5/10, at 64; N.T., 10/6/10, at 46-47.
the razorblade on his person.
Therefore, testimony regarding Appellant's possession of similar makeshift weapons was
certainly of "value to the instant inquiry." Robinson, supra at 352.

- 16 -

J-E01004-13
result, the trial court did not abuse its discretion by allowing the
Commonwealth to introduce it into evidence.

See Bryant, supra.

Therefore, Appellant is not entitled to relief on this issue.
In his final issue, Appellant avers that the sentence imposed by the
trial court was "manifestly excessive" and unreasonable. Appellants Brief at
18. Our standard of review in assessing whether a trial court has erred in
fashioning a sentence is well settled.
[T]he proper standard of review when considering
whether
to
affirm
the
sentencing
court's
determination is an abuse of discretion. [A]n abuse
of discretion is more than a mere error of judgment;
thus, a sentencing court will not have abused its
discretion unless the record discloses that the
judgment exercised was manifestly unreasonable, or
the result of partiality, prejudice, bias, or ill-will. ...
An abuse of discretion may not be found merely
because an appellate court might have reached a
different conclusion, but requires a result of manifest
unreasonableness, or partiality, prejudice, bias, or
ill-will, or such lack of support so as to be clearly
erroneous.
Commonwealth v. Provenzano, 50 A.3d 148, 154 (Pa. Super. 2012)
(citation omitted). We observe that Appellant does not challenge the legality
of his sentence, but rather his argument goes to the discretionary aspects of
his sentence. Appeals regarding the discretionary aspects of sentencing are
not reviewable as a matter of right. Commonwealth v. Mastromarino, 2
A.3d 581, 585 (Pa. Super. 2010) (citation omitted), appeal denied, 14 A.3d
825 (Pa. 2011). In order for this Court to review the discretionary aspects
of his sentence, Appellant must comply with the following.

- 17 -

J-E01004-13
[W]e must ... determine: (1) whether the appeal is
timely; (2) whether Appellant preserved his issue;
(3) whether Appellant's brief includes a concise
statement of the reasons relied upon for allowance of
appeal with respect to the discretionary aspects of
sentence; and (4) whether the concise statement
raises a substantial question that the sentence is
appropriate under the sentencing code.
Commonwealth v. Carrillo-Diaz, 64 A.3d 722, 725 (Pa. Super. 2013)
(citation omitted).
Instantly, Appellant has filed a timely notice of appeal, as well as a
timely post-sentence motion, and Appellant has included a Rule 2119(f)
statement in his brief. Therefore, the only remaining issue before we may
address the merits of Appellant's claim is whether he has raised a
substantial question for our review.
"A substantial question will be found where the defendant advances a
colorable argument that the sentence imposed is either inconsistent with a
specific provision of the [sentencing] code or is contrary to the fundamental
norms which underlie the sentencing process." Commonwealth v. Booze,
953 A.2d 1263, 1278 (Pa. Super. 2008) (citation omitted), appeal denied,
13 A.3d 474 (Pa. 2010); see a/so 42 Pa.C.S.A. § 9781(b). "We determine
whether a particular case raises a substantial question on a case-by-case
basis."

Commonwealth v. Corley, 31 A.3d 293, 297 (Pa. Super. 2011)

(citation omitted).

"Additionally, we cannot look beyond the statement of

questions presented and the prefatory 2119(f) statement to determine
whether a substantial question exists." Provenzano, supra.

IS5
- 18 -

J-E01004-13
In his Rule 2119(f) statement, Appellant raises the following issue.
Under the circumstances of the instant matter,
specifically that a dispute arose in the prison
between
inmates,
that there is significant
disagreement as to the circumstances under which
the alleged assault occurred, along with numerous
other factors, the sentence in the instant matter is
manifestly unreasonable and creates a substantial
question as to the appropriateness of the sentence
imposed to warrant [a]ppellate review.
Appellant's Brief at 8.

We note that a generic claim that a sentence is

excessive does not raise a substantial question for our review.

See

Commonwealth v. Harvard, 64 A.3d 690, 701 (Pa. Super. 2013) (stating,
"a bald assertion that a sentence is excessive does not by itself raise a
substantial question justifying this Court's review of the merits of the
underlying claim[]").

Additionally, this Court has repeatedly held that an

allegation that the trial court failed to consider particular circumstances or
factors in an appellant's case go to the weight accorded to various
sentencing factors and do not raise a substantial question. Commonwealth
v. Griffin, 65 A.3d 932, 936 (Pa. Super. 2013); accord Commonwealth v.
Cannon, 954 A.2d 1222, 1228-1229 (Pa. Super. 2008).

Therefore,

Appellant has not raised a substantial question for our review.

See

Carrillo-Diaz, supra.
Based on the foregoing, we conclude that the trial court did not abuse
its discretion in admitting the shank found in Appellant's bed, nor in refusing
to permit evidence regarding Missero's subsequent conviction.

We further

1%
- 19 -

J-E01004-13
2013 PA Super 246

COMMONWEALTH OF PENNSYLVANIA
Appellee

i

IN THE SUPERIOR COURT OF
PENNSYLVANIA

i

i
i

v.

i

JACOB MATTHEW CHRISTINE
Appellant

|
i
i

No. 1893 EDA 2011

Appeal from the Judgment of Sentence November 24, 2010
In the Court of Common Pleas of Northampton County
Criminal Division at No(s): CP-48-CR-0003344-2009
BEFORE: STEVENS, P.J.,* FORD ELLIOTT, P.J.E., BOWES, J., GANTMAN, J.,
PANELLA, J,, SHOGAN, J., LAZARUS, J., MUNDY, J., and OTT, J.
OPINION IN SUPPORT OF REVERSAL BY OTT, J.

FILED AUGUST 30, 2013

Although I agree that the trial court properly precluded cross
examination questioning of the victim, Thomas Missero, regarding his simple
assault conviction, I write separately to express my view that the conviction
was not relevant because the conviction and underlying conduct occurred
subsequent to the prison incident. Furthermore, I cannot agree that the trial
court properly allowed the shank found in Christine's bed into evidence,

* President Judge Stevens did not participate in the consideration or decision
of this case.

I6)6!

J-E01004-13

where there was no dispute that a razor blade was used in the incident and
there was evidence that razors were readily available in the prison.1
In Commonwealth v. Amos, 284 A.2d 748 (Pa.

1971), the

Pennsylvania Supreme Court held that when self-defense is properly at
issue, the victim's record is admissible "either (1) to corroborate [the
defendant's] alleged knowledge of the victim's quarrelsome and violent
character to show that the defendant reasonably believed that his life was in
danger; or (2) to prove the allegedly violent propensities of the victim to
show that the victim was in fact the aggressor." Id. at 751 (footnote
omitted).

However, whereas Amos involved evidence of the decedent's

prior aggressive behavior, at issue in this case is the victim's, Missero's,
subsequent simple assault conviction for post-incident conduct.
I am of the view that a subsequent conviction for post-incident
conduct that is offered to prove the character of a victim is irrelevant, since
the conviction does not establish either of the two grounds set forth in
Amos, supra.
As discussed, Missero's June 24, 2010 simple assault conviction
resulted from an incident, occurring on May 1, 2010, in which Missero
grabbed and pushed his girlfriend outside of a hotel, and she sustained

1 Based on my view that the trial court erred in admitting the shank and a
new trial is therefore warranted, I do not address Christine's discretionary
aspects of sentencing claim.

- 2 -

Zoo

J-E01004-13

minor injuries.

Since the conviction and underlying offense occurred after

the June 8, 2009 prison incident, there would be no basis for Christine to
have knowledge of Missero's aggressive behavior,

Moreover, Missero's

conviction does not show a propensity for violence on June 8, 2009, because
Missero's May 1, 2010 conduct was a future event.
In my view, the only relevant time period for purposes of proving a
victim's, in this case, Missero's, character is the time period up until the
occurrence of the confrontation. Therefore, I would affirm the trial court's
ruling on the basis that Missero's subsequent conviction for an event that
transpired after the prison incident should not be used "to retroactively
establish [his] character" at the time of the incident. Trial Court Opinion,
4/26/2011, at 13.
Turning to the second issue, Christine's claim that the trial court
improperly allowed introduction of the shank into evidence, I note that
Pennsylvania Rule of Evidence 401 defines "relevant evidence" as that which
has "any tendency to make the existence of any fact that is of consequence
to the determination of the action more probable or less probable than it
would be without the evidence." Pa.R.E. 401. "Evidence that is not relevant
is not admissible."

Pa.R.E. 402. It merits emphasis that in this case the

-3-

2o\

J-E01004-13

Commonwealth conceded that the shank was not the weapon used to Injure
Missero.2
In Commonwealth v. Robinson, 721 A.2d 344 (Pa. 1998), cert,
denied, 528 U.S. 1082 (2000), the Pennsylvania Supreme Court addressed
the issue of the admissibility of a weapon that is not the weapon used in the
crime, explaining:
The general rule is that where a weapon cannot be specifically
linked to a crime, such weapon is not admissible as evidence.
However, there is an exception to this general rule where the
accused had a weapon or implement suitable to the commission
of the crime charged. [This weapon] is always a proper
ingredient of the case for the prosecution.
Id., 721 A.2d at 351 (quotations and citations omitted). The Robinson
Court determined that the exception allowing the admission of a weapon of
the accused "suitable to the commission of the crime charged" did not apply
where the admitted evidence consisted of photographs of the defendant
holding a gun that "in no way was implicated as the possible murder

2 See N.T., 10/5/2010, 45-46 (Commonwealth's opening statement) ("The
defendant's cell was searched right after the incident. They did not find the
razor that caused this incident or caused the slicing, what they did find was
another instrument that had been fashioned by the defendant."). See also,
id. at 12 (in-chambers discussion regarding Christine's motion in limine)
("THE COURT: ... Was there a shank that was recovered that was alleged to
be the weapon in this incident? [COMMONWEALTH'S ATTORNEY]: It was
not the weapon used in this incident... We believe a razorblade was used, no
razorblade was found. Right after the incident they searched [Christine's]
cell, what they found was a shank. The Commonwealth intends to introduce
the shank even though we do not believe that that is the instrument that
was used.").

-4-

Zor

J-E01004-13
weapon." Id- at 351. Robinson also found that a .44 caliber revolver was
not relevant, as the murder weapon was a 9 millimeter gun. Id- at 352.
Later, in Commonwealth v. Marshall, 743 A.2d 489 (Pa. Super.
1999), appeal denied, 757 A.2d 930 (Pa. 2000), a panel of this Court
considered the admissibility of a weapon that had been in police custody at
the time of the crime, and could not have been the weapon the defendant
used in the crime. The Marshall Court stated: "Herein, appellant's gun was
possessed by the police at the time of the homicide. Therefore, it was not
relevant to.show that appellant possessed the means to commit the murder.
Moreover, the gun was clearly prejudicial since it was the same caliber as
the murder weapon." Id-, 743 A.2d at 493.
In the present case, the shank introduced into evidence at trial was a
"large metal object ... with a sharp point and a handle wrapped around it,
which [was] a piece of cloth[.]"

N.T., 10/6/2010, at 38.

approximately "18 to 20 inches" long.3 Id-

It was

However, both Christine and

Missero testified that the weapon involved in the confrontation was a razor
blade.

Missero testified that when he realized he was cut, he saw "a

modified razor blade laying on the ground covered in blood."
10/5/2010 at 63-64.

N.T.,

He described the weapon that caused his injuries as

3 The metal rod used to fashion the shank was taken from a metal bookcase
in a common room of the prison. N.T., 10/6/2010, at 39.

- 5-

„

J-E01004-13
"a razor made out of like a [] normal Bic Razor that you get from the
[DJollar [S]tore, they issue them in prison. The blade was taken out, and at
the end it had paper or tape wrapped around it with the blade sticking out
maybe an inch." Id. at 64.

"[T]he taped part was about 2 inches." Id.

Christine, in his defense, also claimed the weapon was a razor blade, stating
that Missero had attacked him with "a very small razorblade, typical
razorblade you find and something you shave your face with, about ... an
inch long." N.T., 10/6/2010, at 48.
Guided by Robinson and Marsha!!, I am of the view that the shank
should not have been admitted into evidence.

Here, there was no dispute

that the shank was not the weapon used in the fight.

Further, there was

testimony in this case that razor blades were readily available to inmates at
the prison.4
testimony.

Moreover, the shank did not corroborate or rebut any
While the trial court opined that the presence of a shank in

Christine's bed "tends to rebut [Christine's] assertion that he was unarmed
and acted in self-defense,"5 I cannot agree that Christine's self-defense

4 See N.T., 10/5/2010, at 65 (testimony of Missero that the prison issued
razors to new prisoners); N.T., 10/6/2010, at 21 (testimony of Daniel Rice, a
fellow inmate, that razors "were given out" by the prison and "you can
purchase them.").
5 Trial Court Opinion, 4/26/2011, at 8.

-6-

ZoH

J-E01004-13
claim is rebutted by the fact that a different weapon was found in his bed.6
Therefore, I would find merit in Christine's claim that the trial court erred in
admitting the shank into evidence.
The question remains, then, whether the erroneously admitted
evidence constituted harmless error.

An error will be deemed harmless

where the appellate court concludes beyond a reasonable doubt that the
error could not have contributed to the verdict. Commonwealth v. Story,
383 A.2d 155, 164 (Pa. 1978).
Harmless error exists where: (1) the error did not prejudice the
defendant or the prejudice was de minimis; (2) the erroneously
admitted evidence was merely cumulative of other untainted
evidence which was substantially similar to the erroneously
admitted evidence; or (3) the properly admitted and
uncontradicted evidence of guilt was so overwhelming and the
6 The Opinion in support of affirmance cites Commonwealth v. Williams,
(Pa. June
A.3d
58 A.3d 796, 801 (Pa. Super. 2012), appeal denied,
7, 2013), in support of its position that the trial court properly admitted the
shank into evidence. In Williams, a panel of this Court upheld the trial
court's ruling that allowed the admission of a photograph discovered on
defendant's phone that showed him posing with a Walther P-38 9-mm pistol,
even though the Commonwealth's expert determined that the murder
weapon was more likely a .380 semi-automatic weapon. Id. at 801. The
Williams Court reasoned that the photograph showing appellant with the
pistol five days before the murder was relevant to show, inter alia, that he
had "access to a firearm similar to the one witnesses claimed he was holding
when threatening the victim on the night of the murder." Id.
Williams, however, is distinguishable, since in this case there was evidence
that a razor blade — the actual weapon used in the incident — was available
to inmates in the prison. Furthermore, the shank and razor blade were not
"similar" as were the guns in Williams. A comparison of the descriptions of
the shank and razor blade shows that these weapons did not share any
unique or distinctive characteristics.

- 7-

Zoo

J-E01004-13
prejudicial effect of the error was so insignificant by comparison
that the error could not have contributed to the verdict.
Robinson, supra, at 721 A.2d at 350 (citations omitted).
Review of the trial testimony reveals the following accounts of the
incident.

Missero testified that on June 8, 2009, he had only been in the

prison unit for 30 to 45 minutes, following one and one-half days in the
intake unit.

He had finished eating dinner with inmate Jeffrey Rice, when

another inmate, Luis Vega, motioned Missero to come over to him. Missero
was assigned to Cell 5, and Vega was standing in front of Cell 3, which was
Christine's cell. After Missero approached him, Vega asked Missero if he had
any tobacco. Before Missero could answer, he testified Christine came from
behind the doorway of Cell 3, and pulled him into the cell by grabbing his
shirt. Christine started hitting him and yelling, "[Yo]u owe me $20."7 When
Christine eventually stopped, Missero saw blood on his shoe, and inmates

were telling him he had "to go to medical" because his neck was "wide
open."8 While Christine was punching him, Vega "closed the [cell] door and
blocked the view of the officer."9 Afterward, Missero noticed a razor blade
covered in blood laying on the ground.

7N.T., 10/5/2010, at 61.
Id. at 62.
9 Id. at 63.

-8-

Missero stated he did not know

J-E01004-13

Christine. He testified he did not have a razor blade on him. He stated the
prison issued razors, but he had not been issued a razor.10 After Missero
was cut, Christine told Missero to give him his sneakers.

Missero refused,

and walked to the corrections officer, who summoned help.

See N.T.,

10/5/2010, at 57-68.
According to Christine, he was reading in his cell when Missero entered
the cell to talk to Christine's cellmate, Luis Vega, about tobacco.

When

Missero saw Christine, Missero ran towards Christine and threw a hot cup of
coffee at him, but missed, and they engaged in a fight.

Christine noticed

Missero had a razor blade, and he took a swipe at Christine, missing him.
Christine kicked Missero, who fell and dropped the razor blade. Christine
picked up the razor blade from the ground, and unintentionally cut Missero
when Missero continued to threaten him.

Christine testified that he knew

Missero from past occasions.11 Christine testified that Missero said, "I told
you I was going to kill you."12 He stated Missero "probably tried to put a big

10 Missero testified he did not "shave that much to this day." Id. at 65.
ii
Christine testified he and Missero "had hung out on occasion in the City of
Easton" and had been together in a juvenile treatment facility when
Christine was 16, and Missero was 17. N.T., 10/6/2010, at 47. Christine
further stated that "[t]here was an incident ... in Easton where we were
talking about ... [a particular] female I just met and it turned out this
particular female was his girlfriend. I didn't know that. He told me that if I
ever touched her that he would kill me. ... I never heard of it since. If this
incident was related to that, I don't know." Id.
12 Id. at 48.
(Footnote Continued Next Page)

-9-

2xn

J-E01004-13
scar on my face, [but] he missed. "13 Christine denied telling Missero that
Missero owed him $20.00. Christine did not have any scars on his face. He
stated no one was in his cell to ask for help and that Luis Vega let the door
close and walked away. See N.T., 10/6/2010, at 45-53, 59.
Daniel Rice, an inmate, and brother of Jeffrey Rice, testified that he
saw Missero walk over to talk to someone in front of Christine's cell, but he
was "not sure" if Missero "did or did not have anything in his hand at that
time." Id. at 15.14 When Rice opened the cell door, which was closed, he
observed Christine and Missero in a wrestling hold. The fight ended, and
Christine was "standing there ... pumped, irritated[.]"15 Missero was bleeding
from his neck, and Rice questioned Christine, who replied that Missero owed
him $20.00. Rice testified Christine then demanded Missero's sneakers, and
Rice told Missero to go get medical attention.

Rice stated that after the

fight, Missero had nothing in his hand except a little ball of tobacco, which
Missero offered to Rice if he beat up Christine. Rice could not be completely
(Footnote Continued)

13 Id.
14 Rice testified that on the day the investigator from the Public Defender's
Office came to prison to speak with him about the incident, he saw Christine
and Christine asked him to say that he saw Missero coming into Christine's
cell with a cup of coffee. Rice stated that it "wasn't ... the truth." N.T.,
10/6/2010, at 23. He stated that Missero "might have had a cup in his
hand, I don't know." Id.

15 Id. at 18.

- 10 -

J-E01004-13

sure if he saw something in Christine's hand because he has astigmatism.
He did not see a weapon on the ground. Razor blades were issued and sold
by the prison, and it was possible to flush a razor blade down the toilet in
the prison. See id. at 17-20.
Corrections Officer Nathan Picone testified that he did not witness the
fight, or hear a scuffle while he was positioned in the prison unit at the
officer's station. After Missero approached him with a large gash in his neck,
he called for back-up and proceeded to lock down the block.

He noticed

blood leading to Christine's cell, and saw bloody towels and bloody T-shirts
that "looked like ... an attempt to clean up what looked to be a large amount
of blood. «16 Christine was "obviously shaken, a little nervous [with] a couple
of drops of blood on his T-shirt. rrl7 A search of Christine's cell revealed a
shank hidden in Christine's bed. He did not notice any coffee on the floor.
There were "40 to 50 cups in the cell. «18 See id. at 34-42.
Besides Christine, the defense presented Matthew Garvey, a juvenile
probation officer, who testified that Christine and Missero were housed in the
same treatment facility from July of 2004 to January 2005. The facility had
two separate housing units, and he did not possess the record to determine

16 Id. at 35.
17 Id. at 36.
18 Id. at 41.

- ii -

J-E01004-13

"if a specific client was in a unit at a certain time, within a certain
timeframe." Id. at 73. Christopher Boase, a fellow inmate, also testified for
the defense.

He stated that he was watching television in the day room

outside the pod, and did not see the altercation, but he had seen Missero
enter the cell and "he looked like angry, like hostile." Id. at 75-76.
This case clearly rested on determinations of credibility by the jury.
Here, there were no eyewitnesses who testified regarding the onset of the
confrontation, other than Missero and Christine. The prejudicial impact of
the erroneously admitted shank is obvious given that the issue before the
jury was which party was the aggressor. In my view, this was not a case
where "the properly admitted and uncontradicted evidence of guilt was so
overwhelming and the prejudicial effect of the error was so insignificant by
comparison that the error could not have contributed to the verdict." Story,
supra. Therefore, I would find that the trial court's ruling, which allowed
the shank to be admitted into evidence, was not harmless error.

See

Marshall, supra at 494 ("[W]e are not faced with a record containing
overwhelming evidence of appellant's guilt. We find that the error committed
by the lower court was not harmless.").
Accordingly, I would vacate the judgment of sentence and remand for
a new trial.

Z.I O

- 12 -

J-E01004-13

Judgment Entered.
/
/ /"

s

Prothonotary

Date: 8/30/2013

- 13 -

2A\

APPENDIX N
Superior Ct. Of PErmsylvama,. Case.#. .1893. EDA 2011
QRder vacating Trial Cti Order and Granting New’Trial"

'ZXL
— 'L
f

7

J. S02045/12

N ON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P 65.37
COMMONWEALTH OF PENNSYLVANIA,
Appellee

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.
JACOB MATTHEW CHRISTINE,
Appellant

No. 1893 EDA 2011

Appeal from the Judgment of Sentence of November 24, 2010,
in the Court of Common Pleas of Northampton County,
Criminal Division, at No: CP-48-CR-0003344-2009.
BEFORE:

SHOGAN, OTT, and STRASSBURGER,* JJ.

MEMORANDUM BY STRASSBURGER, J.:

FILED APRIL 24, 2012

Jacob Matthew Christine (Appellant) appeals from the November 24,
2010 judgment of sentence of 9-to-20 years' incarceration for his conviction
for aggravated assault and

l-to-2 years' incarceration for recklessly

endangering another person (REAP).1

We vacate Appellant's judgment of

sentence and remand for a new trial.
On June 8, 2009, Appellant slashed the neck and ear of Thomas
Missero (Missero), a fellow-inmate at Northampton County Prison, with a
razor blade.

The incident occurred in Appellant's cell, and a search of the

cell immediately afterwards revealed a shank that was hidden in Appellant's
bed. Appellant claimed that Missero attacked him with the razor blade, and

1 18 Pa.C.S. §§ 2702(a)(1) and 2705, respectively.
^Retired Senior Judge assigned to the Superior Court.
r~rr,
\ jr

3. S02045/12
that Missero was unintentionally injured after Appellant disarmed Missero.
No razor blade was ever found.
The jury convicted him of aggravated assault and REAP, but acquitted
him of attempted homicide. Appellant was sentenced as detailed above on
November 24, 2010.

Appellant filed timely post-sentence motions which

were denied by order of April 26, 2011, following a change of counsel, a
continuance of argument, and a hearing. Appellant filed a timely notice of
appeal, and both Appellant and the trial court have complied with Pa.R.A.P.

1925.
Appellant raises four questions on appeal, which we have renumbered
for ease of disposition.
[!]■

Did the trial court commit a clear abuse of discretion or
error of law which controlled the outcome of the case in
failing to instruct the jury [on the elements of the "castle
doctrine"] as part of the self[-]defense/justification
instruction...?

2.

Did the trial court err when it permitted the
Commonwealth to introduce a "shank" as physical
evidence as well as testimony regarding said shank in the
course of the jury trial in the instant matter?

[3].

Did the trial court err when it refused to allow Appellant to
present testimony at trial regarding a criminal assault in
the alleged victim's criminal record?

4.

Was the sentence imposed contrary to the norms which
underlie the sentencing process and does this case involve
circumstances where the application of the sentencing
guidelines was clearly unreasonable?

- 2 -

J. S02045/12
Appellant's Brief at 5.2
Appellant first claims that the trial court erred in charging the jury on
Appellant's duty to retreat before using deadly force in self-defense without
also informing the jury that there is no duty to retreat when one is attacked
in his own dwelling (the "castle doctrine").3

Appellant's Brief at 16.

Appellant claims that his prison cell qualifies as a dwelling for purposes of
this instruction. Id. at 17.
The trial court noted that Appellant did not.request this charge or
object to its absence.

Trial Court Opinion (TCO), 4/26/2011, at 14.

Appellant does not indicate in his brief how he preserved this issue for
appeal.
A specific and timely objection must be made to preserve a
challenge to a particular jury instruction. Failure to do so results
in waiver. Generally, a defendant waives subsequent challenges
to the propriety of the jury charge on appeal if he responds in
the negative when the court asks whether additions or
corrections to a jury charge are necessary.
Commonwealth v. Charleston, 16 A.3d 505, 527-528 (Pa. Super. 2011)
(quoting Commonwealth v. Moury, 992 A.2d 162, 178 (Pa .Super. 2010)).

2 We note that the Commonwealth failed to file a brief on appeal.
3 Section 9.501 of the Pennsylvania Suggested Standard Jury Instructions
(Criminal) provides as follows in relevant part: "the defendant is not
obligated to retreat from [his] [her] own dwelling, that is, any building or
structure though movable or temporary, or a portion thereof, including the
doorway, that is, at least for the time being, the defendant's home or place
of lodging, unless [he] [she] was the initial aggressor in the incident."

- 3 -

^15

J. S02045/12
We are unable to locate in the certified record a written request from
Appellant for the "castle doctrine" instruction.

During the charging

conference, the trial court indicated that it intended to instruct the jury on
justification and the rules for deadly force.

N.T., 10/6/2010, at 85. After

giving the jury charge without reference to the castle doctrine, the trial court
asked counsel if there were any objections or requests for modifications, to
which Appellant's counsel answered in the negative. N.T., 10/7/2010, at 9394. As such, Appellant has waived this issue. Charleston, supra.
Appellant's next two questions concern the trial court's evidentiary
rulings.

"The admission of evidence is a matter vested within the sound

discretion of the trial court, and such a decision shall be reversed only upon
a showing that the trial court abused its discretion."
Weakley,

972

A.2d

1182,

1188

(Pa.

Commonwealth v.

Super.

2009)

(quoting

Commonwealth v. Reid, 811 A.2d 530, 550 (Pa. 2002)).
Appellant first argues that the trial court erred in allowing into
evidence a shank found in Appellant's bed after the incident. Appellant had
moved in limine to exclude the weapon and references thereto, as the
Commonwealth conceded that it was not the weapon used to injure Missero.
A weapon shown to have been in a defendant's possession
may properly be admitted into evidence, even though it cannot
positively be identified as the weapon used in the commission of
a particular crime, if it tends to prove that the defendant had a
weapon similar to the one used in the perpetration of the crime.
Any uncertainty that the weapon is the actual weapon used in
the crime goes to the weight of such evidence.

-4 r •—■

r
J. S02045/12

Commonwealth v. Williams, 640 A.2d 1251, 1260 (Pa. 1994).
The shank that was introduced was an 18-to-20-inch sharpened metal
rod, taken from a metal bookcase in a common room of the prison, with a
piece of doth wrapped at the end for a handle.4 N.T., 10/6/2010, at 38-39.
As for the weapon used to slice Missero, "[i]t was a razor made out of like a
normal Bic Razor that you get from the dollar store, they issue them in
prison.

The blade was taken out, and at the end it had paper or tape

wrapped around it with the blade sticking out maybe an inch."

N.T.,

10/5/2010, at 64.
The trial court explained its ruling as follows:
The evidence suggested that a cutting instrument, similar
to a razor blade, was likely used to injure [Missero] in this case.
The Commonwealth was unable to locate or identify the cutting
weapon that was used to injure [Missero]. The shank was not
ruled out as the weapon that caused the injury, however, it was
the Commonwealth's theory that a razor-like instrument was
likely used to cut [Missero's] neck. The shank was admitted to
show that [Appellant] had access to a weapon and that he had
the ability to fashion a homemade weapon from objects in the
prison.
TCO, 4/26/2011, at 7.
The fact that Appellant had one homemade weapon, fashioned in a
similar manner to the weapon used to commit the crime, is clearly relevant.

4 Appellant testified that he did not put the weapon in his mattress or use it,
but he knew the shank was there for protection "in case somebody came in
there and tried to rape somebody or hurt somebody." N.T., 10/6/2010, at

51.
- 5 -

an

J. S02045/12
See Commonwealth v. Owens, 929 A.2d 1187, 1191 (Pa. Super. 2007)
(holding the trial court did not err in allowing evidence that "defendants had
weapons similar to the ones used in the perpetration of the crime.");
Commonwealth v. Broaster, 863 A.2d 588, 592 (Pa. Super. 2004)
(holding there was no error in admitting evidence of guns that the
Commonwealth acknowledged were not used in the crime at issue, as the
evidence showed, inter alia, that the defendant "had readily obtained
handguns of the same caliber used in the murder."). Further, the potential
prejudice to Appellant of this evidence is not outweighed by the probative
value, such that it would "inflame the jury to make a decision based upon
something other than the legal propositions relevant to the case." Owens,
929 A.2d at 1191 (quoting Broaster, 863 A.2d at 592). As such, the trial
court did not err in admitting the shank into evidence.
Next, Appellant claims that the trial court erred in ruling that Appellant
was not permitted to question Missero about Missero's conviction, following a
guilty plea, to a simple assault that occurred less than one year after the
incident at issue in Appellant's case.

Appellant's Brief at 10; N.T.,

10/5/2010, at 27. Appellant argues that, given his claim of self-defense, he
was entitled to use Missero's assault conviction to show that Missero had
violent, aggressive propensities, as this would support Appellant's testimony
that Missero was in fact the aggressor.

Appellant's Brief at 11.

The trial

court held that the assault Missero committed after his altercation with

- 6 -

ZYt

3. S02045/12
Appellant was not relevant to his character at the time Appellant cut him.
We disagree.
As a general rule, evidence of a person's character is not admissible to
prove that the person acted in conformity with that character on a particular
occasion. Pa.R.E. 404(a). An exception to the general rule in criminal cases
provides that "evidence of a pertinent character trait of character of the
alleged victim is admissible when offered by the accused...."

Pa.R.E.

404(a)(2)(i).
Even when character evidence is admissible, the general rule is that
character may not be proved by evidence of "other crimes, wrongs, or acts."
Pa.R.E. 404(b)(1).

However, when character evidence is admissible under

Pa.R.E. 404(a)(2) (allowing evidence of the alleged victim's character in
criminal cases), the accused may prove the alleged victim's character by
specific instances of conduct. Pa.R.E. 405(b)(2).
[W]here a defendant alleges self-defense, he may use his
... victim’s criminal record. either (1) to corroborate his alleged
knowledge of the victim's quarrelsome and violent character to
show that the defendant reasonably believed that his life was in
danger; or (2) to prove the allegedly violent propensities of the
victim to show that the victim was in fact the aggressor.

- 7 -

2.1*1

J. S02045/12
Commonwealth v. Amos, 284 A.2d 748, 751 (Pa. 1971).

"To have

probative value, these crimes should be of the same nature, [and] not too
distant in time vis a vis the alleged aggression."5 Id. at 752.
In the instant case, the trial court held that the fact that Missero's
conviction occurred after the incident with Appellant deprived evidence of
the conviction of probative value, reasoning as follows.
We believe that the law only allows evidence of prior
incidents to prove the character or reputation of the victim at the
time of the crime in question. A subsequent conviction arising
from events that transpired after the incident involving
[Appellant] simply has no bearing on whether [Missero]
possessed violent propensities on June 8, 2009.
[Missero's]
2010 simple assault conviction is not relevant.
TCO, 4/26/2011, at 13 (footnote omitted).6

The rules and the case law

discussed above do not support this conclusion.
The applicable rules of evidence cited above do not limit character
evidence to prior crimes, wrongs, or acts; rather, the rules contemplate
5 We have held that "[w]hen the (victim's) prior conviction is for assault and
battery, there is no need to compare the facts. Any difference is irrelevant.
A conviction for assault and battery necessarily implies a character involving
aggressive propensities." Commonwealth v. Fisher, 493 A.2d 719, 723724 (Pa. Super. 1985) (quoting Commonwealth v. Beck, 402 A.2d 1371,
1373 (Pa. 1979)).
6 We note that the trial court distinguishes cases such as Amos, supra, and
Beck, supra, by noting that those cases each involved a deceased victim's
prior assaultive behavior. TCO, 4/26/2011, at 12. Obviously, when a
defendant is accused of homicide, the victim died as a result of the
altercation at issue and thus was incapable of performing any subsequent
acts, assaultive or otherwise. We have not found any Pennsylvania cases
involving subsequent assaults committed by the victim of an attempted
homicide.

- 8 ; ,

2*0

J. S02045/12
evidence of other crimes, wrongs, or acts.

The only temporal limitation is

that the other crime be not too remote from the incident at issue.

See

Amos, supra. If a victim's violent character three years before an incident
was not too remote to suggest that the victim was the aggressor, see Beck,
supra, there is no logical reason why the violent, aggressive behavior of
Missero eleven

months after his altercation with Appellant does not

reasonably allow a jury to infer that he was of that character at the time
Appellant cut him.
Our reasoning is supported by our Supreme Court's determination that
evidence of "other crimes, wrongs, or acts" that occur subsequent to the
crime at issue may be admissible against a criminal defendant under Pa.R.E.
404(b)(2). See, e.g., Commonwealth v. Collins, 703 A.2d 418, 423 (Pa,
1998) ("Although evidence of a subsequent offense is usually less probative
of intent than evidence of a prior offense, evidence of a subsequent offense
can still show the defendant's intent at the time of the prior offense."). 7
Therefore, we hold that Amos, supra and Rules 404(a)(2) and
405(b)(2) require that Appellant be permitted to offer evidence of Missero's
Further persuasive support for our conclusion can be found in the Ninth
Circuit's decision in United States v. Keiser, 57 F.3d 847 (9th Cir. 1995), in
which the court held that "a victim's 'violent disposition' is exactly the sort of
evidence [F.R.E. 404(a)(2)] was intended to encompass." Id. at 853. While
the court ultimately determined that the specific act offered to evidence the
victim's violent character was not admissible under F.R.E. 405 (which differs
materially from Pa.R.E. 405), the court found no merit in the government's
argument that evidence of the victim's character was irrelevant because it
was displayed after the defendant shot the victim. Id. at 854,

- 9 -

J. S02045/12
assault conviction. Appellant and Missero were the only witnesses to testify
at trial about who did what in Appellant's cell on June 8, 2009,
testified that Appellant ambushed him with the razor blade.

Missero
Appellant

testified that Missero initiated the fight by throwing coffee at him and
coming after him with the razor blade.

Clearly the evidence of Missero's

assaultive character could persuade a jury to believe Appellant's version of
events.

As such, we cannot deem this to be harmless error.

Appellant is

entitled to a new trial.
Because we vacate Appellant's judgment of sentence and remand for a
new trial, Appellant's final question as to the discretionary aspects of his
sentence is moot.
Judgment of sentence vacated.

Case remanded for a new trial to be

conducted in a manner consistent with this memorandum.

Jurisdiction

relinquished.
Judge Paula Francisco Ott files a Dissenting Statement.

Judgment Entered.

Prothonotary
Date: 4/24/2012

- 10 -

r

zzz

r

J-S02045-12

COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

Appellee
v.
JACOB MATTHEW CHRISTINE
Appellant

No. 1893 EDA 2011

Appeal from the Judgment of Sentence of November 24, 2010
In the Court of Common Pleas of Northampton County
Criminal Division at No(s): CP-48-CR-0003344-2009
BEFORE: SHOGAN, J., OTT, J., and STRASSBURGER, J,**
DISSENTING STATEMENT BY OTT, J.:

FILED APRIL 24, 2012

I respectfully disagree with the majority's decision to vacate the
judgment of sentence and remand for a new trial on the basis of the trial
court's evidentiary ruling that precluded counsel for Jacob Matthew Christine
from questioning the complainant, Thomas Missero, about his subsequent
conviction.
I recognize that [i]n a criminal case, evidence of a pertinent trait of
character of the complainant is admissible when offered by the accused"
under Pa.R.E. 404(a)(2)(i), and that "where character or a trait of character
is

admissible under Pa.R.E.

404(a)(2), the accused

may prove the

complainant's character or trait of character by specific instances of
** Retired Senior Judge assigned to the Superior Court.

r
J-S02045-12

conduct."

Pa.R.E. 405(b)(2).

Pennsylvania Rules of Evidence 404(a)(2)(i)

and 405(b)(5) are consistent with cases holding that the accused in a
criminal case may offer evidence of a pertinent trait of character of the
complainant

by

introducing

specific

instances

of

Commonwealth v. Dillon, 598 A.2d 963 (Pa. 1991);
Amos, 284 A.2d 748 (Pa. 1971).

conduct.

See

Commonwealth v.

However, the cited cases involved the

deceased victim's prior conduct.
I agree with the ,Honorable Stephen

G.

Barrata that Missero's

conviction for simple assault in a domestic dispute that occurred after the
incident at issue in this case does not retroactively establish
character at the time here in question.

Missero's

In this regard, I would adopt the

trial court's rationale to affirm the judgment of sentence.

See Trial Court

Opinion, 4/26/2011, at 11-13.
I simply add that in cases where subsequent bad conduct has

been

held admissible, the evidence showed intent, see Commonwealth v.
Collins, 703 A.2d 418, 423 (Pa. 1997), cert, denied, 525 U.S. 1015 (1998),
or completed the story about the crime.

See Commonwealth v.

Simmons, 662 A.2d 621, 635-636 (Pa. 1995), cert, denied, 516 U.S. 1128
(1996). See also Commonwealth v' Weakley, 972 A.2d 1182, 1191 (Pa.
Super. 2009) (defendants' subsequent crime "admissible
under the

strict criteria

of Rule 404(b)"),

to prove identity

appeal denied sub

Commonwealth v. Selenski, 986 A.2d 150 (Pa. 2009);

nom

Commonwealth

-2 -

22H

J-S02045-12

u. Wattley,

880 A.2d 682 (Pa. Super. 2005) (defendant's

subsequent bad acts admissible to show

conviction for

continuing propensity for illicit

sexual contact with same victim), appeal dismissed
as improvidently
granted, 924 A.2d 1203 (Pa. 2007).
No like purpose would be served in this case, and therefore, i
in my
view, the Rules of Evidence do not support the admission of evidence of
Missero's subsequent conviction.
Accordingly, I dissent.

- 3 -

22.5

APPENDIX O
Northampton County Court of Cannon Pleas, Case # 3344-cr-2009
Order Denying Post Sentence Motion for New Trial

rz.(p

Apr. ZO.

nu. 7 LJV

ZVII W- LLAivi

LI

I J

IN THE COURT OF COMMON PLEAS OF NORTHAMPTON COUNTY, PENNSYLVANIA
CRIMINAL DIVISION

COMMONWEALTH OF PENNSYLVANIA
v.
JACOB CHRISTINE,
Defendant.

)

NO. 3344-2009

)
)
)
)
)
)

v.

ro

pm

£2
“,T>

:o

•VJ
Z'-D

:*r-o

CO

• i i'i ';'
- -i •••■• o
-- ui o

cr

;n

-“-I

ORDER OF COURT

o
j'.i

i 4^

AND NOW,f this

day of April, 2011, it is hereby ORDERED that Defendant’s

• Post-Sentence Motion is DENIED.
STATEMENT OF REASONS
Facts and Procedural History
Defendant, Jacob Christine, was convicted of Aggravated Assault and Recklessly
Endangering Another Person by a jury on October 7,2010. However, the jury found Defendant
not guilty of Attempted Criminal Homicide. Defendant was sentenced onNovember 24,2010, to
108-240 months incarceration on the Aggravated Assault count and 1-2 years incarceration on
the Recklessly Endangering Another Person count, The Aggravated Assault sentence runs
consecutively to Defendant’s Lehigh County sentence and the Recklessly Endangering sentence
runs concurrently with the Aggravated Assault sentence.
The convictions resulted from an incident that occurred in Northampton County Prison
(NCP) on June 8, 2009. On that date, the Defendant and the victim, Thomas Misero, were "■
inmates in NCP when a confrontation between the two men occurred in the Defendant’s cell in
Unit B-2. The cell housed 8 inmates in four rows of bunk beds. While in the Defendant’s cell,

ZZT

Apr. Zb.

ZUit I I:ZZAivt

HU. T UV

J/

I J

the Defendant was alleged to have slashed Mr. Misero’s neck and ear with a razor blade.
Immediately after the attack, corrections officers searched the Defendant’s cell. Only one
weapon, a shank, was found in the cell. It was hidden within the Defendant’s bed.
Interestingly, the Defendant testified at trial that the victim came into his cell armed with
a razor blade and attacked the Defendant. The Defendant claimed that he successfully disarmed
the victim, picked up the razor from the floor and then unintentionally sliced the victim when the
victimcontinued-to-threaten-therDefendant-Even-'though-the-Defendantwasthe-last'person-to-have control of the weapon, it has never been located. We also note that there were no injuries
suffered by the Defendant.
Apparently, the jury rejected the Defendant’s claim of self defense.
The procedural record establishes that on July 14,2009, Investigator Christopher Naugle
filed a criminal complaint charging.Defendant with Attempt - Criminal Homicide, Aggravated
Assault and Recklessly Endangering Another Person, Defendant filed a pro se ‘"Motion for
Dismissal and Quash of Indictment for Judicial Misconduct and Habeas Corpus” on November 3,
2009. Attorney Susan Hutnik of the Public Defender’s Office entered her appearance for
Defendant on November 6,2009. Attorney Hutnik filed a “Motion to Remand for Preliminary
Hearing” on November 17,2009- On November 25,2009, the Defendant’s motion for remand
was withdrawn. Attorney Hutnik subsequently filed a “Petition for Writ of Habeas Corpus” on
December 10,2009, and a hearing on the motion was scheduled for December 18, 2009. A
second “Petition for Writ of Habeas Corpus” was filed by Attorney Hutnik on January 6,2010,
and the motion was scheduled for a hearing on January. 15,2010. The Honorable Edward G.
Smith denied the habeas corpus petition from the bench at the January 15 hearing.
2

22.?

ap r. l0. LV M ii: uam

liv. T LJ'J

11

I J

The case was called to trial on October 4,2010, and Defendant was convicted on October
7,2010, of Aggravated Assault and Recklessly Endangering Another Person.
Attorney Hutnik filed a timely post-sentence motion on December 6,2010. Defendant
filed a pro se “Motion to Amend Post-Sentence Motion to Modify and Add Additional Claims”
on December 15, 2010. Defendant’s post-sentence motions were scheduled for argument on
February 2, 2011, with a conference scheduled for January 7, 2011, prior to argument court. The
- - -Defendant1 S7?roTeprost-“sentence’nioti'oirrai'‘£e'd1ssUeS“that arguably could‘be "considered to”....
implicate a denial of effective assistance of counsel. On January 14,2011, Attorney Hutnik was
permitted to withdraw and Attorney Brian Lawser was appointed to represent Defendant, in the
prosecution of the post-sentence motions. The matter was removed from the February 2,2011,
Argument List to permit Mr. Lawser to review the claims.
An issue framing conference was held on February 11,2011 with Attorney Lawser. Mr.
Lawser requested the opportunity to create a testimonial record. We listed the matter for a
hearing on March 16,2011.
At the March 16,2011 hearing, Attorney Lawser, apparently to the dismay of the
Defendant, indicated to the Court that several of the claims raised by the Defendant in his pro se
filing were more appropriate for a PCRA petition. Mr. Lawser indicated that he intended to
perfect those claims in a PCRA Petition. At the hearing, trial counsel was called to make a brief
record regarding Rule 600.
Legal Standard
A criminal defendant has the right to make a post-sentence motion in writing no later than
ten days after the imposition of sentence. Pa.R.Crim.P. 720. Post-sentence motions shall state

zti

iiy. "ti^u

Ap r. ‘lb. 7U11 W. 'l'm

J!

I J

the defendant’s claims for relief with specificity and particularity. Pa.R.Crim.P. 720(B)(1)(a).
These motions serve a dual function to allow atrial court to address and correct any alleged
errors committed at trial, and to frame and clarify issues to be considered should there be an
appeal. Com, v. Hutson. 363 A.2d 784 (Pa. Super. 1976).
Discussion
Defendant pursued only a few of those issues raised in the post-sentence motion, and .
chose4o'resemfheremaimhglssuesT6ra'c6lIater^appeairfheTssues currently pursued by the
Defendant are: 1) the Defendant’s Rule 600 rights were violated because the trial was held in
excess of 365 days after the date of his arrest; 2) the Court erroneously permitted the admission
of certain evidence and testimony at trial: a) the shank and testimony about the shank, and b)
photographs of the Defendant and the victim’s wound; 3) the Court improperly refused to allow
testimony about the victim’s post-incident criminal record; and, 4) the Court failed to instruct the
jury that an individual does not have a duty to retreat from his own dwelling, or as the Defendant
couches the argument - the jury should have been charged that “the cell was his castle.”
A.

Rule 600
Defendant argues the charges on which he was convicted should be dismissed because the

Commonwealth allegedly violated his Pa.R.Crim.P, 600 right to a speedy trial.
In order to establish a Rule 600 claim, a defendant must file, prior to trial, either a motion
to dismiss under Rule 600 or contest a Commonwealth petition to extend. Com, v. Yancev. 447
A.2d 1041, 1042 n. 1 (Pa. Super. 1982). Aright to a speedy trial claim must be raised before
trial, otherwise it is waived. Com, v. Hunsinser. 549 A.2d 973,976 (Pa. Super. 1988).
After a review of the record in this case, we find Defendant failed to raise the issue of the
4

230

Ap r. zo. zv i i 11: zzttm

ii y. -r lj'j

V/

I J

Commonwealth3 s alleged violation of his speedy trial right prior to the commencement of the
trial on October 4,2010. He did not file the required motion to dismiss. As a result, Defendant
waived the claim that his Rule 600 right to a speedy trial was violated.1
B.

Alleged Improper Admission of Evidence
Defendant alleges this Court committed two errors at trial regarding the admission of

certain evidence. First, this Court allegedly erred when it admitted testimony regarding a
“$hank1J'fomd-m"Befendant-s-prison-bed-and~admitted4he-shank-a$ physical-evidence... Second,.
Defendant argues this Court erroneously admitted photographs of Defendant, Luis Vega and the
victim’s wounds that were prejudicial, inflammatory and/or irrelevant.
1.

The “Shank”
Defendant’s counsel raised an oral motion in limine prior to jury selection seeking to

preclude the Commonwealth from admitting into evidence a shank and related testimony. The
Defendant maintained the shank and testimony regarding it were irrelevant and its prejudicial
value outweighed its probative value.
• The shank was found during a search of the Defendant's cell after the incident. No oth-r
weapon was found at the scene. The Commonwealth conceded that the shank was likely not the
weapon used to injure Mir. Misero. However, the Commonwealth argued that the shank was
relevant to show Defendant had access to a weapon and that the Defendant had the ability to
fashion a weapon in prison.

lWe note that there was testimony proffered by the Commonwealth, specifically the Defense Counsel
testified regarding her unavailability (as well as the defendant’s unavailability) which the Commonwealth asserts .
would toll rule 600. We need not examine the record at this time as the failure to timely raise this issue prior to trial
constitutes a waiver. We also note that this issue may be properly raised in Defendant’s anticipated PCRA pennon.
5

2S\

hp r. zo. zu i t 11; zzrtivi

nu. ^LJ U

1/ i j

The Court denied Defendant’s motion, finding the shank was relevant, and permitted the
introduction of the shank and testimony regarding the shank into evidence.
Admission of evidence is within the sound discretion of the trial court, and a trial court
ruling on the admission of evidence will not be overturned “unless that ruling reflects manifest
unreasonableness, or partiality, prejudice, bias, or ill-will, or such lack of support to he clearly
erroneous.” Com, v. Minich, 4 A.3d 1063, 1068 (Pa. Super. 2010) (citations omitted). When
determining-whether-evidence should be admitted,-the^threshold inquiry is whether the.evidence.
is relevant. r.nm. v. -Robinson. 721 A.2d 344, 350 (Pa. 1998). Relevant evidence is evidence
that “logically tends to establish a material fact in the case, tends to make a fact at issue more or
less probable, or supports a reasonable inference or presumption regarding the existence of a
material fact.” Com.v. Sniewak. 617 A.2d 696, 699 (Pa. 1992). In order for evidence to be
admissible, the probative value must outweigh its prejudicial impact. Com, v. Stoiy, 383 A.2d
155 (Pa. 1978).
As a general rule, a weapon that cannot be specifically linked to a crime is not admissible
as evidence. Robinson, 721 A.2d at 351, However, an exception to this general rule is when the
“accused had a weapon or implement suitable to the commission of the crime charged.

Com. y.

Lee. 662 A.2d 645, 652 (Pa. 1995), The prosecution is not required to establish that a particular
weapon was actually used to commit a crime in order to admit the weapon into evidence. The
only burden on the Commonwealth is to “justify an inference by the fmder of fact of the
likelihood that the weapon was used in the commission of the crime.” Id.
■Further, we note that relevant Commonwealth evidence is intended to prejudice a
defendant, therefore, relevant evidence wall be excluded only when it is “so prejudicial that it
6

zsz

Apr. 2b. 2U1! 11:'/jAM

NO. “HO

0/ \’J

would inflame the jury to make a decision based upon something other than the legal
propositions relevant to the case” Com, v. Serge, 837 A.2d 1255,1260-61 (Pa. Super. 2003).
The evidence suggested that a cutting inshument, similar to a razor blade, was likely used
to injure the victim in this case. The Commonwealth was unable to locate or identify the cutting
weapon that was used to injure Mr. Misero. The shank was not ruled out as the weapon that
caused the injury, however, it was the Commonwealth's theory that a razor-like instrument was
■ likely-used to-cut Misero-s neck.--The shank-wasndimhedTo show-Defendant had.accession
weapon and that he had the ability to fashion a homemade weapon from objects inthe prison. A
weapon may be admitted into evidence, even if the Commonwealth cannot positively identify it
as the weapon used.in the commission of the crime, if it tends to prove that the defendant had a
weapon similar to the one used In the perpetration of the crime. Com, v. Williams, 640 A.2d
‘ 1251,1260 (Pa. 1994).
In Com, v. Broaster, 863 A.2d 588 (Pa. Super. 2004), the Superior Court-affirmed a trial
court ruling that admitted a .45 caliber hand gun into evidence, even though the Commonwealth
cone lusively proved it was not the gun used in a murder. The Superior Court found the gun was
properly introduced to show the defendant had access to the type of weapon used in the crime, •
had knowledge and familiarity with those types of guns and the defendant regularly discarded
handguns. Broaster supports our decision to admit the shank. It was a cutting weapon found in
Defendant’s prison bedding immediately after the slashing of the victim.
In support of his claim that it was an enor to admit the shank, the Defendant cites Com
v. Marshall. 743 A.2d 489 (Pa. Super. 1999). We note that in Marshall, the Superior Court

quoted from Commonwealth v. Williams:
7

2S$

r

ftp r, ZO.

ZIM!

I i: z3MM

UU. T LJ\)

J! I J

“A weapon shown to have been in a defendant’s possession may
properly be admitted into evidence, even though it cannot
positively be identified as the weapon used in the commission of a
particular crime, if it tends to prove that the defendant had a
weapon similar to the one used in the perpetration of the crime.”
Commonwealth v. Williams. 537 Pa. 1,20, 640 A.2d 1251,1260
(1994).
743 A.2d at 492.
Ultimately, the Marshall Court found it was error for a trial court to admit into evidence a
■handgun■that-was-irtpoHcepossession-at-thetime of-the-criine;..HoweverAhe-facts-in-Marshall ■■■
are clearly distinguishable from the facts in this case. The district attorney in Marshall could not
show that the defendant had access to a handgun, because the very handgun the Commonwealth
sought to introduce was in police possession and not available to the defendant at the time the
crime was committed.
Here, the shank was found hidden in the Defendant’s bed shortly after the crime was
committed, therefore Defendant had access to the shank when the crime was committed and it
was the only cutting weapon located at the crime scene. Additionally, the admission of the shank
tends to show Defendant had knowledge and familiarity with prison-made weapons and could
conceal them in his prison cell. We also found that the presence of the shank hidden in the
Defendant’s bed tends to rebut Defendant’s assertion that he was unarmed and acted in selfdefense.
We found the evidence relevant and that the probative value outweighed the prejudicial
value. We deny Defendant’s post-trial motion on these grounds.
2.

Photographs of the Defendant, Luis Vega, and the victim’s wound
Defendant argues photographs of Luis Vega and Defendant dressed in prison clothing,
S

tM

rtp r. zo. zv M i I: ZDHivi

I V/ I J

NU. ‘tZ'JO

Commonwealth Exhibits 9 and 10, were irrelevant and unduly prejudicially. Additionally,
Defendant alleges the photographs of the victim’s wounds, Commonwealth Exhibits 3, 4, and 7,
were inflammatory and unduly prejudicial.
First, we note that Defendant failed to object to the introduction of the complained-of
photographs at trial. Generally, a litigant must make a specific objection to an alleged error
before the trial court in a timely fashion and at the appropriate stage of the proceedings. See Law
-Q-ffjce-of-Bougtas-TrHarris.-Esquire v-.-F-hiladelnhia-Waterfi'ont-Partners-DPr957A;-2d-l2-23 {Pa
Super. 2008); Com, v. Brown. 701 A.2d 252, 254 (Pa. Super. 1997). A timely objection occurs
at the proper stage during the questioning of a witness or at the proper stage in trial proceedings.
Com, v. Garofalo. 563 A.2d 109, 111 (Pa. Super. 1989).
Defendant was obliged to raise any objection to the photographs either in a timely motion
in limine or when the Commonwealth moved to admit them into evidence. Because the
objection was not preserved during the trial, there is nothing on the record for this Court to
review in a post-sentence.motion. Defendant’s claim regarding the photographs is waived.
However, even if Defendant’s objection was properly raised, we still would deny
Defendant’s motion. The admission of a photograph is within the sound discretion of the trial
court. Com, v. Wright 961 A.2d 119 (Pa, 2008). Like any other piece of evidence, a photograph
must be relevant in order to be admissible. However, the essential issue is whether the
photographs have evidentiary value that outweighs the possibility of inflaming the minds and
passions of the jurors. Com, v. Rush. 646 A.2d 557 (Pa. 1994).
First, we will discuss the relevancy of the photographs of Defendant and Luis Vega. The
Commonwealth is required to establish the identity of the offender in every criminal case. The
9

Z5S

rtp r. zo. zu 11 ii :i:m

IV U. ^L'ju

11/ \ J

Commonwealth, introduced the photographs of Defendant during the course of Mr. Misero s
testimony. Mr. Misero indicated that he identified Defendant as his assailant after being shown
the complained-of photograph during the investigation of the incident. The photograph of Luis
Vega was introduced while Mr. Misero testified about how he identified the person who called
him over to Defendant’s prison cell.
Defendant attacks the admissibility of the photographs on the basis that they are unduly
prejudicial'because'theysho'W-Defendant and-Mr-Vega-inprison clothings-However, there was.
no dispute that the incident occurred in Northampton County Prison, and the Defendant, Mr.
Vega and Mr. Misero were inmates at the time of the incident. The status of Defendant and Mr.
Vega as prisoners was well established. There is no additional prejudicial effect from showing
photographs of Defendant and Mr. Vega in prison clothing because the jury already knew
Defendant and Mr. Vega were prisoners at the time of the incident. Therefore, we find there is
no merit to Defendant’s objection to these two photographs.
Next, we discuss Defendant’s objection to the three photographs, Commonwealth
Exhibits 3,4, and 7, depicting Mr. Misero’s wounds. The photographs were taken after the
victim had his wounds dressed by hospital personnel. The Defendant alleges the photographs
were inflammatory, prejudicial, and misrepresented the wounds sustained by the victim.
In order to find the Defendant guilty of Attempted Criminal Homicide, the
Commonwealth needed to establish that Defendant intended to kill Mr. Misero. There is no
doubt the photographs were relevant to the case because the Defendant may have been convicted
of attempted homicide if the jury found that the Defendant’s attack on a vital part of the body
was evidence of intent to kill, The nature of the wound, where it was located, and how senous it
10

2.3b

r

rtp r. zo. I'J i i i i: zjnivi

I'JU. 'TLJV

I L!

I J

was. were relevant to a determination of whether Defendant acted with intent to kill. Further,
there was nothing inflammatory about the photographs. In fact, Defendant benefitted from
having the photographs taken at the hospital. By then, the medical staff was able to clean the
wound and begin repairing it. Finally, with regard to the aggravated assault count, the jury was
required to find whether Defendant caused or attempted to cause a serious bodily injury. The
jury needed to view the wound and its location to determine whether the wound was a serious
bodily injury.

... ..........

....................... .

The photographs were not inflammatory or unduly prejudicial. Therefore, we deny
Defendant's contest to the admission of the photographs.
C.

The Prior Record of the Victim
Defendant brought a motion in limine to obtain the Court’s permission to question the

victim, Mr. Misero, about a conviction for simple assault that occurred after the June 8,2009
incident. Defendant argues that we erroneously denied Defendant’s request to question Mr.
Misero about the simple assault conviction.
The record established that Mr. Misero pleaded guilty to simple assault and recklessly
endangering another person and was sentenced on June 24, 2010. The incident giving rise to the
simple assault and recklessly endangering convictions occurred on May 1, 2010, nearly one year
afterxbz Defendant’s alleged prison assault. Apparently, Misero 's conviction involved domestic
violence, where Misero grabbed and pushed his girlfriend outside of a hotel. The girlfriend
sustained minor injuries, This Court precluded testimony regarding the June 24,2010 simple
assault conviction because it occurred after the incident involving Defendant and Mr. Misero.
There was nothing about the timing or nature of the charges that could establish Misero s
11

zv)

i J

reputation for violence at the time of the prison incident.
' As a general rule, evidence of other crimes is not admissible to prove the character of a
person in order to show action in conformity therewith. Pa. R.E. 404(b)(1). The Defendant
argues that prior convictions involving aggression by the victim of a homicide may be admitted
by a defendant who puts forth a justification defense for either one of two purposes: 1) to
corroborate the defendant’s alleged knowledge of the victim’s quarrelsome and violent character
tolsEow that'theTdeferldaht reasonably believed tfrat'hisiife'was'in^danger,-or 2)io prove the-'.....
alleged violent propensities of the victim to show that the victim was the aggressor. Defendant
cites four decisions to support his contention that Mr. Misero’s conviction for simple assault
should have been admitted - Com, v. Beck. 402 A.2d 1371 (Pa. 1979); Com, v. Amos. 284 A.2d
748 (Pa. 1971); Com, v. Dillon. 598 A.2d963 (Pa. 1991) and Com, v. Carbone. 707 A.2d 1145
(Pa. Super. 1998). The four cases cited by Defendant all involved defendants on trial for
homicide or manslaughter of the victim where the defendant asserted self-defense. In such
cases, the deceased victim’s prior assaultive behavior is admissible to support a self-defense
claim. We also note that the victims in the murder cases are unavailable for cross-examination.
In such cases, our Appellate Courts have held that the Defendant is entitled to introduce prior
events that tend to prove the victims’ character at the time of the incident.
In this case, Defendant sought to introduce Mr. Misero’s conviction for domestic violence
that occurred after Defendant assaulted Mr. Miseio. Further, we note that Misero testified at trial
and the Defendant had the opportunity to cross-examine the victim and the jury could pass
judgment on the victim’s credibility.
Defendant argues that there is no requirement that the prior conviction of the victim need
12

25?

HU. 'il'JQ

W iD

to have occurred prior to the incident in question. Here, the Defendant does not seek to establish
Misero’s existing reputation or character at the time of the incident. Rather, the Defendant seeks
to use future events to retroactively establish character.
The case law holds that character and reputation are established by past events. There is
no case law or Rule of Evidence that supports the Defendant’s argument that, although he cannot
prove the victim’s reputation or character at the time of the incident, he should be permitted to
proved sub sequent act arid thenargue that the victrnTs past character is in conformity-with his...
future action.
We believe that the law only allows evidence of prior incidents to prove the character or
reputation of the victim at the time of the crime in question. A subsequent conviction arising
from events that transpired after the incident involving Defendant simply has no bearing on
whether Misero possessed violent propensities on June 8,2009.2 Mr. Misero’s 2010 simple
assault conviction is not relevant.
Therefore, we deny Defendant’s objection on this ground.
D.

Self-Defense Instruction Regarding Duty to Retreat from Own Dwelling
Defendant’s final complaint in his post-sentence motions raises a failure to instruct the

jury that a person has no duty to retreat when he is attacked in his dwelling. Defendant defines
the term dwelling to include his prison cell, and he argues that the ''castle doctrine” instruction
should have been included in the Court’s charge to the jury.

‘ We envisioned the possibility that Misero could have argued that he suffered PTSD as a result ofthe
Defendant’s attack, which resulted in a change m his personality and was a contributing factor in his domestic
violence incident. Thus, it would require a "mini-trial'' regarding the quality and nature of the victim's character
before and after the Defendant's alleged assault.
13

\ J/ \ J

We note that the Defendant’s counsel did not submit a written request for a jury charge
invoking the ‘'castle doctrine," she did not ask for the “castle doctrine” instruction during the
charging conference, nor did she object at the conclusion of the instructions to the jury when the
Court failed to give the jury the “castle doctrine” instruction,3
A defendant generally waives appellate challenges to a jury instruction if the defendant
responds m the negative when the court asks whether corrections or additions to the

charge are

needed--Gomr-'
------ YiJvlouiy,^^-Av2d-162, 178 (Pa, Super.-20-10)
Defendant waived any objections to the jury instructions,

The Defendant’s post-sentence

motion on this ground is denied.
BY THE COURT:
si

..... /,•

61

STEPHEN G. BARATTA, J.

14

ZMo

APPENDIX P
18 Pa. C.S. S 505 , 2009 Ed. (Canplete)

zHl

d

1500

Act No. 334

LAWS OF PENNSYLVANIA,

v

bringing about the situation requiring a choice of harms or evils or in
appraising the necessity for his conduct, the justification afforded by this
section is unavailable in a prosecution for any offense for which
recklessness or negligence, as the case may be, suffices to establish
culpability.
§ 504. Execution of public duty.
(a) General rule.—Except as provided in subsection (b) of this section,
conduct is justifiable when it is required or authorized by any law of the
following:
(1) The law defining the duties or functions of a public officer or the
assistance to be rendered to such officer in the performance of his
duties.
(2) The law governing the execution of legal process.
(3) The judgment or order of a competent court or tribunal.
(4) The law governing the armed services or the lawful conduct of
•’•'ar.
^5) Any other provision of law imposing a public duty.
(b) Exceptions.—The other sections of this chapter apply to:
(1) The use of force upon ot toward the person of another for any
of the purposes dealt with in such sections.
(2) The use of deadly force for any purpose, unless the use of such
force is otherwise expressly authorized by law or occurs in the lawful
conduct of war.
(c) Requisite state of mind.—The justification afforded by subsection
(a) of this section applies:
(1) when the actor believes his conduct to be required or authorized
by the judgment or direction of a competent court or tribunal or in the
lawful execution of legal process, notwithstanding lack ofjurisdiction of
the court or defect in the legal process; and
(2) when the actor believes his conduct to be required or authorized
to assist a public officer in the performance of his duties,
notwithstanding that the officer exceeded his legal authority.
§ 505. IJse of force In self-protection.
(a) Use of force justifiable for protection of the person.—The use of
force upon or toward another person is justifiable when the actor believes
that such force is immediately necessary for the purpose of protecting
himself against the use of unlawful force by such other person on the
present occasion.
(b) Limitations on justifying necessity for use of force.—
(1) The use of force is not justifiable under this section:
(i) to resist an arrest which the actor knows is being made by a
peace officer, although the arrest is unlawful; or
(ii) to resist force used by the occupier or possessor of property
or by another person on his behalf, where the actor knows that the
person using the force is doing so under a claim of right to protect
the property, except that this limitation shall not apply if;

PROPfiKT*

id ©RiEBl LIBRARY

Tfta mat-arid im§ b®

'm

SESSION OF 1972.

Act No. 334

1501

(A) the actor Is a public officer acting in the performance of
his duties or a person lawfully assisting him therein or a person
making or assisting in a lawful arrest;
(B) the actor has been unlawfully dispossessed of the property
and is making a reentry or recaption justified by section 507 of this
title (relating to use of force for the protection of property); or
(C) the actor believes that such force is necessary to protect
himself against death or serious bodily injury.
(2) The use of deadly force is not justifiable under this section unless
the actor believes that such force is necessary to protect himself against
death, serious bodily injury, kidnapping or sexual intercourse compelled
by force or threat; nor is it Justifiable if:
(i) the actor, with the intent of causing death or serious bodily
injury, provoked the use of force against himself in the same
encounter; or
(ii) the actor knows that he can avoid the necessity of using such
force with complete safety by retreating or by surrendering
possession of a thing to a person asserting a claim of right thereto or
by complying with a demand that he abstain from any action which
he has no duty to take, except that:
(A) the actor is not obliged to retreat from his dwelling or
place of work, unless he was the initial aggressor or is assailed in
his place of work by another person whose place of work the actor
knows it to be; and
(B) a public officer justified in using force in the performance
of his duties or a person justified in using force in his assistance or
a person justified in using force in making an arrest or preventing
an escape is not obliged to desist from efforts to perform such duty,
effect such arrest or prevent such escape because of resistance or
threatened resistance by or on behalf of the person against whom
such action is directed.
(3) Except as required by paragraphs (1) and (2) of this subsection,
a person employing protective force may estimate the necessity thereof
under the circumstances as he believes them to be when the force is
used, without retreating, surrendering possession, doing any other act
which he has no legal duty to do or abstaining from any lawful action,
(c) Use of confinement as protective force.—The Justification afforded
by this section extends to the use of confinement as protective force only
if the actor takes all reasonable measures to terminate the confinement as
. soon as he knows that he safely can, unless the person confined has been
arrested on a charge of crime.
$ 506. Use of force for the protection of other persons.
(a) General rule.—The use of force upon or toward the person of
another is justifiable to protect a third person when:

»

APPENDIX Q
42 Pa. C.S. §5552 (Complete)

§ 5552. Other offenses.
(a) General rule. — Except as otherwise provided in this subchapter, a prosecution for an offense
must be commenced within two years after it is committed.
(b) Major offenses. — A prosecution for any of the following offenses must be commenced within
five years after it is committed:
(1) Under the following provisions of Title 18 (relating to crimes and offenses):

Section 901 (relating to criminal attempt) involving attempt to commit murder where no
murder occurs.
Section 902 (relating to criminal solicitation) involving solicitation to commit murder where
no murder occurs.
Section 903 (relating to criminal conspiracy) involving conspiracy to commit murder where
no murder occurs.
Section 911 (relating to corrupt organizations).
Section 2702 (relating to aggravated assault).
Section 2706 (relating to terroristic threats).
Section 2713 (relating to neglect of care-dependent person).
Section 2901 (relating to kidnapping).
Section 3301 (relating to arson and related offenses).
Section 3502 (relating to burglary).
Section 3701 (relating to robbery).
Section 3921 (relating to theft by unlawful taking or disposition) through section 3933
(relating to unlawful use of computer).
Section 4101 (relating to forgery).
Section 4107 (relating to deceptive or fraudulent business practices).
Section 4108 (relating to commercial bribery and breach of duty to act disinterestedly).
Section 4109 (relating to rigging publicly exhibited contest).

pastat

l

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

.—

ns

j

Section 4117 (relating to insurance fraud).
Section 4701 (relating to bribery in official and political matters) through section 4703
(relating to retaliation for past official action).
Section 4902 (relating to perjury) through section 4912 (relating to impersonating a public
servant).
Section 4952 (relating to intimidation of witnesses or victims).
Section 4953 (relating to retaliation against witness, victim or party).
Section 5101 (relating to obstructing administration of law or other governmental function).
Section 5111 (relating to dealing in proceeds of unlawful activities).
Section 5512 (relating to lotteries, etc.) through section 5514 (relating to pool selling and
bookmaking).
Section 5902(b) (relating to prostitution and related offenses).
Section 6111(g)(2) and (4) (relating to sale or transfer of firearms).
(2) Any offense punishable under section 13(f) of the act of April 14, 1972 (P.L.233, No.64),
known as The Controlled Substance, Drug, Device and Cosmetic Act.
(3) Any conspiracy to commit any of the offenses set forth in paragraphs (1) and (2) and any
solicitation to commit any of the offenses in paragraphs (1) and (2) if the solicitation results in the
completed offense.
(4) Under the act of June 13, 1967 (P.L.31, No.21), known as the Public Welfare Code.
(5) Under the act of November 24, 1998 (P.L.874, No.110), known as the Motor Vehicle Chop
Shop and Illegally Obtained and Altered Property Act.
(b.1) Major sexual offenses. — Except as provided in section 5551(7) (relating to no limitation
applicable), a prosecution for any of the following offenses under Title 18 must be commenced within 12
years after it is committed:

Section 3121 (relating to rape).
Section 3122.1 (relating to statutory sexual assault).
Section 3123 (relating to involuntary deviate sexual intercourse).
Section 3124.1 (relating to sexual assault).
Section 3124.2 (relating to institutional sexual assault).
pastat

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

r—

ZHt

Section 3125 (relating to aggravated indecent assault).
Section 4302 (relating to incest).
Section 6312 (relating to sexual abuse of children).
(c) Exceptions. — If the period prescribed in subsection (a), (b) or (b.1) has expired, a prosecution
may nevertheless be commenced for:
(1) Any offense a material element of which is either fraud or a breach of fiduciary obligation within
one year after discovery of the offense by an aggrieved party or by a person who has a legal duty to
represent an aggrieved party and who is himself not a party to the offense, but in no case shall this
paragraph extend the period of limitation otherwise applicable by more than three years.
(2) Any offense committed by a public officer or employee in the course of or in connection with
his office or employment at any time when the defendant is in public office or employment or within five
years thereafter, but in no case shall this paragraph extend the period of limitation otherwise applicable by
more than eight years.
(3) Any sexual offense committed against a minor who is less than 18 years of age any time up to
the later of the period of limitation provided by law after the minor has reached 18 years of age or the date
the minor reaches 55 years of age. As used in this paragraph, the term “sexual offense” means a crime
under the following provisions of Title 18 or a conspiracy or solicitation to commit an offense under any of
the following provisions of Title 18 if the offense results from the conspiracy or solicitation:

Section 3126 (relating to indecent assault).
Section 3127 (relating to indecent exposure).
Section 4304 (relating to endangering welfare of children).
Section 6301 (relating to corruption of minors).
Section 6312(b) (relating to sexual abuse of children).
Section 6320 (relating to sexual exploitation of children).
(3.1) Any sexual offense committed against an individual who is 23 years of age or younger any
time up to the later of the period of limitation provided by law after the individual has reached 24 years of
age or 20 years after the date of the offense. As used in this paragraph, the term "sexual offense” means
a crime under the following provisions of Title 18 or a conspiracy or solicitation to commit an offense under
any of the following provisions of Title 18 if the offense results from the conspiracy or solicitation:

Section 3011(a) as it relates to sexual servitude.
Section 3012 as it relates to sexual servitude.
Section 3121 (a) and (b).

pastat

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

2*n

r

Section 3123(a).
Section 3124.1.
Section 3124.2(a) and (b).
Section 3125(a).
Section 3126.
Section 3127.
Section 4302(a).
(4) An offense in violation of 18 Pa.C.S. § 6111(c) or (g), within one year of its discovery by State
or local law enforcement, but in no case shall this paragraph extend the period of limitation otherwise
applicable by more than eight years.
(5) An offense under 18 Pa.C.S. § 3011 or 3012 in which the victim of human trafficking was not a
minor any time up to ten years from the date of the last offense under this paragraph committed against
the victim.
(6) An offense under section 3012 involving labor servitude while the victim was a minor, any time
up to ten years after the victim reaches 18 years of age.
(c.1) Genetic identification evidence. — Notwithstanding any provision of law to the contrary, if
evidence of a misdemeanor sexual offense set forth in subsection (c)(3) or (3.1) or a felony offense is
obtained containing human deoxyribonucleic acid (DNA) which is subsequently used to identify an
otherwise unidentified individual as the perpetrator of the offense, the prosecution of the offense may be
commenced within the period of limitations provided for the offense or one year after the identity of the
individual is determined, whichever is later.
(d) Commission of offense. — An offense is committed either when every element occurs, or, if a
legislative purpose to prohibit a continuing course of conduct plainly appears, at the time when the course
of conduct or the complicity of the defendant therein is terminated. Time starts to run on the day after the
offense is committed.
(e) Commencement of prosecution. — Except as otherwise provided by general rule adopted
pursuant to section 5503 (relating to commencement of matters), a prosecution is commenced either
when an indictment is found or an information under section 8931(b) (relating to indictment and
information) is issued, or when a warrant, summons or citation is issued, if such warrant, summons or
citation is executed without unreasonable delay.

HISTORY:
Act 1976-142 (S.B. 935), P.L. 586, § 2, approved July 9, 1976, See section of this act for
effective date information; Act 1978-53 (H.B. 825), P.L. 202, § 10, approved Apr. 28, 1978, eff.
in 60 days; Act 1978-168 (S.B. 767), P.L. 873, § 1, approved Oct. 4, 1978, eff. in 60 days; Act
1980-142 (H.B. 1873), P.L. 693, § 206, approved Oct. 5, 1980, eff. in 60 days; Act 1982-122
pastat

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

ZH8

(S.B. 563), P.L. 417, § 1, approved May 13, 1982, eff. in 60 days; Act 1982-326 (H.B. 1804),
P.L. 1409, § 201, approved Dec. 20, 1982, eff. in 60 days; Act 1984-199 (S.B. 680), P.L. 986, §
2, approved Dec. 14, 1984, eff. in 60 days; Act 1984-218 (H.B. 353), P.L. 1089, § 6, approved
Dec. 19, 1984, eff. immediately; Act 1990-208 (H.B. 1228), P.L. 1341, § 1, approved Dec. 19,
1990, eff. in 60 days; Act 1995 Special Session-10 (S.B. 2), P.L. 985, § 16, approved Mar. 31,
1995, eff. in 60 days; Act 1996-17 (H.B. 1927), P.L. 51, § 1, approved Mar. 29, 1996, eff. in 60
days; Act 1998-145 (S.B. 1373), P.L. 1086, § 2, approved Dec. 21, 1998, eff. in 60 days; Act
2000-136 (H.B. 58), P.L. 976, § 1, approved Dec. 20, 2000, eff. immediately; Act 2001-86 (H.B.
1541), P.L. 844, § 1, approved Nov. 21, 2001, eff. in 60 days; Act 2002-86 (S.B. 212), P.L. 518,
§ 2, approved June 28, 2002, eff. in 60 days; Act 2004-185 (H.B. 835), P.L. 1428, § 2, approved
Nov. 30, 2004, eff. immediately; Act 2006-81 (H.B. 1746), P.L. 378, § 3, approved July 7, 2006,
eff. in 7 days; Act 2006-179 (S.B. 1054), P.L. 1581, § 7, approved Nov. 29, 2006, eff. in 60 days;
Act 2008-131 (H.B. 1845), P.L. 1628, § 9, approved Oct. 17, 2008, eff. in 60 days; Act 2014-105
(S.B. 75), , § 6, approved July 2, 2014, eff. in 60 days; Act 2019-87 (H.B. 962), § 4, approved
November 26, 2019, eff. November 26, 2019.
Editor's Notes
Section 10 of Act 2019-87 provides: "This act shall apply as follows:
(1) The amendment or addition of 42 Pa.C.S. §§ 5533(b), 5551(7) and 5552(b.1), (c)(3) and (3.1)
shall not be applied to revive an action which has been barred by an existing statute of limitations on the
effective date of this section.
(2) The amendment of 42 Pa.C.S. § 5533(b) (2) shall apply retroactively to civil actions where the
limitations period has not expired prior to the effective date of this section.
(3) The addition of 42 Pa.C.S. §§ 5522(c), 8522(b)(10), 8528(d), 8542(b)(9) and 8553(e) shall
apply as follows:
(3)(i) Prospectively, to a cause of action which arises on or after the effective date of this section.
(3)(ii) Retroactively, to a cause of action if the cause of action arose before the effective date of this
section. Nothing in this subparagraph shall do any of the following:
(3)(ii)(A) Revive a cause of action as to which the limitation period has expired prior to the effective
date of this section.
(3)(ii)(B) Permit the application of the addition of 42 Pa.C.S. §§ 5522(c), 8522(b)(10), 8528(d),
8542(b)(9) and 8553(e) to a claim:
(3)(ii)(B)(l) that is subject to a final judgment which, on the effective date of this section, is not subject
to appeal; or
(3)(ii)(B)(ll) that, on the effective date of this section, has been nonjudicially resolved in its entirety by
the parties, in a form which is enforceable.”
Amendment Notes

pastat

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

2-Ht

The 2019 amendment added “Except as provided in section 5551(7) (relating to no limitation
applicable)” in the introductory language of (b.1); added “Section 3124.2 (relating to institutional sexual
assault)" in (b. 1); rewrote (c)(3); added (c)(3.1); and added “or (3.1)” in (c.1).
The 2014 amendment, in (c)(3), added “Section 3011(b) (relating to trafficking in individuals)” and
“Section 3012 (relating to involuntary servitude) as it relates to sexual servitude”, and added (c)(5) and
(c)(6).
The 2008 amendment, in (b)(1), substituted “victim or party” for “or victim" in the line beginning
Section 4953 and added “Section 6111 (g)(2) and (4) (relating to sale or transfer of firearms)”; and added
(c)(4).
The 2006 amendment, in the first sentence of the introductory language of (c)(3), added "the later of
and “or the date the minor reaches 50 years of age” and added "Section 6320 (relating to sexual
exploitation of children)” in (c)(3).
The 2006 amendment added "under Title 18” in the introductory language of (b. 1).

pastat

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

2-50

APPENDIX R
Pa. Standard Suggested Jury Inst. 9.501 (Ccmplete)

9.501

JUSTIFICATION: USE OF FORCE/DEADLY FORCE IN
SELF-DEFENSE

9.501 (Crim)

IN GENERAL
I.

The defendant has raised the issue of whether [he] [she] acted in self-defense when

[he] [she] [description Of defendant’s conduct]. Seif-defense is called “justification” in the law
of Pennsylvania. If the defendants actions were “justified,” you cannot find [him] [her] guilty
beyond a reasonable doubt. The issue having been raised, it is the Commonwealth’s burden to
prove beyond a reasonable doubt that the defendant did not act in justifiable seif-defense.
RULES WHEN ISSUE RAISED AS TO USE OF DEADLY FORCE
1.

The first matter

you must consider in deciding whether the Commonwealth has

met its burden in this regard is what kind offeree the defendant used in this instance. There
are two kinds, deadly and non-deadly. The Commonwealth claims here that deadly force was
used by the defendant and it must prove that claim beyond a reasonable doubt.
2..

Deadly force is force that,-under the circumstances in which it is used, is readily ca­

pable of causing' death or serious bodily injury. “Serious: bodily injury” is bodily injury that
creates a substantial risk of death or that causes serious permanent disfigurement or pro­
tracted loss or impairment of the function of any bodily member or organ. According to this
definition, force isnot deadly force simply because it’happens to kill or seriously injure. For
example, a slap in the face that freakishly and unexpectedly leads to death is not deadly force.
A defendant uses deadly force when he or she knows that his or her actions, under the circum­
stances in which he .or she. commits them, are readily capable of causing death or serious
bodily injury.
RULES FOR JUSTIFICATION WHEN DEADLY FORCE WAS USED
L

If the Commonwealth proves to you beyond a reasonable doubt'that the defendant,

used deadly force, then to prove that such force was not justifiable in this case, it must prove
one of the following elements beyond a reasonable doubt {give only those supported, by facts of
record}:
[a.

That ithe defendant did not reasonably believe that [he] [she] was in immedi­

ate danger of death or serious bodily injury [or kidnapping or sexual intercourse com­
pelled by force or threat] from [name of alleged victim] at the time [he] [she] used the force
and that, therefore, [his] [her] belief that it was necessary for [him]' Pier] to use deadly
force toprotect [himself] [herself] was;unreasonable. Put another way, the Commonwealth

© 2016 The Pennsylvania Bar Institute

1 of 6'

Rev. April 2005

This is the applicable jury instruction, 9,501, AS IT READ AT HE DATE OF MY TRIAL, 2010,
pjpagp see page 3 of this doc,, at the section marked; Judge nris-instructed Jury on this.

TT&

^ 1?JA-wW

9,501
must prove either: (i) that the defendant did not actually believe [he] [she] was in danger
of death or serious bodily injury such that [he] [she] needed to use deadly force to defend
[himself] [herself] at that moment; or, (ii) that while the defendant actually believed [he]
[she] needed to use such force, [his] [herl belief was unreasonable in light of all the cir­
cumstances known to [him] [her].
Keep this in mind: a person is justified in using deadly force against another not only
when they are in actual danger of unlawful attack hut also when they mistakenly, but rea­
sonably, believe that they are. A person is entitled to estimate the necessity for the force
he or she employs under the' circumstances as he or she reasonably believes them to be at
the time. In the heat of conflict, a person who has been attacked ordinarily has neither
time nor composure to evaluate carefully the danger and make nice judgments about ex­
actly how much force is needed to protect himself or herself Consider the realities of the
situation faced by the defendant here when you assess, whether the Commonwealth has
proved beyond a reasonable doubt either that [he] [she] did not believe [he] [she] was ac­
tually indanger of death.or serious bodily injury to the extent that [he] [she] needed to use
such force in self-defense, or that, while Pie] [she] did believe that, [his] pier] belief was
unreasonable; [or]
Thfft, (i) in the same encounter with [name of alleged victujv}, the .defendant
b,
engaged in conduct that demonstrated [his] pier] intent to cause death or serious bodily
injury, and (ii) by that conduct, [he] [she] provoked the use ,of force against [him] [her].
The conduct by the defendant must be of such a nature that it shows it was [his] pier] conscious object to cause death or serious bodily injury to the alleged victim, [name of alleged
victim]. Conduct that is not of such a nature does not constitute the kind of provocation
upon which.the Commonwealth may rely to prove its case. If you find beyond a reasonable
doubt that the defendant’s acts were of such a nature^ you must then ask whether it pro­
voked the .similar use of force against [him] [her]. In this, assessment, the conduct by the
defendant may be the initial provocation of the fight, or .it may be-an act that continues or
escalates it. However, even if the defendant was the initial.aggressor, or was the person
who escalated the incident to one involving the use of deadly force,, if pie) [she] thereafter
withdraws in good faith, making it clear that Piis] [her] further intentions are peaceable,
and the alleged victimpursues [him] pier] and renews the fight,, [hel [she] does not forfeit
[his] Pier] right to claim justifiable self-defense. If on the other, hand, you find beyond a
reasonable doubt that, the defendant provoked the use; of force against Piim] [her] by en­
gaging in conduct that showed that Pie] [she] intended to cause death.or serious bodily in­
jury to .the alleged victim, you may find that [his] Pier] conduct was not justified.

Rev. April. 2005

2 .of 6

r
9.501

c.

That the defendant knew that [he] [she] could avoid the necessity of using

deadly force with complete'safetyby./jgiiie only those supported by facts of record]'.
[(1) retreating, but that [he} [she] failed to do so. [However, the defendant is
not obligated to retreat from [his] [her] own dwelling, that is, any building or struc­
ture though movable or temporary, or a portion thereof including the doorway, that
is, at least for the time being, the defendant’s home or place of lodging, unless [he]
[she] was the initial aggressor in the incident.] [or] [However, the defendant is not
obligated to retreat from [his] [her] place of work unless [he] [she] is attacked there
by someone the defendant knows also works in the same, place]; [or]
(2)

surrendering possession of a thing to a person asserting a claim of right

to it, and failing to do so; [or]
(3)

complying with a demand that pie] [she] abstain from any action [he]

[she] had no duty to make, and failing to. do so.]
[The following exception to the third element should be given only where
supported by facts of record:]
[However, if.the defendant is:
[(a) a public officer using force to perform his or her duties; [or]
(b)

someone justified in using force to assist a public officer; [or]

(c)

a person justified in using force to make an arrest or prevent an

escape,
he or she is not obligated to stop those efforts because of actual or threatened resis­
tance by or On behalf of the person against; whom heor she-is directing his or her law­
ful duty.]
2.

If the Commonwealth proves one of these elements beyond a reasonable doubt, the

actions of the defendant in using deadly force are not justified. If the Commonwealth fails to
prove these elements, the defendant’s action was justified.ahd you.must find [him] [her] not
guilty of the crime of [crime].
RULES FOR JUSTIFICATION WHEN NON-DEADLY FOR CE WAS USED
L

If the defendant only used non-dead!y force duringtbe incident in question, the Com­

monwealth may prove that this use of force was not justified if it can show, beyond a reason­
able doubt, any of the following elements [give only those supported by facts of record]'.

3 of 6

Rev. April 2005

r

9.501
[a.

That the defendant did not reasonably believe that it was immediately neces­

sary for [him] [her] to use force to protect [himself] [herself] against the unlawful use of
force by [name of alleged victim]. The Commonwealth must prove either (i) that the defen-,
dant did not actually believe [he] [she] was in danger of becoming the victim, of unlawful
force such that [he] [she] needed to use force to defend [himself] [herself] at the moment
[he] [she] used it; or, (ii) that while the defendant actually believed [he] [she] needed to use
such force, [hisl [her] belief was unreasonable in light of all the circumstances known to
[him] [her].
Keep this in mind: a person is justified in using force against another not.only when
.they are in actual danger of unlawful attack but also when they mistakenly, but reasonably; believe that they are. A person is entitled to estimate, the necessity for the force.he •
or she employs under the circumstances as he or she reasonably believes them to be at
the time. In the heat of conflict, a person who.has been attacked ordinarily has neither
time nor composure to evaluate carefully the danger arid, make nice judgments about ex­
actly how much force is needed to protect himself or herself. Consider the.realities of the
situation faced by the defendant here when you assess whether the Commonwealth has
proved beyond.a reasonable, doubt either that he or she did not believe he or she was ac-.
tually in danger of unlawful force to the extent that he or she needed to'use.such force in
self-defense, or that, while he or she did believe.that, his or her belief was. unreasonable.
Unlawful force means any form of force, including confinement, that is employed without
the consent of the person against whom it is directed where its use would constitute .an
offense or actionable tort.]

Cb.

That, (i) in the same encounter with fhame of alleged victim], the defendant

engaged in conduct that demonstrated [his] [her] intent to use unlawful force against the
alleged victim, and, (ii) by that conduct, [he] [she] provoked the use of force against [him­
self] [herself]. Conduct that is not itself the .unlawful use of force does not constitute the
kind of provocation upon which the Commonwealth may rely to prove its case. If you find
beyond a reasonable doubt that it is of such a nature, you must then ask whether it pro­
voked the similar use of force against [him] [her]. In this assessment, the conduct by the
defendant may be the initial provocation of the fight, or it may be an act that continues or
escalates it. However, even if the defendant was the initial aggressor, or was the person
who escalated th.e.incidentto one involving the:use of unlawful force, if [he] [she] thereaf­
ter withdraws in good faith, making it clear that [his] [her] further intentions are peace­
able, and the alleged victim pursues [him] [her] and renews the fight, [he] [shej.does not
forfeit [his] [her] right to claim justifiable self-defense. If, on .the other hand, you find be-

Rey. April 2005

4 of 6

\

<

9.501

yond a reasonable doubt that the defendant provoked the use of force against [himself]
[herself] by engaging in conduct that showed that [he] [she] intended to cause unlawful
force to the alleged victim, you may find that [his] [her] conduct was not justified.]
Note that a defendant who has used only non-deadly force has no duty to [retreat from the in­
cident] [or] [surrender possession of a thing] [do or not do any act he or she has no legal duty
to do or refrain from doing], as long as he or she has not provoked the unlawful use of force, as
1 have explained that matter above;
2.

Unless the Commonwealth proves one of these two elements, the use of non-deadly

force by the defendant is justified and you must find [him] [her] not guilty of the offense ol [of­
fense]. If the Commonwealth does prove one of the elements beyond a reasonable doubt, the
actions of the defendant are hot justified.
RULES REGARDING USE OF FORCE IN SPECIFIC SITUATIONS
[To be used only where made applicable by facts of record:]
1.

The Commonwealth may also prove that the use of force by the defendant was not

justified if it proves beyond a reasonable doubt:
a.

That the defendant used force to resist' an arrest when the defendant knows

that the arrest is being made by a peace officer, whether or hot the arrest is lawful. How­
ever, a defendant does not forfeit his or her right to claim that his or her actions were jus­
tified if he or she reasonably believed that he or she was protecting himself or herself
against unlawful and deadly force by the officer. To prove this element, then, the Common­
wealth must prove beyond a reasonable doubt that the defendant did not believe that the
arresting officer

wbb

using unlawful and deadly force against [him] [her] or, if the defen­

dant did believe that, [his] [herl belief was unreasonable.
b.

That the. defendant .used force to resist force used by the occupier [or pos­

sessor of property] [or their agent], where the defendant knew that the person they were
resisting was acting under a claim of right to the property, and that [hisl [her] resistance
was not authorized by law, A defendant is. authorized to use force in such a circumstance if
(i) he or she is. a public officer [or a person assisting a public officer] performing his or her
duties, or a person making or assisting in a lawful arrest; (ii) he or she has been unlawfully
dispossessed of the property and is moving & justified re-entry of it under the law; or (iii)
he or she reasonably believes that such force is necessary to protect himself or herself
from deadly force by another.

5. of 6

Rev. April 2005

9.501
SPECIAL RULE REGARDING. CONFINEMENT AS JUSTIFIED FORCE
[To be used only where made applicable by facts of record:J
There is one other way in which the Commonwealth may seek to prove that-the defen­
dant's use of confinement was not a justified, use of force, in this case. The Commonwealth
would have to prove, beyond a reasonable doubt, that the defendant.failed to take all reason­
able measures to end the alleged victim’s confinement as soon as the defendant, knew Pie]
[she] could do so in complete safety. Of course, if the alleged victim had been arrested for
some offense and confined according to. law, the defendant would not: be responsible for.such
period of confinement.
SUBCOMMITTEE NOTE
The present instruction is drawn from Crimes Code sections-501 to 605. It consolidates numerous.individual instructions set out in prior editions of this work in an- effort to synthesize and organize the ma­
terial necessary to aproper.renderingof the self-defense concept.
NOTE:- The court should give only those sections of the instructions appropriate to and raised by the
facts of each case. Not all sections may be supported by theprovable facts and it is-intended that.the court
should select only those sections 'necessary to the jury's consideration.
The current approach casts the instruction in terms of the burden of proof, .a burden squarely placed
upon the Commonwealth once the facts suggest the propriety of-.the instruction. Commonwealth u.
Christy, 656 A2d 877 (Pa. 1995).
Overall, the instruction seeks to remain faithful to the language of section 505 and the teachings of
file Supreme Court of Pennsylvania in Commonwealth v. Christy, 656 A2d 877 (Pa. 1995), and Common­
wealth v. Cdpitolo, 498 A2d.806 (Pa. 1985). See also Commonwealth v, Manors, 827 A:2d-482 (Pa.Super.
2003). The defendant’s beliefastothe-necessity of theuse of of rce is tohejudgedby an objective standard,
allowing the Commonwealth.tomeet its burden by showing eitherthat the defendant did not actually be­
lieve he or she waB in immediate danger or .that his or her belief was unreasonable under all attendant
circumstances. Commonwealth v. Fisher, 493 A.2d 719 (Pa.Super. 1985).
On the nature of the defendant’sact of provocation to defeat his or her counter use of force,, see Com­
monwealth v. Samuel, 590 A2d 1245, 1248 (Pa. 1991). The nature of the retreat doctrine is. discussed at
some length in Commonwealth v. Serge,.83.7.A.2d 1255,1267 (Pa.Super. 2003), and the continued avail­
ability of the justification defense to an arrest in which the defendant preceives that unlawful and deadly
force is to be visited upon him or her is discussed in Commonwealth u. French, 611 A.2d 175 (Pa. 1992).
1

Rev. April 2005

6 of 6

APPENDIX S
Pa. Rules Evidence 405 (Complete)

2St

j

Rule 405. Methods of Proving Character

(a) By Reputation. When evidence of a person's character or character trait is admissible,
it may be proved by testimony about the person's reputation. Testimony about the witness's
opinion as to the character or character trait of the person is not admissible.
(1) On cross-examination of the character witness, the court may allow an inquiry into
relevant specific instances of the person's conduct probative of the character trait in question.
(2) In a criminal case, on cross-examination of a character witness, inquiry into
allegations of other criminal conduct by the defendant, not resulting in conviction, is not
permissible.
(b) By Specific Instances of Conduct. Specific instances of conduct are not admissible to
prove character or a trait of character, except:
(1) In a civil case, when a person's character or a character trait is an essential element of
a claim or defense, character may be proved by specific instances of conduct.
(2) In a criminal case, when character or a character trait of an alleged victim is
admissible under Pa.R.E. 404(a)(2)(B) the defendant may prove the character or character trait by
specific instances of conduct.

parules

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

2S°t

L

APPENDIX T
PA. Rules Of Evid. 609 (Complete)

2A&
i

Rule 609. Impeachment by Evidence of a Criminal Conviction

(a) In General. For the purpose of attacking the credibility of any witness, evidence that
the witness has been convicted of a crime, whether by verdict or by plea of guilty or nolo
contendere, must be admitted if it involved dishonesty or false statement.
(b) Limit on Using the Evidence After 10 Years. This subdivision (b) applies if more
than 10 years have passed since the witness's conviction or release from confinement for it,
whichever is later. Evidence of the conviction is admissible only if:
(1) its probative value substantially outweighs its prejudicial effect; and
(2) the proponent gives an adverse party reasonable written notice of the intent to use it
so that the party has a fair opportunity to contest its use.
(c) Effect of Pardon or Other Equivalent Procedure. Evidence of a conviction is not
admissible under this rule if the conviction has been the subject of one of the following:
(1) a pardon or other equivalent procedure based on a specific finding of innocence; or
(2) a pardon or other equivalent procedure based on a specific finding of rehabilitation of
the person convicted, and that person has not been convicted of any subsequent crime.
(d) Juvenile Adjudications. In a criminal case only, evidence of the adjudication of
delinquency for an offense under the Juvenile Act, 42 Pa.C.S. §§ 6301e/ seq., may be used to
impeach the credibility of a witness if conviction of the offense would be admissible to attack the
credibility of an adult.
(e) Pendency of an Appeal. A conviction that satisfies this rule is admissible even if an
appeal is pending. Evidence of the pendency is also admissible.

parules

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

2&y
r

. L

APPENDIX U
Pa. Rules of Evid. 804 (Complete)

'I

Rule 804. Exceptions to the Rule Against Hearsay—When the Declarant is Unavailable
as a Witness

(a) Criteria for Being Unavailable. A declarant is considered to be unavailable as a
witness if the declarant:
(1) is exempted from testifying about the subject matter of the declarant's statement
because the court rules that a privilege applies;
(2) refuses to testify about the subject matter despite a court order to do so;
(3) testifies to not remembering the subject matter, except as provided in Rule 803.1(4);
(4) cannot be present or testify at the trial or hearing because of death or a then-existing
infirmity, physical illness, or mental illness; or
(5) is absent from the trial or hearing and the statement's proponent has not been able, by
process or other reasonable means, to procure:
(A) the declarant's attendance, in the case of a hearsay exception
under Rule 804(b)(1) or (6); or
(B) the declarant’s attendance or testimony, in the case of a hearsay
exception under Rule 804(b)(2), (3), or (4).

But this paragraph (a) does not apply if the statement's proponent procured or wrongfully
caused the declarant's unavailability as a witness in order to prevent the declarant from attending
or testifying.
NOTES

Comment:
Pa.R.E. 804(a)(3) differs from F.R.E. 804(a)(3) in that it

excepts from this rule instances where a declarant-witness’s claim of
an inability to remember the subject matter of a prior statement is
parules

1

© 2021 Matthew Bernier & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

zw3;

not credible, provided the statement meets the requirements found in
Pa.R.E. 803.1(4), This rule is otherwise identical to F.R.E. 804(a).
A declarant-witness with credible memory loss about the subject
matter of a prior statement may be subject to this rule.
(b) The Exceptions. The following are not excluded by the rule against hearsay if the
declarant is unavailable as a witness:
(1) Former Testimony. Testimony that:
(A) was given as a witness at a trial, hearing, or lawful deposition,
whether given during the current proceeding or a different one; and
(B) is now offered against a party who had--or, in a civil case, whose
predecessor in interest had—an opportunity and similar motive to
develop it by direct, cross-, or redirect examination.
NOTES

Comment:
Pa.R.E. 804(b)(1) is identical to F.R.E. 804(b)(1).

In criminal cases the Supreme Court has held that former testimony is
admissible against the defendant only if the defendant had a "full
and fair" opportunity to examine the witness. SeeCommonwealth v.
Bazemore, 614 A.2d 684 (Pa. 1992).
Depositions
Depositions are the most common form of former testimony that is
introduced at a modern trial. Their use is provided for not only by
Pa.R.E. 804(b)(1), but also by statute and rules of procedure
promulgated by the Pennsylvania Supreme Court.
parules

2

© 2021 Matthew Bender & Company, lne., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

ZfcH

The Judicial Code provides for the use of depositions in criminal
cases. 42 Pa.C.S. § 5919 provides:

Depositions in criminal matters. The testimony of witnesses taken in
accordance with section 5325 (relating to when and how a deposition
may be taken outside this Commonwealth) may be read in evidence upon
the trial of any criminal matter unless it shall appear at the trial
that the witness whose deposition has been taken is in attendance, or
has been or can be served with a subpoena to testify, or his
attendance otherwise procured, in which case the deposition shall not
be admissible.
42

Pa.C.S. § 5325 sets forth the procedure for taking depositions, by
either prosecution or defendant, outside Pennsylvania.

In civil cases, the introduction of depositions, or parts thereof, at
trial is provided for by Pa. R.C.P. No. 4020(a)(3) and (5).

A video deposition of a medical witness, or any expert witness, other
than a party to the case, may be introduced in evidence at trial,
regardless of the witness's availability, pursuant to Pa.R.C.P. No.
4017.1(g).
42

parules

3

© 2021 Matthew Bender & Company, Inc., a member of the LxxisNexis Croup. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

ZAA

Pa.C.S. § 5936 provides that the testimony of a licensed physician
taken by deposition in accordance with the Pennsylvania Rules of
Civil Procedure is admissible in a civil case. There is no
requirement that the physician testify as an expert witness.
(2) Statement Under Belief of Imminent Death. A statement that the declarant, while
believing the declarant's death to be imminent, made about its cause or circumstances.
NOTES

Comment:
Pa.R E. 804(b)(2) differs from F.R.E. 804(b)(2) in that the

Federal Rule is applicable in criminal cases only if the defendant is
charged with homicide. The Pennsylvania Rule is applicable in all
civil and criminal cases, subject to the defendant's right to
confrontation in criminal cases.
In Crawford v. Washington, 541 U.S. 36 (2004), the Supreme Court
interpreted the Confrontation Cause in the Sixth Amendment of the
United States Constitution to prohibit the introduction of
"testimonial" hearsay from an unavailable witness against a defendant
in a criminal case unless the defendant had an opportunity to
confront and cross-examine the declarant, regardless of its exception
from the hearsay rule. However, in footnote 6, the Supreme Court
said that there may be an exception, sui generis, for those dying
declarations that are testimonial.
(3) Statement Against Interest. A statement that:
(A) a reasonable person in the declarant's position would have made
parules

4

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

_

r‘

Z-U

only if the person believed it to be true because, when made, it was so
contrary to the declarant’s proprietary or pecuniary interest or had so
great a tendency to invalidate the declarant's claim against someone
else or to expose the declarant to civil or criminal liability; and
(B) is supported by corroborating circumstances that clearly indicate
its trustworthiness, if it is offered in a criminal case as one that
tends to expose the declarant to criminal liability.
NOTES

Comment:
This rule is identical to F.R.E. 804(b)(3).

(4) Statement of Personal or Family History. A statement made before the controversy
arose about:
(A) the declarant's own birth, adoption, legitimacy, ancestry,
marriage, divorce, relationship by blood, adoption or marriage, or
similar facts of personal or family history, even though the declarant
had no way of acquiring personal knowledge about that fact; or
(B) another person concerning any of these facts, as well as death, if
the declarant was related to the person by blood, adoption, or marriage
or was so intimately associated with the person’s family that the
declarant's information is likely to be accurate.
NOTES

Comment:
Pa.R.E. 804(b)(4) differs from F.R.E. 804(b)(4) by

parules

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement

l

fzon

requiring that the statement be made before the controversy arose.
See In re McClain's Estate, 392 A.2d 1371 (Pa. 1978). This
requirement is not imposed by the Federal Rule.
(5) Other exceptions (Not Adopted)
NOTES

Comment:
Pennsylvania has not adopted F.R.E. 804(b)(5) (now F.R.E.

807).
(6) Statement Offered Against a Party That Wrongfully Caused the Declarant's
Unavailability. A statement offered against a party that wrongfully caused—or acquiesced in
wrongfully causing-the declarant's unavailability as a witness, and did so intending that result.
NOTES

Comment:
This rule is identical to F.R.E. 804(b)(6).

NOTES

TREATISES AND ANALYTICAL MATERIALS
1. 17 P.L.E. CRIMINAL LAW § 282, Pennsylvania Law Encyclopedia, Declarations by Victims and
Third Persons, Matthew Bender & Company, Inc., a member of the LexisNexis Group.
2. 17 P.L.E. CRIMINAL LAW § 291, Pennsylvania Law Encyclopedia, In General, Matthew Bender &
Company, Inc., a member of the LexisNexis Group.
3. 18 P.L.E. CRIMINAL LAW § 333, Pennsylvania Law Encyclopedia, - Confessions, Matthew Bender
& Company, Inc., a member of the LexisNexis Group.
4. 24 P.L.E. EVIDENCE § 65, Pennsylvania Law Encyclopedia, Evidence at Former Trial, Matthew
Bender & Company, Inc., a member of the LexisNexis Group.
5. 24 P.L.E. EVIDENCE § 131, Pennsylvania Law Encyclopedia, Hearsay in General, Matthew Bender

parules

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

1

\2J& \

& Company, Inc., a member of the LexisNexis Group.
6. 24 P.L.E. EVIDENCE § 132, Pennsylvania Law Encyclopedia, Oral Statements by Third Persons,
Matthew Bender & Company, Inc., a member of the LexisNexis Group.
7. 24 P.L.E. EVIDENCE § 133, Pennsylvania Law Encyclopedia, Writings Containing Statements by
Third Persons, Matthew Bender & Company, Inc., a member of the LexisNexis Group.
8. 24 P.L.E. EVIDENCE § 137, Pennsylvania Law Encyclopedia, Self-Serving Declarations, Matthew
Bender & Company, Inc., a member of the LexisNexis Group.
9. 24 P.L.E. EVIDENCE § 139, Pennsylvania Law Encyclopedia, Declarations against Interest,
Matthew Bender & Company, Inc., a member of the LexisNexis Group.
10. 53 P.L.E. WITNESSES § 125, Pennsylvania Law Encyclopedia, Stenographic Notes or
Transcripts of Testimony or Statements, Matthew Bender & Company, Inc., a member of the LexisNexis
Group.
11. 55 P.L.E. WORKERS' COMPENSATION § 484, Pennsylvania Law Encyclopedia, Action by
Board, Matthew Bender & Company, Inc., a member of the LexisNexis Group.
12. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 104.06, CHAPTER 104 Preliminary
Questions, Rule 104(A) Determinations.
13. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 105.07, CHAPTER 105 Limiting Evidence
That is Not Admissible Against Other Parties or for Other Purposes, Limiting Instructions.
14. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 404.29, CHAPTER 404 Character Evidence;
Crimes or Other Acts, Crimes, Wrongs and Acts of Persons Other than Accused.
15. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 410.07, CHAPTER 410 Pleas, Plea
Discussions, and Related Statements, Guilty and Nolo Contendere Pleas.
16. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 602.02, CHAPTER 602 Need for Personal
Knowledge, Official Commentary.
17. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 602.06, CHAPTER 602 Need for Personal
Knowledge, When Personal Knowledge Not Required.
18. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 2, Introduction, Defendant's Constitutional
Right of Confrontation in Criminal Cases.
19. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 801.15, CHAPTER 801 Definitions That
Apply to This Article, Analyzing Hearsay.
20. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 802.02, CHAPTER 802 The Rule Against
Hearsay, Official Commentary.
21. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 802.05, CHAPTER 802 The Rule Against
Hearsay, Purpose and Use of Rule 802.
22. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 802.06, CHAPTER 802 The Rule Against
Hearsay, Relationship Between Hearsay and Confrontation Clause.

parules

7

© 202] Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

f”
I

ZJkh

r

23. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 802.08, CHAPTER 802 The Rule Against
Hearsay, Admissibility of Hearsay from Nontestifying Declarant.
24. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 803.22, CHAPTER 803 Exceptions to the
Rule Against Hearsay-Regardless of Whether the Declarant Is Available as a Witness, Judgment of a
Previous Conviction~[rule 803(22) Not Adopted].
25. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 803.25, CHAPTER 803 Exceptions to the
Rule Against Hearsay-Regardless of Whether the Declarant Is Available as a Witness, An Opposing
Party's Statement-Rule 803(25).
26. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 803.1.28, CHAPTER 803.1 Exceptions to
the Rule Against Hearsay-Testimony of Declarant Necessary, Official Commentary to Rule 803.1(4).
27. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.02, CHAPTER 804 Exceptions to the
Rule Against Hearsay—When the Declarant is Unavailable as a Witness, Introductory Official Commentary
to Rule 804.
28. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.05, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Comparison of Rule 804(A) with
Federal Rule of Evidence.
29. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.12, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Absence of Witness.
30. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.14, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Official Commentary to Rule
804(B)(1).
31. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.15, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Comparison of Rule 804(B)(1)
with Federal Rule of Evidence.
32. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.18, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Opportunity to Examine, Not
Actual Examination, Required.
33. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.20, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Criminal Cases.
34. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.21, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Civil Cases.
35. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.23, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Official Commentary to Rule
804(B)(2).
36. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.24, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Comparison of Rule 804(B)(2)
with Federal Rule of Evidence.
37. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.33, CHAPTER 804 Exceptions to the

parules

8

© 2021 Matthew Bender & Company, Ine.. a member of the L.exisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.
/

IZTO

Rule Against Hearsay-*When the Declarant is Unavailable as a Witness, Comparison of Rule 804(B)(3)
with Federal Rule of Evidence.
38. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.40, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Statements Against Penal
Interest.
39. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.42, CHAPTER 804 Exceptions to the
Rule Against Hearsay-When the Declarant is Unavailable as a Witness, Official Commentary to Rule
804(B)(4).
40. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.43, CHAPTER 804 Exceptions to the
Rule Against Hearsay--When the Declarant is Unavailable as a Witness, Comparison of Rule 804(B)(4)
with Federal Rule of Evidence.
41. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.50, CHAPTER 804 Exceptions to the
Rule Against Hearsay--When the Declarant is Unavailable as a Witness, Comparison of Rule 804(B)(6)
with Federal Rule of Evidence.
42. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.52, CHAPTER 804 Exceptions to the
Rule Against Hearsay--When the Declarant is Unavailable as a Witness, Purpose and Use of Rule
804(B)(6).
43. 1 Ohlbaum on the Pennsylvania Rules of Evidence § 804.53, CHAPTER 804 Exceptions to the
Rule Against Hearsay--When the Declarant is Unavailable as a Witness, Wrongdoing.

parules

9

© 2021 Matthew Bender & Company. Inc., a member ot' the LexisNexis Group All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

[

(in\

Additional material
from this filing is
available in the
Clerk's Office.

